<html>
<title> - ENDING THE CRISIS: AMERICA'S BORDERS AND THE PATH TO SECURITY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
 ENDING THE CRISIS: AMERICA'S BORDERS AND THE PATH TO SECURITY

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 7, 2017

                               __________

                            Serial No. 115-2

                               __________

       Printed for the use of the Committee on Homeland Security
       
       
       
       
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
                               
                               
                 U.S. GOVERNMENT PUBLISHING OFFICE
                   
 26-396 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                                    
                               
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
John Katko, New York                 Bonnie Watson Coleman, New Jersey
Will Hurd, Texas                     Kathleen M. Rice, New York
Martha McSally, Arizona              J. Luis Correa, California
John Ratcliffe, Texas                Val Butler Demings, Florida
Daniel M. Donovan, Jr., New York     Nanette Diaz Barragan, California
Mike Gallagher, Wisconsin
Clay Higgins, Louisiana
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     8

                               WITNESSES
                                Panel I

Hon. John F. Kelly, Secretary, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................    10
  Prepared Statement.............................................    11

                                Panel II

Mr. Steven C. McCraw, Director, Texas Department of Homeland 
  Security:
  Oral Statement.................................................    88
  Prepared Statement.............................................    90
Mr. Joe Frank Martinez, Sheriff, Val Verde County, Texas:
  Oral Statement.................................................    99
  Prepared Statement.............................................   101
Mr. Leon N. Wilmot, Sheriff, Yuma County, Arizona:
  Oral Statement.................................................   103
  Prepared Statement.............................................   105
Hon. Eddie Trevino, Jr., County Judge, Cameron County, Texas:
  Oral Statement.................................................   113
  Prepared Statement.............................................   116

                             FOR THE RECORD

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Letter to Chairman Michael T. McCaul...........................     4
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island:
  Brief, Response to Emergency Motion, Exhibit P.................    25
  Article, New York Times........................................    34
The Honorable Will Hurd, a Representative in Congress From the 
  State of Texas:
  Slides.........................................................    51
The Honorable Bonnie Watson Coleman, a Representative in Congress 
  From the State of New Jersey:
  Article, New York Times........................................    54
The Honorable Martha McSally, a Representative in Congress From 
  the State of Arizona:
  Statement of Anthony M. Reardon, President, National Treasury 
    Employees Union..............................................    57
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Article, Houston Chronicle.....................................    67
The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Letter.........................................................    86
The Honorable Nanette Diaz Barragan, a Representative in Congress 
  From the State of California:
  Statement of the American Immigration Council..................   136

                                APPENDIX

Questions From Honorable Will Hurd for John Kelly................   149
Questions From Ranking Member Bennie G. Thompson for John Kelly..   149


     ENDING THE CRISIS: AMERICA'S BORDERS AND THE PATH TO SECURITY

                              ----------                              


                       Tuesday, February 7, 2017

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:10 a.m., in 
HVC-210, Capitol Visitor Center, Hon. Michael T. McCaul 
(Chairman of the committee) presiding.
    Present: Representatives McCaul, King, Rogers, Duncan, 
Barletta, Perry, Katko, Hurd, McSally, Ratcliffe, Donovan, 
Gallagher, Higgins, Rutherford, Garrett, Fitzpatrick, Thompson, 
Jackson Lee, Langevin, Richmond, Keating, Payne, Vela, Watson 
Coleman, Rice, Correa, Demings, and Barragan.
    Chairman McCaul. Committee on Homeland Security will come 
to order. The committee is meeting today to examine America's 
borders and the path to security.
    I now recognize myself for an opening statement.
    First, I want to welcome General Kelly to his first hearing 
before Congress since his confirmation as Secretary of Homeland 
Security.
    Mr. Secretary, thank you for joining us here today. This 
committee is eager to work with you and we stand ready to help 
you and the Department succeed. Your job will not be easy, as 
you know. But as we talked about last week, your leadership is 
vital.
    The Trump administration has inherited porous borders, 
failed immigration policies, and a grave and growing terror 
threat; 2 weeks ago the Trump administration took action to 
address these dangers. First the President signed an Executive 
Order for a border security surge. Today we will get an update 
on that effort and how you plan to create multi-layered 
defenses to keep criminals, drug cartels, and potential 
terrorists out of the country.
    After the Secretary's testimony we will welcome a panel of 
front-line defenders from Texas and Arizona for a frank 
discussion about the challenges at the local level.
    Second, the President signed an Executive Order to put a 
pause on immigration and refugee admissions from high-threat 
parts of the world. The pause will give us time to enhance 
security checks to stop terrorists from using our immigration 
system as a Trojan horse, as they have already done in Europe. 
Last year I helped to draft a memo to then-candidate Trump 
explaining how we could intensify the vetting process while 
ensuring our doors remain open to peaceful, free, and loving 
people regardless of race or religion.
    I also authored the American SAFE Act, which called for 
temporary pausing of the Syrian refugee program so we could 
improve security screening, and it passed the House with a 
bipartisan veto-proof majority.
    I am encouraged the President has paid attention to those 
recommendations, but the roll-out of his Executive Order has 
been problematic. It caused confusion here in Congress, across 
the country, and around the world, and it caused real problems 
for people with lawful green cards and visas, who in some cases 
were already in the air when the order was signed.
    Secretary Kelly, you and I have spoken about my concerns, 
and I am reassured that you have taken positive steps to help 
correct the order's deficiencies.
    Now we will wait to see how the matter is handled in the 
courts. In the mean time, let me stress that the words we use 
about this Executive matter. This is not a Muslim ban and even 
the suggestion that it could will alienate our allies and 
embolden our adversaries. This is a temporary suspension on 
visas from high-risk terror threat countries and a pause on the 
refugee program. This will allow the administration to put in 
place enhanced vetting to keep terrorists out and keep 
Americans safe.
    These countries were selected because of a law drafted by 
this committee which designated four nations as terror 
hotspots, including all State sponsors of terror. The Obama 
administration later added these additional countries to the 
list, bringing the total number of countries to seven.
    This is what the Trump administration relied on, a law 
based on risk not on religion. I urge my colleagues and the 
media to avoid reckless statements to the contrary.
    Now is the time for DHS to move forward with common-sense, 
21st-Century vetting changes. I hope the Department will follow 
this committee's guidance. We have been focused--more focused 
than any other panel in Congress on shutting down terror 
pathways into this country.
    In 2015 we created a bipartisan task force that conducted 
one of the widest reviews of security gaps since the 9/11 
Commission. That review produced more than 50 recommendations 
to stop jihadists from entering the United States undetected. 
Some of these were enacted into law while others were not. We 
need to address them as soon as possible, especially visa and 
refugee security improvements.
    Finally, because of the law drafted by this committee the 
President will be required to submit a National strategy to 
combat terrorist travel to this Congress this summer. We look 
forward, sir, to receiving it and reviewing the Trump 
administration's long-term plan for denying jihadists entry 
into the United States, including at the border.
    Americans are eager to see results. Washington's open-
border policies and weak immigration screening have failed our 
people and our committee--communities time and time again. That 
is why I am pleased today, sir, we have a no-nonsense Secretary 
of Homeland Security, a former Marine, who is ready to do what 
others could not by finally securing our territory.
    Mr. Secretary, I want to thank you again for joining us 
today. You are charged with confronting adaptive threats and 
insidious enemies. I want you to know that this committee and 
this Congress stand ready to work with you to secure America.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                            February 7, 2017
    The Trump administration has inherited porous borders, failed 
immigration policies, and a grave and growing terror threat. Two weeks 
ago, the Trump administration took action to address these dangers.
    First, the President signed an Executive Order for a border 
security ``surge.'' Today, we will get an update on that effort and how 
you plan to create multi-layered defenses to keep criminals, drug 
cartels, and potential terrorists out of our country. After the 
Secretary's testimony, we will welcome a panel of front-line defenders 
from Texas and Arizona for a frank discussion about the challenges at 
the local level.
    Second, the President signed an Executive Order to put a ``pause'' 
on immigration and refugee admissions from high-threat parts of the 
world. The pause will give us time to enhance security checks to stop 
terrorists from using our immigration system as a Trojan Horse--as they 
have already done in Europe.
    Last year, I helped to draft a memo to then-candidate Trump 
explaining how we could intensify the vetting process while ensuring 
our doors remain open to peaceful, freedom-loving people, regardless of 
race or religion. I also authored the American SAFE Act, which called 
for temporarily pausing the Syrian refugee program so we could improve 
security screening. It passed the House with a bi-partisan veto-proof 
majority.
    I am encouraged the President has paid attention to those 
recommendations.
    But the roll-out of his Executive Order has been problematic. It 
caused confusion here in Congress, across the country, and around the 
world. And it caused real problems for people with lawful green cards 
and visas, who in some cases were already in the air when the order was 
signed.
    Secretary Kelly, you and I have spoken about my concerns, and I am 
reassured that you have taken positive steps to help correct for the 
order's deficiencies. Now we will wait to see how the matter is handled 
in the courts.
    In the mean time, let me stress that the words we use about this 
Executive Order matter. This is not a Muslim ban. And even the 
suggestion that it is could alienate our allies and embolden our 
adversaries.
    Again, this is a temporary suspension on visas from high-risk 
terror threat countries and a pause on the refugee program. This will 
allow the administration to put in place enhanced vetting to keep 
terrorists out and keep Americans safe.
    These countries were selected because of a law drafted by this 
committee, which designated four nations as terror hotspots, including 
all ``state sponsors of terror.''
    The Obama administration later added three additional countries to 
this list, bringing the total to seven.
    That is what the Trump administration relied on--a law based on 
risk, not on religion.
    I urge my colleagues and the media to avoid reckless statements to 
the contrary.
    Now is the time for DHS to move forward with common-sense, 21st-
Century vetting changes. I hope the Department will follow this 
committee's guidance. We have been more focused than any other panel in 
Congress on shutting down terrorist pathways into this country.
    In 2015, we created a bipartisan task force that conducted one of 
the widest reviews of security gaps since the 9/11 Commission. That 
review produced more than 50 recommendations to stop jihadists from 
entering the United States undetected. Some of these were enacted into 
law, while others were not. So we need to address them as soon as 
possible, especially visa and refugee security improvements.
    Finally, because of a law drafted by this committee, the President 
will be required to submit a ``National strategy to combat terrorist 
travel'' to Congress this summer. We look forward to receiving it and 
reviewing the Trump administration's long-term plan for denying 
jihadists entry into the United States, including at the border.
    Americans are eager to see results. Washington's open-border 
policies and weak immigration screening have failed our people and our 
communities time and again. That is why I am pleased we have a ``no-
nonsense'' Secretary of Homeland Security, who is ready to do what 
others could not by finally securing our territory.
    Mr. Secretary, I want to thank you again for joining us today. You 
are charged with confronting adaptive threats and insidious enemies. 
And I want you to know that this committee and this Congress stand 
ready to work with you to secure America.
    Americans are eager to see results. Washington's open-border 
policies and weak immigration screening have failed our people and our 
communities time and again.
    That is why I am pleased we have a ``no-excuses'' President and 
Secretary of Homeland Security, who are ready to do what others could 
not by finally securing our territory.
    Mr. Secretary, I want to thank you again for joining us today. You 
are charged with confronting adaptive threats and insidious enemies.
    And I want you to know that this committee and this Congress stand 
ready to work with you to secure America.

    Chairman McCaul. With that, the Chair now recognizes the 
Ranking Member, Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman. Thank you 
for holding today's hearing entitled, ``Ending the Crisis: 
America's Borders and the Path to Security.''
    Let me welcome our new Secretary.
    We are glad to have you. Your record speaks for itself.
    Some of us served on the Hill when you were on the Hill. 
You had a few less stars and other things associated with that 
service, but thank you very much for your service.
    However, I would note, Mr. Chairman, that the urgent border 
crisis facing our Nation is not occurring at our Southern 
Border, but rather is a one of President Trump's own making. 
His Executive Order banning all travel from seven majority-
Muslim countries and suspending our refugee program under the 
guise of security does nothing to make us safer.
    Blocking the admission of green card holders who are 
doctors, scientists, business owners, and other valued members 
of our society does nothing to make us safer. Suspending the 
admission of refugees, like this teddy bear-holding, 4-year-old 
Somali girl who had to be vetted for years, does nothing to 
make us safer.
    To the contrary, the Executive Order makes America less 
safe by serving as a recruitment and propaganda tool for 
terrorist groups, complicating coordination with allies and 
partners in the fight against terrorism, and distracting border 
security personnel from the job of thoroughly screening all 
travelers to this country on an individualized basis.
    No amount of fear-mongering via Twitter or alternative 
facts will change the fact that on January 27, with a stroke of 
a pen, President Trump changed this Nation's standing both at 
home and abroad. Democratic Members have many questions about 
President Trump's unconstitutional Muslim ban and have signed a 
letter to Chairman McCaul asking for a hearing to allow for a 
thorough examination of the issues.
    With that, Mr. Chairman, I ask unanimous consent to include 
the letter in the record.
    Chairman McCaul. Without objection, so ordered.
    [The information referred to follows:]
                  Letter to Chairman Michael T. McCaul
                                  February 6, 2017.
The Honorable Michael T. McCaul,
Chairman, Committee on Homeland Security, Washington, DC.
    Dear Chairman McCaul: We are writing to request that you hold a 
Full Committee hearing to examine President Trump's ``Muslim Ban'' 
Executive Order, entitled Protecting the Nation from Foreign Terrorist 
Entry Into the United States.
    This Executive Order, signed on January 27th, imposed, with limited 
exceptions, an immediate prohibition on citizens of Iran, Iraq, Libya, 
Somalia, Sudan, Syria, and Yemen from entering the United States for 90 
days.\1\ The Executive Order also suspends the entry of Syrian refugees 
indefinitely, requires the State Department to suspend the U.S. Refugee 
Admissions Program for 120 days, and lowers the total number of 
refugees allowed to be admitted to the U.S. for fiscal year 2017 to 
50,000.\2\ Upon issuance of the Executive Order, the State Department 
revoked approximately 60,000 visas \3\ belonging to those covered by 
the order and U.S. Customs and Border Protection (CBP) instructed air 
carriers to deny boarding to covered individuals at overseas 
airports.\4\ The rollout of the ``Muslim Ban'' created havoc not only 
for the air carriers and their passengers, but also CBP Officers who 
were put in the untenable position of having to enforce the order 
without guidance.
---------------------------------------------------------------------------
    \1\ Exec. Order No. 13769, 82 Fed. Reg. 8977.
    \2\ Id.
    \3\ Mica Rosenberg & Lesley Wroughton, ``Trump Travel Ban Has 
Revoked 60,000 Visas for Now,'' Reuters (Feb. 3, 2017), http://
www.reuters.com/article/us-usa-immigration-visas-idUSKBN1512EW (last 
visited Feb. 5, 2017).
    \4\ https://www.cbp.gov/border-security/protecting-nation-foreign-
terrorist-entry-united-states.
---------------------------------------------------------------------------
    While we recognize that the future of the ``Muslim Ban'' is 
presently a question for the Federal Judiciary, we have an obligation, 
as co-equal constitutional partners to the Executive and Judicial 
branch, to do robust oversight of the ``Muslim Ban's'' immediate and 
long-term homeland security and national security implications. To that 
end, we look forward to working with you to ensure that that a hearing 
is scheduled soon to receive testimony from Departmental officials, 
national and homeland security experts and the private sector 
(including air carriers) to address the far-reaching impacts of the 
``Muslim Ban''.
    Should you have questions about this request, please contact Hope 
Goins on the Democratic staff.
                                              Respectfully,
                                BENNIE G. THOMPSON, Ranking Member.
                                                SHEILA JACKSON LEE.
                                                 JAMES R. LANGEVIN.
                                                CEDRIC L. RICHMOND.
                                                WILLIAM R. KEATING.
                                               DONALD M. PAYNE, JR.
                                                      FILEMON VELA.
                                             BONNIE WATSON COLEMAN.
                                                  KATHLEEN M. RICE.
                                                    J. LUIS CORREA.
                                                VAL BUTLER DEMINGS.
                                             NANETTE DIAZ BARRAGAN.

    Mr. Thompson. Thank you.
    We look forward to beginning to get some answers at today's 
hearing. I want to thank our witnesses, Secretary of Homeland 
Security, again, John F. Kelly, for testifying before this 
committee today.
    Frankly, it is somewhat unfair that Secretary Kelly is 
being called on to defend an Executive Order that, by most 
accounts, he was required to implement with almost no notice. 
The White House officials who directed the roll-out of the 
Executive Order should be here to answer this debacle.
    But we appreciate your willingness, sir, to come before us 
as Secretary.
    I also appreciate the witnesses on our second panel being 
here today to share their perspectives on the security of our 
Southern Border. President Trump's words and actions related to 
the Southern Border and the government and people of Mexico 
have been counterproductive, to put it mildly. Like the Muslim 
ban, President Trump's proposed border wall will do little to 
better secure America's borders, but will cost Americans 
billions.
    The Department of Homeland Security has no matrix to show 
that border walls enhance security in a way that justifies 
their exorbitant cost. Putting the wall on the American 
taxpayers' credit card, knowing that Mexico has absolutely no 
intentions of paying for it, will surely leave American 
taxpayers stuck with the bill.
    Instead, we need border security policy that keeps 
terrorists, their instruments, criminals, and contraband out of 
this country while upholding American values and ensuring the 
flow of legitimate travelers and commerce that is vital to our 
Nation's economy and our way of life.
    I look forward to engaging the witnesses and Members today 
in a discussion about how we can do just that.
    Mr. Chairman, I thank you for holding today's hearing and 
yield back the balance of my time.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                            February 7, 2017
    I would note that the urgent border security crisis facing our 
Nation is not occurring at our Southern Border, but rather is one of 
President Trump's own making.
    His Executive Order banning all travel from seven majority-Muslim 
countries and suspending our refugee program under the guise of 
security does nothing to make us safer.
    Blocking the admission of green card holders, who are doctors, 
scientists, business owners, and other valued members of our society, 
does nothing to make us safer.
    Suspending the admission of refugees like this teddy-bear holding 
4-year-old Somali girl who had been vetted for years, does nothing to 
make us safer.
    To the contrary, the Executive Order makes America less safe by 
serving as a recruitment and propaganda tool for terrorist groups, 
complicating coordination with allies and partners in the fight against 
terrorism, and distracting border security personnel from the job of 
thoroughly screening all travelers to this country on an individualized 
basis.
    No amount of fear-mongering via Twitter or ``alternative facts'' 
will change the fact that on January 27, with the stroke of a pen, 
President Trump changed this Nation's standing both at home and abroad.
    Democratic Members have many questions about President Trump's 
unconstitutional Muslim ban, and have signed a letter to Chairman 
McCaul asking for a hearing to allow for a thorough examination of the 
issues.
    I want to thank our witness, Secretary of Homeland Security, 
General John F. Kelly, for testifying before the Committee today and 
for his long and distinguished record of service to our Nation.
    Frankly, it is somewhat unfair that Secretary Kelly is being called 
on to defend an Executive Order that, by most accounts, he was required 
to implement with almost no notice. The White House officials who 
directed the roll-out of the Executive Order should be here to answer 
for this debacle.
    President Trump's words and actions related to the Southern Border 
and the government and people of Mexico have been counterproductive, to 
put it mildly.
    Like the Muslim Ban, Trump's proposed ``border wall'' will do 
little to better secure America's borders but will cost the Americans 
billions.
    The Department of Homeland Security has no metrics to show that 
border walls enhance security in a way that justifies their exorbitant 
cost.
    Putting the wall on the American taxpayers' credit card, knowing 
that Mexico has absolutely no intention of paying for it, will surely 
leave the American taxpayers stuck with the bill.
    Instead, we need border security policy that keeps terrorists, 
their instruments, criminals, and contraband out of this country, while 
upholding American values and ensuring the flow of legitimate travelers 
and commerce that is vital to our Nation's economy and our way of life.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman McCaul. Thank the Ranking Member. Members are 
reminded they may submit statements for the record.
    [The statement of Hon. Jackson Lee follows:]
               Statement of Honorable Sheila Jackson Lee
                            February 7, 2017
    Thank you Chairman McCaul, and Ranking Member Thompson, for 
convening this opportunity for the Homeland Security Committee to hear 
from Secretary Kelly and from experts who can speak on the topic of 
``Ending the Crisis: America's Borders and the Path to Security.''
    I join my colleagues on the committee in welcoming the Secretary of 
Homeland Security John F. Kelly to receive his testimony, which will 
give Members an opportunity to learn more about the President's 
Executive Orders and the enforcement role of DHS.
    On Friday, January 27, 2017, the President signed an Executive 
Order suspending all resettlement of Syrian refugees indefinitely, and 
resettlement of all other refugees for 120 days.
    The order also imposed a 90-day ban on entry of nationals from 
seven predominately Muslim countries: Iraq, Syria, Iran, Sudan, Libya, 
Somalia, and Yemen.
    There is little reason to doubt that the motivation behind the 
Trump Executive Order was to target and exdude persons whose religious 
faith is Mllslim.
    Simply put, the Executive Order on its face is a ban on Muslims 
masquerading as a measure to protect the homeland.
    It has been widely reported that former New York City Mayor Rudy W. 
Giuliani is quoted as daiming that the President wanted a ``Muslim 
ban'' and requested that the former mayor assemble a commission to show 
him ``the right way to do it legally.''
    I was at my local airport the following night (as were many of my 
colleagues) seeking answers for frantic parents, children, relatives, 
and friends of those traveling who reached out to my office for help 
when their loved ones failed to appear outside of the international 
debarkation areas at Bush Intercontinental Airport.
    Custom and Border Protection officers were ill-equipped with 
information or guidance on what they were supposed to do with arriving 
passengers.
    What ensued was chaos.
    Federally-issued travel documents were routinely ignored, along 
with the laborious work that went into vetting people who were legal 
permanent residents such as green card holders and thoroughly-vetted 
refugees who had undergone an 18-24 month process to gain admittance 
into the United States.
    The President has tried to equate his Muslim ban with the enhanced 
screening of Iraqi visa applicants started by President Obama in 2011 
in response to a specific security threat.
    This is a false equivalence, and one which earned the President two 
Pinocchio's from the Washington Post's Fact Checker.
    The facts are these: President Obama did not impose a ban on visa 
applications, and his policy did not seek to prevent all citizens of 
Iraq, including green-card holders, from traveling to the United 
States.
    Members of Congress take a solemn oath to support and defend the 
Constitution of the United States and keep the American people safe.
    Democrats intend to honor that oath by opposing the President's 
dangerous and unconstitutional Muslim ban.
    As Americans, we are at our best when we are true to the values we 
hold dear, beginning with fidelity to the Constitution and the laws of 
the United States.
    The Executive Order issued nearly 2 weeks ago by the President is a 
radical departure from these principles and I call upon him to rescind 
this order immediately.
    My staff is in touch with communities that I serve in the Houston 
area to ensure they know that the rule of law will triumph in the end.
    I applaud the first temporary restraining order issued by U.S. 
District Judge Ann Donnelly of the Eastern District of New York that 
enjoined the Trump administration from, in any manner or by any means, 
removing individuals with refugee applications approved by U.S. 
Citizenship and Immigration Services as part of the U.S. Refugee 
Admissions Program, holders of valid immigrant and non-immigrant visas, 
and other individuals from Iraq, Syria, Iran, Sudan, Libya, Somalia, 
and Yemen legally authorized to enter the United States.
    It is my understanding that the U.S. Court of Appeals for the Ninth 
Circuit will hear argument this evening in San Francisco, California 
regarding the administration's attempt to vacate the stay and permit 
the Executive Order to be implemented.
    As a Member of the House Judiciary Committee, I find it outrageous 
that the President has launched yet another vicious personal attack 
against a sitting Federal judge simply because the judge issued a 
ruling that displeased the President.
    We saw him do so for the first time last June when candidate Trump 
impugned the integrity of U.S. District Judge Gonzalvo Curiel, claiming 
he was not fit to preside over the Trump University fraud case 
``because he's a Mexican.''
    The independence of the Federal judiciary, and its role in 
providing a check on Legislative and Executive branches, is one of the 
crown jewels of American democracy and is indispensable to our system 
of government.
    I thank the ACLU and other non-governmental organizations that went 
to work immediately to challenge the Constitutionality of the Executive 
Order and for their success in winning temporary stays of the order 
enjoining the Trump administration from taking action to deport 
refugees and immigrants currently being detained.
    I look forward to Secretary Kelly's testimony and the testimony of 
the second panel of witnesses, which include:
  <bullet> Mr. Steve C. McCraw, Director, Texas Department of Homeland 
        Security;
  <bullet> Mr. Joe Frank Martinez, Sheriff, Val Verde County, Texas
  <bullet> Mr. Leon N. Wilmot, Sheriff, Yuma County, Arizona; and
  <bullet> The Honorable Eddie Trevino, Jr. County Judge, Cameron 
        County, Texas.
    Thank you. I yield back the remainder of my time.

    Chairman McCaul. We have two distinguished panels here 
today.
    We will hear first from the Honorable John F. Kelly. He was 
recently sworn in as the fifth Secretary of Homeland Security. 
Secretary Kelly was born and raised in Boston, Massachusetts. 
He enlisted in the Marine Corps in 1970, was discharged as a 
sergeant in 1972. Following graduation from the University of 
Massachusetts in 1976, he received his commission as a Marine 
Corps officer.
    In 2002 he was elected to the rank of brigadier general and 
did multiple tours during combat in Iraq. By 2012, was 
nominated his fourth star and command of the United States 
Southern Command. After last--less than a year in retirement 
Secretary Kelly was offered the opportunity to serve the Nation 
again as Secretary of Homeland Security. I am personally 
pleased at the President's choice.
    I recently read a moving excerpt from a speech you gave, 
sir, while serving in the Marine Corps, and I would like to 
read it aloud today. You said, ``We Marines believe that God 
gave America the greatest gift he could bestow to man while he 
lived on this Earth, and that is freedom. We also believe He 
gave us another gift nearly as precious: Our soldiers, sailors, 
airmen, Coast Guardsmen and Marines, to safeguard that gift and 
guarantee that no force on this Earth can ever steal it away.''
    Those are great words. I want to thank you for being here 
today.
    Chair now recognizes Secretary Kelly for an opening 
statement.

STATEMENT OF HON. JOHN F. KELLY, SECRETARY, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Secretary Kelly. Good morning, Mr. Chairman and Ranking 
Member Thompson, and all the Members of the committee. It is my 
honor to appear here today to discuss the Department's crucial 
mission of securing the border and many other issues.
    For 45 years I was privileged to serve both as an enlisted 
Marine and as an officer. I am humbled again to answer the call 
to duty and take over at the Department of Homeland Security.
    Our Nation faces diverse challenges and dangerous 
adversaries who do not respect the rule of law or of borders. 
While long aware of its great work, I have recently had the 
opportunity to witness first-hand the pride, experience, and 
professionalism of the DHS work force. I am proud of our men 
and women, as the Nation should be as well.
    As Secretary, you have my commitment to vigorously protect 
our country, secure our borders, and enforce our laws, all 
while facilitating lawful trade and travel. In doing so, know 
that I take seriously our responsibility to balance security 
with the protections afforded by law, privacy rights, and our 
civil rights and liberties.
    Securing a Nation's borders is one of the primary 
responsibilities of any sovereign nation, including ours. Under 
my leadership and the direction of President Trump, we will 
finally do so.
    We will build appropriate physical barriers, which will be 
monitored and supported by trained professionals within the 
Department of Homeland Security. We will work to prevent 
illegal immigration, drug and human trafficking, and 
terrorists--and I include here narcoterrorists--from entering 
our Nation.
    We will enforce our immigration laws in an efficient and 
effective manner. We will work closely with our State and local 
law enforcement partners, some of whom are here today. All of 
this consistent with, of course, Federal law.
    It is our duty to protect our citizens from terrorism and 
to prevent the admission of foreign nationals who intend to 
exploit our generous immigration laws. The President's 
Executive Orders on border security immigration enforcement 
will enhance public safety for all of our citizens.
    The President's recent Executive Order to temporarily 
suspend entry for foreign nationals from seven countries we 
believe is lawful and Constitutional, and the review ordered by 
the President is necessary and appropriate. It will enable us 
to assess the adequacy and availability of information we need 
from all countries to adjudicate all visa applications, or 
other benefits under our existing immigration laws, and to 
determine if the person seeking the benefit is, in fact, who 
they say they are and would not present us a threat.
    While some of the core tenets of this order are the subject 
of on-going litigation, it is my belief that we will prevail 
and be able to take the steps necessary to protect our Nation. 
Americans must feel safe to walk down the street, go to the 
mall, or to a night club anywhere and anytime. Fear must not 
become the status quo as it has in so many parts of the world.
    My responsibility and that of the tremendous men and women 
of the Department is to carry out those lawful measures in a 
manner that best protects the safety of all Americans. The 
safety of American lives is and will always be my foremost 
concern.
    Before I conclude, I would like to thank the committee for 
its continued leadership, notably in seeking to reauthorize the 
Department. I appreciate your efforts, especially in securing 
the memorandum of understanding, which will help facilitate the 
reauthorization we currently need.
    The threats and challenges have changed since Congress 
created DHS some 15 years ago. We need to update the 
authorities to successfully complete our mission today. I look 
forward, sir, to answering your questions.
    [The prepared statement of Secretary Kelly follows:]
                  Prepared Statement of John F. Kelly
                            February 7, 2017
                              introduction
    Mr. Chairman, Ranking Member Thompson, and distinguished Members of 
the committee: It is a great honor and privilege to appear before you 
today to discuss the crucial mission of the Department of Homeland 
Security (DHS) to protect the homeland and secure our Nation's borders.
    Over the past 45 years, it has been my privilege to serve my Nation 
as both an enlisted Marine and an officer. I have worked with our 
allies across agencies, the private sector, and with independent 
experts to identify innovative, comprehensive solutions to current and 
emerging threats. These assignments--while varied--share the common 
characteristics of working within and leading large, complex, and 
diverse mission-focused organizations while under great pressure to 
produce results.
    I am humbled to once again to be called to serve, this time with 
the men and women of DHS. As a Department, we face diverse challenges 
and adversaries that do not respect our rule of law or our borders. As 
Secretary, you have my commitment to tirelessly protect our country 
from threats, secure the border, and enforce the law while expediting 
lawful trade and travel. In pursuit of those missions, please know that 
I take seriously our legal responsibilities to balance the security of 
our homeland with the protection of privacy, civil rights, and civil 
liberties.
                    the president's executive orders
    During his first 2 weeks in office, President Trump issued 
Executive Orders to secure our borders, enforce our immigration laws, 
and protect the Nation from foreign terrorist entry into the United 
States. The President has gotten right to work, fighting on behalf of 
American families and workers--and these moves will strengthen our 
National security.
    The purpose of the order on border security is to direct Executive 
departments and agencies to deploy all lawful means to secure the 
Nation's Southern Border, prevent further illegal immigration into the 
United States, and to repatriate illegal aliens swiftly, consistently, 
and humanely.
    This Executive Order establishes the foundation for securing our 
Southern Border by providing the tools, resources, and policy direction 
for DHS's dedicated men and women who are responsible for securing the 
border--to prevent illegal immigration, drug and human trafficking, and 
acts of terrorism. In accordance with existing law, DHS is immediately 
taking all appropriate steps to plan, design, and construct a physical 
wall along the Southern Border, using the materials and technology that 
will most effectively achieve operational control of the Southern 
Border. In addition, DHS is immediately taking all appropriate action 
to ensure that the parole and asylum provisions of Federal immigration 
law consistently applied with the requirements of the law, and not 
exploited to prevent the removal of otherwise removable aliens.
    The Executive Order on interior immigration enforcement provides 
DHS with the tools it needs to enforce Federal immigration laws within 
the United States. It will remove many of the obstacles that have been 
making it more difficult for the dedicated men and women of U.S. 
Immigration and Customs Enforcement (ICE) to carry out their mission, 
which includes arresting, detaining, and removing illegal aliens from 
the United States. Essentially, it will restore the highly successful 
Secure Communities Program, which allows ICE to target more easily 
criminal aliens for removal.
    A third Executive Order, signed by the President on January 27, 
will protect all Americans from certain foreign nationals who intend to 
commit terrorist attacks in the United States by preventing such 
individuals from exploiting our immigration laws. The order suspends 
entry into the United States from Iran, Iraq, Somalia, Sudan, Syria, 
Libya, and Yemen until we complete comprehensive review. It directs 
Federal agencies to implement uniform screening standards across all 
immigration programs. It suspends the Refugee Admissions Program for 
120 days, giving us time to assess the vulnerabilities in the program 
and establish additional procedures to ensure refugees admitted do not 
pose a threat to National security or public safety. It orders 
completion of the biometric entry-exit system. It also ensures that 
applicants for visas are personally interviewed before their visas are 
approved in compliance with Section 222 of the Immigration and 
Nationality Act.
    As the President has stated, ``Homeland Security is in the business 
of saving lives, and that mandate will guide our actions.'' These 
Executive Orders further that goal by enhancing border security, 
promoting public safety, and minimizing the threat of terrorist attacks 
by foreign nationals in the homeland. More important, however, these 
Executive Orders emphasize the rule of law as a bedrock principle of 
our immigration system and provide clearly-defined consequences for 
those who would violate our laws.
              border security and immigration enforcement
    As a Nation, control of our borders is paramount. Without that 
control, every other form of threat--illicit drugs, unauthorized 
immigrants, transnational organized crime, certain dangerous 
communicable diseases, terrorists--could enter at will. DHS was created 
to prevent terrorist attacks against the United States. The principal 
means of prevention within the United States is effective border 
control, denying admission to aliens who seek to harm Americans or 
violate our laws, and countering efforts to recruit individuals to 
undertake terrorist acts.
    Achieving this priority begins with physical obstacles like a 
border barrier and supporting infrastructure and surveillance 
capabilities. In this effort, I am committed to executing President 
Trump's plan to secure our Southern Border with effective physical 
barriers, advanced technology, and strategic deployment of law 
enforcement personnel. While the presence of physical barriers and 
additional technology is essential, it must be bolstered by persistent 
patrol and the vigilance of the dedicated men and women of DHS.
    We must augment our expanded border security initiatives with 
vigorous interior enforcement and administration of our immigration 
laws in a manner that serves the National interest. This effort will 
include greater cooperation and coordination between DHS's operational 
components, which are responsible for administering immigration 
benefits and enforcing our Nation's existing immigration laws.
    Within DHS and our Federal, State, local, and international 
partners, we must expand our vetting of those seeking to enter our 
country--particularly of those individuals from high-risk countries--
including refugees. We currently lack a comprehensive strategy with 
uniform screening standards to prevent terrorists from entering the 
country. Unfortunately, our country has recently admitted some foreign 
nationals without an adequate understanding of their allegiances and 
intentions. Additionally, because they are apprehended by DHS law 
enforcement agents, we know there continue to be any number of so-
called ``special interest aliens'' that make their way into our country 
illegally each year.
    Last year, more than 415,816 migrants, mostly from Central America 
and Mexico--including over 137,614 unaccompanied children and 
individuals travelling in family units--were apprehended on our 
Southern Border. Many of those arriving at our Southern Border have 
fled violence, poverty, criminal networks, and gangs in their native 
countries. While the vast majority are fleeing violence or seeking 
economic opportunity, a small number of individuals could potentially 
be seeking to do us harm or commit crimes. Regardless of purpose or 
circumstance, the ease with which human smugglers have moved tens of 
thousands of people to our Nation's doorstep also serves as another 
warning sign: These smuggling routes are a potential vulnerability of 
our homeland.
    Our vigorous response to these threats must include increased 
border security infrastructure, personnel, and technology. However, we 
cannot just play defense in securing our borders. Border security 
requires a layered approach that extends far beyond our shores, 
throughout the hemisphere, in partnership with our neighbors to the 
south and north.
    Along nearly 7,000 miles of land border, approximately 95,000 miles 
of shoreline, and at 328 ports of entry and numerous locations abroad, 
U.S. Customs and Border Protection (CBP) has a critical role in 
preventing the illegal entry of people and goods into the United 
States.
    Across the wide expanses of our Nation's land, air, and maritime 
environments, CBP has worked to address the changing demographics of 
attempted border crossers and to maintain border security through 
significant investments in enforcement resources, technology, 
infrastructure, and enhanced operational tactics and strategy. Through 
advances in detection capabilities, such as fixed, mobile, and agent-
portable surveillance systems, tethered and tactical aerostats, 
unmanned aircraft systems, and ground sensors, which work in 
conjunction with tactical border infrastructure and agent deployment, 
CBP is enhancing its ability to quickly detect, identify, and respond 
to illegal border crossings.
    At our Nation's air, land, and sea ports of entry, more travelers 
and cargo are arriving than ever before. To maintain the security of 
growing volumes of international travelers, CBP performs a full range 
of inspection activities and continues to enhance its pre-departure 
traveler vetting systems and integrate biometric technologies. CBP has 
also made significant developments in its intelligence and targeting 
capabilities to segment and target shipments and individuals by 
potential level of risk to identify and stop potentially dangerous 
travelers or cargo before boarding an aircraft or conveyance bound for 
the United States.
    Beyond managing the influx of people and cargo arriving in the 
United States, CBP is working with other DHS agencies to strengthen its 
capabilities to identify foreign nationals who have violated our 
immigration laws, as well as to track suspect persons and cargo exiting 
the country. CBP is also leveraging its newly-established Counter 
Network Program, which focuses on detecting, disrupting, and 
dismantling transnational criminal organizations, by expanding 
information sharing, increasing partnerships and collaboration that 
enhance border security, conducting joint exploitation of intelligence, 
and co-managing of operations with interagency and international 
partners. These efforts are building toward a safer and more secure 
border environment, one that supports the safety and success of each 
agent and officer in the field.
    In the maritime environment, the U.S. Coast Guard (USCG) utilizes a 
multi-faceted layered approach to interdict threats far from the 
borders of our Nation to combat the efforts of transnational criminal 
organizations. Targeting the primary flow of illicit drug traffic has a 
direct and damaging impact on these networks.
    Successful Coast Guard interdictions in the maritime transit zones 
feed a cycle of success--subsequent prosecutions lead to actionable 
intelligence on future events, which produces follow-on seizures and 
additional intelligence. Suspects from these cases divulge information 
during prosecution and sentencing that is critical to indicting, 
extraditing, and convicting drug kingpins and dismantling these 
sophisticated networks.
    USCG secures the maritime domain by conducting patrols and 
coordinating with other Federal agencies and foreign countries to 
interdict aliens at sea, denying them illegal entry via maritime routes 
to the United States, its territories and possessions. Thousands of 
aliens attempt to enter this country illegally every year using 
maritime routes, many via smuggling operations. Interdicting these 
aliens at sea reduces the safety risks involved in such transits. We 
can quickly return these interdicted aliens to their countries of 
origin, avoiding the costlier processes required if they successfully 
enter the United States.
               interagency and international cooperation
    As Secretary, I will advocate for expanding cooperation inside the 
interagency and with partner nations, particularly Canada and Mexico. 
Interagency relationships and bilateral cooperation are critical to 
identifying, monitoring, and countering threats to U.S. National 
security and regional stability. While DHS possesses unique authorities 
and capabilities, we must enhance and leverage our coordination with 
Federal, State, local, and Tribal partners. The magnitude, scope, and 
complexity of the challenges we face--illegal immigration, 
transnational crime, human smuggling and trafficking, and terrorism--
demand an integrated counter-network approach.
    Regionally, we must continue to build partner capacity. Illegal 
immigration and transnational organized crime threaten not only our own 
security, but also the stability and prosperity of our Latin American 
neighbors. In Colombia, for example, we learned that key principles to 
defeating large cartels and insurgents are the same as defeating 
criminal networks: A strong, accountable government that protects its 
citizens, upholds the rule of law, and expands economic opportunity for 
all. It taught us that countering illicit trafficking and preventing 
terrorism often go hand-in-hand, and that U.S. interagency cooperation, 
coupled with a committed international partner, can help bring a 
country back from the brink. I believe we can apply these lessons 
across our many international partnerships and in furtherance of our 
Government's many missions beyond our borders.
    Presently, we have a great opportunity in Central America to 
capitalize on the region's growing political will to combat criminal 
networks and control hemispheric migration. Leaders in many of our 
partner nations recognize the magnitude of the tasks ahead and are 
prepared to address them, but they need our support. As we learned in 
Colombia, sustained engagement by the United States can make a real and 
lasting difference.
                               conclusion
    The security challenges facing DHS and our Nation are considerable, 
particularly along the Southern Border. We have the laws in place to 
secure our borders. We also have outstanding men and women working at 
DHS, and in other Federal, State, local, and Tribal law enforcement 
agencies, who are committed to the border security mission. Finally, we 
now have a clear mission objective and the will to complete that 
mission successfully. We must accelerate our collective efforts to 
enforce the laws on the books and support those sworn to uphold the 
law. You have my commitment to work tirelessly to ensure that the men 
and women of DHS are empowered do their jobs.
    I believe in America and the principles upon which our country and 
way of life are guaranteed, and I believe in respect, tolerance, and 
diversity of opinions. I have a profound respect for the rule of law 
and will always strive to preserve it. As I mentioned in my 
confirmation hearing, I have never had a problem speaking truth to 
power, and I firmly believe that those in power deserve full candor and 
my honest assessment and recommendations. As Secretary, I recognize the 
many challenges facing DHS and I will do everything within my ability 
to meet and overcome those challenges, while preserving our liberty, 
upholding our laws, and protecting our citizens.
    Thank you again for the opportunity to appear before you today and 
for your continued support of DHS. I am confident that we will continue 
to build upon the momentum by our previous operational achievements 
around the world. I remain committed to working with this committee to 
forge a strong and productive relationship going forward to secure our 
borders and help prevent and combat threats to our Nation.
    I would be pleased to answer any questions.

    Chairman McCaul. Thank you, Mr. Secretary.
    I now recognize myself for questioning.
    We look forward to working with you on that authorization, 
which is long overdue.
    Let me say first I agree with the policy of the Executive 
Order. It is consistent with a memo I drafted with--to then-
candidate Trump, with Mayor Giuliani, Attorney General Mukasey, 
advocating a shift from a Muslim ban, which he was campaigning 
on, which we thought was unconstitutional, to, rather, an 
enhanced vetting process of immigrants and refugees based on 
risk, not religion, from high-threat areas.
    It is consistent with the visa waiver security bill that 
was signed into law by President Obama. It is consistent with 
the SAFE Act that passed the House with a bipartisan veto-proof 
majority.
    My concern, as you and I have talked, is how it was 
implemented and the execution of this order.
    First, lawful permanent residents with green cards were 
denied; military advisers who risked their lives to help U.S. 
forces overseas, as you know, were denied; and students were 
trapped overseas with visas. Let me say, I applaud you for 
quickly correcting what I consider to be errors by quickly 
granting the exception and waiver to green card holders, which 
went a long way to remedy, I think, this Executive Order.
    My other concern was the lack of coordination both within 
the Executive branch and also with Congressional leaders like 
myself. I applaud the President for trying to get things done 
quickly, and that is what leadership is all about. He is 
fulfilling campaign promises.
    But as we move forward, what do you consider to be the 
lessons learned here from this Executive Order?
    Secretary Kelly. Mr. Chairman, I think as we have talked--I 
have talked to many Members of--some Members of this committee 
and certainly Senators, as well, the Executive Order was 
developed certainly before I ever--began to be developed before 
I ever became the Secretary of Homeland Security, before my 
confirmation.
    Just after the inauguration my staff, a very small number, 
and myself had some initial cuts on that. Some changes were 
made.
    It was released, I think, as you recall, the third one I am 
talking about now, was released on--late on a Friday. We knew 
it was going to be released that day.
    The desire was to get it out. The thinking was to get it 
out quick so that potentially people that might be coming here 
to harm us would not take advantage of some period of time that 
they could jump on an airplane and get here, or get here in 
other ways.
    So that was the thinking. In retrospect, I should have--
this is all on me, by the way--I should have delayed it just a 
bit so that I could talk to Members of Congress, particularly 
to the leadership of committees like this, to prepare them for 
what was coming. Although, I think most people would agree that 
this has been a topic of President Trump certainly during his 
campaign and during the transition process.
    As the great men and women particularly of the border 
protection people, as they unfolded that or started to 
implement it, I should say, they got back to us with some 
suggestions about how we could alter it. We did that, as I 
think the order was signed or released at 18 on Friday, 6 p.m. 
Before midnight we had made an adjustment. The next day, made a 
couple of other adjustments to kind-of fine-tune it.
    We did have to step back and kind of re-cock that--in that 
first 24-hour period because of action by one of the Federal 
courts. That changed things a bit, so we had to kind-of step 
back.
    But for the most part, you know, again, I know it can be an 
inconvenience, but what was done at the counter, so to speak, 
and at the very many airports where people are coming into the 
United States, everyone was treated humanely.
    I have read the reports about people standing up for hours 
on end. Didn't happen. That people were insulted--I guess 
insults are in the eyes of the beholder, but I would tell you 
the kind of men and women that I serve with do not insult 
people. They are very, very matter-of-fact. They are very 
business-like.
    But going forward, I would have certainly taken some time 
to inform the Congress and certainly that is something I will 
certainly do in the future.
    Chairman McCaul. We look forward to moving forward in the 
future with you. I applaud your quick correction of it, and I 
hope the courts act quickly. Because, as you stated, every day 
we are putting American lives at danger.
    Let me shift to the border. When you were commander of 
SOUTHCOM you and I met several times to talk about the threats 
coming from south of the border, whether it be transnational 
criminal organizations or their potential ties to terrorism. 
Being from a border State, Texas, I understand this very well.
    I appreciate you coming down to my State and visiting with 
the Governor and DPS--Steve McCraw is going to testify--and the 
good men and women of CBP down there.
    Can you tell us what--the Executive Order came out for the 
border surge. I want to work closely with you on this. Can you 
tell us what this wall is going to look like? You may not be 
able to answer this one, but how much it is going to cost, and 
how are we going to pay for it?
    Secretary Kelly. As far as the wall goes, Mr. Chairman, I 
specifically went down to the most affected part of the border, 
South Texas, down around McAllen--specifically went down there 
to talk to local law enforcement, which I did--the Governor was 
there--and to talk to my people on the border, ICE as well as 
CBP.
    We are not going to be able to build a wall everywhere all 
at once. So part of the reason I went down there, first and 
foremost, was to ask the people that know more about this than 
anyone else on the planet. We have walls. There are walls 
there, parts of walls in strategic places in McAllen on the 
border. But do we need more wall?
    They said, well, you know, Secretary, we need to extend 
some walls; we need to fill in some places with physical 
barriers. Their preference would not be something they couldn't 
see through. That was a finding for me.
    But they very definitely said, ``Yes, sir, we need a 
physical barrier backed up by people like us''--meaning CBP and 
local law enforcement--``with technology where it is 
appropriate.''
    They had in their mind that many hundreds of miles of that 
sector, they had places where they wanted a physical barrier 
constructed, you know, tomorrow, or actually yesterday, and 
then tomorrow--today, tomorrow, and you see the point. They did 
point out there are parts of the border that are right now not 
as much of an issue as they are, say, right here in McAllen.
    I will go to Tucson sector later in the week, and then push 
over to San Diego sector. I suspect I will hear the same thing, 
because it is certainly what my leadership in the Department of 
Homeland Security level are telling me.
    So that is where we are on the wall. Not going to build it 
all in an afternoon, so we will build it in the places that the 
people that work that border say we need it right now. There 
are places on that border, I am told, we need it right now.
    Chairman McCaul. Well, I couldn't agree with you more. I am 
glad you see that perspective.
    Every sector is different, multi-layered defense, fencing, 
but also technologies, aviation assets. I think 100 percent 
visibility is what you want because if you can see the threats 
you can stop them. So I look forward to working with you on 
that very important task.
    I have been trying to get this done, sir, for the last 6 
terms in Congress and I think now we finally have the political 
will to do it. So thank you.
    With that, the Chair now recognizes the Ranking Member.
    Mr. Thompson. Thank you, Mr. Chairman.
    You referenced former Mayor Giuliani in your comments about 
helping draft this Executive Order, and I call your attention 
to----
    Chairman McCaul. If the gentleman would yield, that is an 
incorrect statement. We drafted a memo back last May or June to 
then-candidate Trump to advocate why a Muslim ban was 
unconstitutional and to look at vetting and high-threat areas. 
I had no participation in this Executive Order--nor did Mayor 
Giuliani.
    Mr. Thompson. No, he claims----
    Chairman McCaul. I will yield back. I will yield back.
    Mr. Thompson. I am just saying that he has indicated that 
it is a Muslim ban. So I can only take for what he is saying, 
he takes credit for drafting it.
    Mr. Secretary, President Trump tweeted because the ban was 
lifted by a judge ``many very bad and dangerous people may be 
pouring into the country.'' As you know, your Department is 
responsible for visa security, screening travelers to this 
country, and determining admissibility at ports of entry. Now, 
do you believe that because of this court order we have let 
some dangerous people into the country?
    Secretary Kelly. It is certainly entirely possible. Again, 
the whole reason for this pause is to get our arms around the 
term ``vetting.'' My people that I trust, as well as State 
Department people--I had a meeting yesterday with Rex 
Tillerson--Secretary Tillerson and Mike Pompeo, formerly of 
this party and now the director of the CIA, about the issue of 
vetting. So it is entirely possible, yes, sir.
    Mr. Thompson. Well, I understand. But in other words, 
before this order, we were letting bad people into the country. 
Your people were not doing their job.
    Secretary Kelly. That is not true at all. My people have 
always done their job.
    Mr. Thompson. That is what I am trying to get at is, is 
there any difference between the issuance of this Executive 
Order and the job your people were doing so that whatever 
decision the courts make, is it putting us at risk?
    Secretary Kelly. The reason for the pause was for us to 
take some time, take a look at the vetting from the seven 
countries in question and how refugees are vetted.
    I can tell you, because my people tell me, that for the 
last number of years, the vetting is at best loose and the 
amount of information--you take some of these countries we are 
talking about that are in really state of failed states--in the 
state of a failed state, there is very little, my people will 
tell me and I believe, very little confidence that the 
information that we receive from those countries relative to an 
individual who wants to come to the United States is the kind 
of information that we would bet the security of our citizens 
on.
    Mr. Thompson. Again, I am convinced your men and women are 
doing a good job. I am just concerned about this notion that 
because the court has ruled--and they have the right to rule--
that if in effect they have somehow put this country at risk by 
this ruling, so say the President.
    Now if, in fact, there have been some people let in since 
the court ruled, can you provide this committee with those 
apprehensions of people who otherwise would not have been let 
in?
    Secretary Kelly. I am not so sure I understand the 
question.
    Let's just say, for instance, a person who is trying to get 
to the United States to do some harm, some terrorist attack, is 
coming in during this period that the courts have put a stay on 
our enforcement. We won't know that until that--an individual 
is a bad person until they do something bad.
    Mr. Thompson. Yes.
    Secretary Kelly. But it is entirely possible that someone 
that is coming in, whether it is during this stay, during the 
court action, or previous to this period, came here to do us 
harm.
    Mr. Thompson. But you don't have any proof at this point.
    Secretary Kelly. Not until the boom.
    Mr. Thompson. Not until what?
    Secretary Kelly. Not until they act and blow something up 
or go into a mall and kill people. So we won't know until then.
    Mr. Thompson. Yes. I understand the danger. I just want to 
make sure the system that we are presently using, Mr. 
Secretary, is a good system and if, in fact, up until this 
point, we have stopped the boom, as you referenced.
    Now, because of a court order saying we still have to 
follow the laws, and our President somehow says because this 
Executive Order is being paused we are now going back to how we 
used to do it. I am trying to figure out if how we used to do 
it puts us at risk.
    Secretary Kelly. Mr. Congressman, again, my feeling is the 
vetting on the other end in those seven countries are suspect. 
Mr. Trump, and certainly in my view, we have to do a pause, 
which we have--which he ordered, now is, you know, under court 
action, so that we can take a look at what we are doing on the 
other end. I believe the vetting on the other end right now is 
not adequate to protect the Nation.
    Then, of course, we are considering other measures, adding 
to the vetting on the other end so that we can ensure even more 
so that the right people are coming to the United States, and 
not bad people.
    Mr. Thompson. Thank you.
    The other issue is in reference to the guidance. Your men 
and women who are tasked with carrying out this Executive 
Order, when we met in the SCIF I asked for the guidance and the 
time line associated with the guidance. We heard from people 
from Atlanta, Los Angeles, New York, different stories as to 
how things were being carried out. Can you provide this 
committee with the guidance that went with the Executive Order 
when it was signed and bring it forward?
    Secretary Kelly. We can. I am going to have to take--I 
would have to take that a little bit for the record, but I 
would tell you that the CBP--the head of CBP and Homeland 
Security, the guidance was: This is the E.O. Implement it.
    They started implementing it almost right away.
    Again, we had some issues related primarily to the first 
court order that then caused some confusion at the desks at the 
entry points. But as I said, we adjusted to that pretty 
quickly. But we didn't--I can--I am assuming we have a system 
by which we contact out of headquarters--CBP has a system by 
which they contact the substations around the country to pass 
information to them.
    Mr. Thompson. Well, we just would like to----
    Secretary Kelly. Sure.
    Mr. Thompson [continuing]. See the guidance. Thank you.
    I yield back.
    Chairman McCaul. The Chair recognizes the gentleman from 
New York, Mr. King.
    Mr. King. Thank you, Mr. Chairman.
    Secretary Kelly. let me thank you for your years of 
service. Thank you for taking on this responsibility.
    I must say that at a time when there was so much confusion, 
when there was so much media talk and there was so much frenzy 
coming from all sides, it was really, I think, vital to have 
such a stable voice at the center of this, at the center of the 
storm.
    So thank you for restoring the order that you did. Thank 
you for giving the country a sense of consistency and constancy 
that it needed, so thank you for that, among all your other 
many achievements in public service.
    As a follow-up to the Ranking Member's question, it seemed 
to me that when we face an enemy which is constantly adapting, 
constantly changing, constantly revising its tactics, that it 
only makes common sense for us to be constantly reexamining our 
defensive measures, our counterterrorism measures, especially 
when we know that ISIS has said it attempts--it is going to 
attempt to infiltrate terrorists with refugees, trying to sneak 
people into the country. We have seen what has happened in 
Europe.
    So I commend you for what you are trying to do. I think it 
is essential and I think, again, a 90-day pause is--if that 
saves American lives, then it is certainly a pause worth 
taking.
    But if you could perhaps clarify exactly where the seven 
countries came from, whether you think any should be added to 
that or should anybody be subtracted from that--from that list 
of seven?
    Secretary Kelly. The countries, of course, the seven 
countries identified came as a result of not only the previous 
administration's actions, but, as I understand it, 
Congressional action. So I think that was a good start point.
    They are countries, you know, two of the seven, of course, 
are still listed as State sponsors of terrorism. So we don't 
trust them at all because they are State sponsors of terrorism, 
and they don't cooperate with us to the degree that certainly 
President Trump and now certainly I am confident that what we 
get from those countries, which is very little cooperation to 
really determine who are the people that want to come here, 
first issue.
    Second issue, the other--among the other five are nearly 
failed states in many respects, I would argue with the 
exception of Iraq, where we have a very solid presence there 
and I have served there quite some time. We will take a look-
see--we will take a look at all of these countries going 
forward as to whether they remain on the pause list.
    But you know, the other four countries, we don't even have 
embassies there. I am at a total loss to understand how we can 
vet, you know, people from various countries when in four of--
at least four of those countries we don't even have an embassy.
    So I think the pause made, you know, an awful lot of sense. 
Going forward, we would like to--we would hope that there are 
countries that will come off the list. But the countries are a 
list that came from the last administration, certainly from the 
last Congress.
    There are, by the way, and I have--I don't--I simply don't 
know where this rumor came from, but I had--I read something 
where there were an additional 12 countries being considered to 
be put on the list. That is not true. Good friends of mine from 
various countries that were on the list asked, called and said 
is it--I said, no it is not true.
    We are right now contemplating no other countries because 
it is--even though some of these other countries are at, you 
know, are questionable in terms of their internal, you know, 
organization, police, that kind of thing, we are satisfied that 
most other countries have enough that they could provide the 
information that we are looking for to start to make the 
determination to send people here.
    But I would offer to you, Congressman, that we are looking 
at some additions. We may just focus on certain countries--not 
additional countries, but additional vetting schemes, vetting 
processes that will go further to satisfy me, and presumably 
the President, that we are--we know who we are dealing with, we 
know what their backgrounds are.
    If they don't want to cooperate with the additional 
vetting, just like if they don't want to cooperate now, then 
they don't come to the United States. There is no right to come 
here, and if they don't want to cooperate, so be it.
    But there are no other countries right now being 
contemplated being put on any type of a travel pause. But I 
would offer to you that some of those countries--some other 
countries out there can be improved, and we hope to work with 
them to help them improve, just like we hope to work with one, 
two, three, whatever of the countries, of the seven countries 
to help them improve their vetting to satisfy us so that we 
can, you know, open our doors to their citizens.
    Mr. King. Thank you, Secretary.
    Also, let me take this opportunity to welcome back Kevin 
Carroll, who was my counsel for a number of years on this 
committee, and I am confident that you will be very well served 
by Kevin.
    Secretary Kelly. Well, I kind-of trust him, Congressman. 
So, we will see.
    Mr. King. But he is not a Marine though, you know.
    Secretary Kelly. I know.
    [Laughter.]
    Mr. King. I yield back, Mr. Chairman.
    Chairman McCaul. Chair now recognizes the gentlelady from 
Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    I want to join my colleagues, Secretary Kelly, and express 
my appreciation for your service to this Nation and the love 
and affection that you have for your country, by evidence of 
the most dynamic service you gave in the United States 
military. Particularly, I want to thank you for the dialog that 
you have engaged with, I know, many of the Members since you 
have come on.
    Please accept my assessment as separate and apart from the 
great efforts that you have taken to try and steer this ship in 
the way it should be steered, which is really to stand guard 
for the security of the American people. But I must begin my 
remarks by recounting a number of issues that, when I conclude, 
I will have to offer an assessment.
    Although this is the Homeland Security Committee, the Yemen 
military action evidenced a action that warrants review. 
Tragically, we lost a Navy SEAL, the target was not captured, 
now taunts and provokes the President of the United States.
    The basis of it was Obama's administration was not bold 
enough, so we did it. An Executive Order that threw into 
hysteria the lives of the forlorn, the desperate and those who 
sought to come to this country; and, of course, the selection 
of Mr. Bannon to the National Security Council with evidence 
that the President didn't know what that meant.
    Fiery rhetoric of a campaign should not be the governing 
standard for this Nation, and I believe this administration is 
off its wheels and needs to get back on its wheels.
    I raise this question about the countries. Syria, Iran, 
Iraq, and Yemen, and Libya are countries that are on the list--
Somalia and Sudan. Mr. Secretary, do you have evidence of 
anyone who has come to this country in the last 5 years or 
before that committed a terrorist act from these particular 
countries?
    Secretary Kelly. We have evidence that citizens of those 
countries have done terrorist acts in Europe.
    Ms. Jackson Lee. That is correct. I apologize, Mr. 
Secretary. I have a short period of time.
    You are absolutely right. Even some of those individuals 
who are here in the United States left to go to the fight. But 
there is no evidence that any of these persons--and many of 
those who are here were self-radicalized here in the United 
States, that evidence I do have. So no one from these countries 
have committed an act on the soil of the United States, is that 
correct?
    Secretary Kelly. I think that that is correct. But I would 
offer the Congresswoman that I am not going to base my 
protection--my view of protecting the American people on hoping 
that they will never come here and commit an act.
    Ms. Jackson Lee. I understand. But the basis of this 
Executive Order was supposed to be on facts and evidence that 
was before us at that time. Let me wonder why you think Saudi 
Arabia was not included?
    Secretary Kelly. Again, I would go back to the--kind-of 
some of the original comments. This is all about--this travel 
pause is all about countries that are not cooperative or can't 
be cooperative because of the conditions within the country to 
provide us, to provide the President, to provide me now a 
confidence that the people that we are dealing with are the 
people who--you know, who say they are.
    Saudi Arabia, by contrast, we may not like some aspects of 
how they live their lives within their culture, but they do 
have very----
    Ms. Jackson Lee. Thank you. My time is short, so, thank 
you. Thank you very much.
    Secretary Kelly. I know that, but let me finish, if I 
could.
    Ms. Jackson Lee. I will let you finish, I just want to get 
to my next question.
    Secretary Kelly. OK.
    Ms. Jackson Lee. Go ahead, sir.
    Secretary Kelly. But the issue is places like Saudi Arabia 
do have very, very good police forces, intelligence forces, so 
we know when someone comes here from Saudi Arabia who they are 
and what they have been up to.
    Ms. Jackson Lee. Thank you.
    You have a 120-day delay on the refugee resettlements, one 
of the most desperate groups of people and populations. 
Certainly America has been known for her refuge for refugees.
    What excuse do you give for this little one not being able 
to come into the United States, or this little one not being 
able to come into the United States, or this family not being 
able to be reunited? What do you say to those individuals whose 
papers will be expired, who have been waiting on the list for 
12 years, who have been vetted, who are standing at the 
airport?
    What is the purpose for refugees, who, again, you stated at 
the beginning of this testimony that you have no evidence that 
anyone from these countries perpetrated a terrorist act on this 
soil? Would you answer that, Mr. Secretary?
    Secretary Kelly. Well, I can't see the pictures you are 
holding up, but I am assuming they are--again, I can't see them 
from this distance.
    Ms. Jackson Lee. I am sorry.
    Secretary Kelly. But I am assuming they are pictures of 
families or little girls or something like that. The point is, 
this is right now a pause as we re-cock and start to look and 
evaluate how well these various countries can vet people.
    Ms. Jackson Lee. I think we will be causing a great deal of 
suffering and I would ask the administration to review its 
posture. I thank you for your testimony.
    Mr. Chairman, I yield back.
    Chairman McCaul. Mike Rogers, from Alabama, is recognized.
    Mr. Rogers. Thank you, Mr. Chairman.
    Secretary Kelly. it is good to have you here. I have 
enjoyed the many years of working with you through my role in 
the Armed Services Committee. Never thought I would be working 
with you on this committee, too, but I am glad that we have got 
your leadership here.
    President Trump and you have both indicated your commitment 
to securing the Southwest Border, and as you stated in 
answering Chairman McCaul's question, that requires a 
combination of things. But over the last 10 years we have seen 
a multibillion-dollar failure in SBInet, we have seen the 
neutering of the Secure Fence Act, and a hodgepodge of 
equipment investments, most of which really haven't worked well 
together.
    So I am really interested in specifically how you see that 
securing of that border coming together, with what 
technologies, what kind of wall. I am imagining that you are 
talking about a virtual wall that would have fencing supported 
by technology and personnel, but could you be more specific 
about how you envision it?
    Secretary Kelly. Yes, Congressman. As I mentioned earlier, 
I mean, the men and women on the border right now--and this 
includes very much the local law enforcement, not just DHS 
personnel--they could tell you and have told me down in that 
South Texas session--sector, they can tell you where they want, 
you know, exactly where they want a barrier, a wall built right 
now.
    In a world of finite time, resources, that kind of thing, 
we would like, you know, 20 miles of wall built here. If you 
have more time, more money, there is another place over here. 
So they know and we are going to rely on them for their 
recommendations.
    As we build the wall out to whatever length it ultimately 
becomes, as we build the wall out we will certainly back that 
up with personnel, you know, patrolling, that kind of thing, 
and technology. Aerostats work very well, sensors on the 
ground.
    One of the things I was informed when I went down to the 
sector was that, I mean, some of the sensors are really kind of 
1980's technology. They have their own complications with them. 
There is better equipment out on the market today, so we are 
going to take a long, hard look at that kind of thing.
    But I think as--in those places, ultimately, we don't--
where you can't get to the--to build a wall quickly, we can 
certainly look to controlling that part of the border, 
initially at least, with aerostats and responsive patrolling 
and that kind of thing.
    What they tell me out there is that, you know, the--it is 
very predictable how the drug traffickers--that is one group, 
and how the people traffickers--that is another group--how they 
do their business. Most of the time it is as close as they can 
be to the--to either a quick get-away from the border, if you 
will, or to get into a urban area pretty quickly and they just 
meld in.
    So that is where the CBP professionals--men and women have 
told me, it is really in those places and they are very, very 
up-front: Sir, this is--I can tell you where to put the wall 
right now.
    Mr. Rogers. What is your time line, do you think, that you 
will have it secured?
    Secretary Kelly. Well, I mean, it is hard to say. It 
depends, actually, you know, on funding and all the rest of it. 
But I would like to see that we would be well under way within 
2 years.
    You know, one of the things, just as a comment, we are--we 
have 650 miles of barrier now on the border that we maintain. I 
was just told this morning that there is some wall being built 
in the San Diego sector that was financed and under 
construction before this administration took over. So it would 
appear to me that the former administration had a sense that 
physical barriers made sense, as well.
    But this is going to take some time. But there are places I 
think we can right away get at this problem, Congressman.
    Mr. Rogers. Great.
    Well, another thing that the President has suggested is 
that we want South Americans. in particular Mexico, to help 
pay--or to pay for this securing of the Southwest Border. It is 
my understanding we have over $30 billion a year that are sent 
in remittances out of this country to South American countries, 
mostly to Mexico.
    I intend to introduce legislation entitled the Border 
Funding Act of 2017 that would put a 2 percent tax on those 
remittances, such as Western Union and MoneyGram remittances. 
That would generate close to $1 billion a year. That is one 
method.
    Have you heard other suggestions as to how we are going to 
pay for this securing of the border? Because keep in mind, this 
additional layers of security you are talking about are on top 
of the costs that we are already spending.
    Secretary Kelly. I have not. Clearly, the White House is 
working this and the State Department would--it would fall to 
them, at least initially, to start to work with countries, 
Mexico, to come to some accommodation. But have not heard any 
specifics, Congressman.
    Mr. Rogers. Thank you very much.
    I yield back.
    Chairman McCaul. Chair recognizes the gentleman from Rhode 
Island, Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Secretary Kelly, I want to welcome you before the committee 
and thank you for your testimony. I certainly want to thank you 
for your decades of service to our Nation, and I certainly have 
enjoyed working with you in my role in the Armed Services 
Committee, whether it is meetings that you and I have had in my 
office or the testimony provided before the committee.
    I appreciate your work and I certainly look forward to 
working with you on this committee as well, particularly on 
issues relating to cybersecurity, which you and I share an 
interest and which I consider to be the top National security 
challenge of our age.
    But, like many of my fellow colleagues, I am going to begin 
my questions with the President's Executive Orders. So you may 
be aware that a number of top National security officials from 
the Clinton, Bush, and Obama administrations filed a brief with 
the 9th Circuit Court yesterday.
    Mr. Chairman, I ask that that report--that brief be entered 
into the record.
    Chairman McCaul. Without objection, so ordered.
    [The information referred to follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Langevin. Thank you, Mr. Chairman.
    So the brief pretty clearly outlines my chief concerns with 
the E.O., namely that it was not based on specific credible 
evidence of a threat and that it puts our troops in harm's way. 
So to begin with, was the refugee ban based on specific new 
evidence of a threat to the homeland?
    Secretary Kelly. The ban, once again, Congressman, was 
based on countries that we don't have any real confidence in 
right now that they can help us vet people to come to the 
United States, countries that are in, you know, clearly 
disarray. We know, as an example, in the Syrian case there are 
thousands of--and I can't get too into it in this open 
session--there are thousands of fighters who are available and 
have--we have pretty good confidence have the kind of papers 
that could get them passed into Western Europe and certainly, 
by extension, into the United States.
    So the threat is real. This pause--and that is what it is, 
is a pause--will give me, working with CIA, DOD, and Justice, 
not to mention State Department, give us an opportunity to step 
back and decide what additional vetting we might add to what we 
already have, which is minimal in my view, and then come out of 
that and say, ``OK, these are the new rules.'' It may be that 
some of these countries remain on the list for some time 
because they are in such chaos.
    But again, I go back to sworn to protect the Nation, and 
hope is not an option when it comes--from my perspective at 
least--when it comes down to that.
    Mr. Langevin. I understand that. The point is, though, the 
ban was put in place not based on any new credible threat 
intelligence to a direct threat to the United States. Just to 
quote----
    Secretary Kelly. Well, Congressman, I would say----
    Mr. Langevin. Let me just finish, if I could----
    Secretary Kelly. If I could give you the full answer, it is 
based on the fact that we know----
    Mr. Langevin. Right.
    Secretary Kelly [continuing]. That there are thousands of 
fighters coming out of the caliphate fight that have papers 
that could easily--not easily--could bring them to certainly 
Western Europe and the United States.
    Mr. Langevin. Thank you.
    To quote from the brief, ``We all agree that the United 
States faces real threats from terrorist networks and must take 
all prudent and effective steps to combat them, including the 
appropriate vetting of travelers to the United States. We are 
all, nevertheless, unaware of any specific threat that would 
justify the travel ban established by the Executive Order 
issued on January 27, 2017. We view the order as one that will 
ultimately undermine the National security of the United States 
rather than making us safer.
    In our professional opinion, this order cannot be justified 
on national security or foreign policy grounds. It does not 
perform its declared task of protecting the Nation from foreign 
terrorist entry into the United States.''
    So they would disagree. There is already strong vetting in 
place right now and that vetting has kept us safe.
    But let me move on to another question. Last Friday the New 
York Times reported--the headline was, ``Travel Ban Drives 
Wedge Between Iraqi Soldiers and Americans.''
    Mr. Chairman, I ask that this story be inserted into the 
record.
    Chairman McCaul. Without objection, so ordered.
    [The information referred to follows:]
      Travel Ban Drives Wedge Between Iraqi Soldiers and Americans
                      New York Times, Feb. 3, 2017
By David Zucchino
https://www.nytimes.com/2017/02/03/world/asia/travel-ban-drives-wedge-
        between-iraqi-soldiers-and-americans.html
    BAGHDAD.--Capt. Ahmed Adnan al-Musawe had survived another day 
battling Islamic State fighters in Mosul last weekend when he heard 
startling news: The new American president had temporarily barred 
Iraqis from entering the United States and wanted tougher vetting.
    Captain Musawe, who commands an infantry unit of the Iraqi Army's 
elite counterterrorism force, considers himself already fully vetted: 
He has been trained by American officers in Iraq and in Jordan. And 
backed by American advisers, he has fought the Islamic State in three 
Iraqi cities, including three months of brutal street combat in Mosul.
    ``If America doesn't want Iraqis because we are all terrorists, 
then America should send its sons back to Iraq to fight the terrorists 
themselves,'' Captain Musawe told a New York Times reporter who was 
with him this week at his barricaded position inside Mosul.
    President Trump's Jan. 27 executive order has driven a wedge 
between many Iraqi soldiers and their American allies. Officers and 
enlisted men interviewed on the front lines in Mosul said they 
interpreted the order as an affront--not only to them but also to 
fellow soldiers who have died in the battle for Mosul.
    ``An insult to their dignity,'' said Capt. Abdul Saami al-Azzi, 
another officer with the counterterrorism force in Mosul. He said he 
was hurt and disappointed by a nation he had considered a respectful 
partner. ``It is really embarrassing.''
    The American and Iraqi militaries have negotiated an often tenuous 
and strained relationship over the years. But few episodes have so 
blindsided the current generation of Iraqi soldiers, who are accustomed 
to viewing the United States as their partner in a shared struggle to 
defeat insurgents and build a viable nation.
    The timing of the order hit the Iraqi military in Mosul like an 
incoming rocket. Iraqi forces have reached a pivotal moment, seizing 
half of Mosul and preparing to assault the remaining half--supported by 
American advisers, Special Operations forces and airstrikes by the 
United States-led coalition.
    Why, some soldiers asked, had Mr. Trump chosen this moment to lump 
together all Iraqis as mortal threats to America--soldiers, civilians 
and terrorists alike?
    ``This decision by Trump blows up our liberation efforts of 
cooperation and coordination with American forces,'' said Brig. Gen. 
Mizhir Khalid al-Mashhadani, a counterterrorism force commander in 
Mosul.
    Astounded by the announcement, General Mashhadani, who speaks 
English, said he asked his American counterparts about the president's 
order. He said several told him they considered the decision hasty and 
its consequences poorly considered.
    The travel ban was all the more perplexing to those Iraqi troops 
who had heard Mr. Trump vow as a candidate to wipe out the Islamic 
State, also known as ISIS, ISIL or Daesh. Some also heard the president 
promise, when issuing the order, to keep ``radical Islamic terrorists'' 
out of the United States.
    For some soldiers, those comments seemed to equate Iraqi soldiers--
by virtue of their nationality and religion--with the very terrorists 
they were fighting.
    President Trump was ``unjust and not right,'' said Maj. Sabah al-
Aloosi, 37, another counterterrorism force officer in Mosul. It is 
Iraqi soldiers, he said, ``who are fighting terrorism on behalf of the 
world and sacrificing themselves.''
    Col. John L. Dorrian, the spokesman in Baghdad for the American-led 
operation against the Islamic State, emphasized that the president's 
order was temporary, calling it ``a pause.''
    Told of critical comments by Iraqi soldiers and officers, Colonel 
Dorrian said: ``For our part, we continue to do every single day what 
we've been doing all along in the campaign to defeat Daesh.''
    Colonel Dorrian said those efforts included continuing to train and 
advise Iraqi security forces, and providing intelligence, artillery and 
airstrikes in support of Iraqi troops. ``None of these things are 
affected,'' he added.
    One counterterrorism soldier, Ismail Khalid, said the president's 
ban on Iraqis did not affect his will to fight the Islamic State--or 
his survival instincts. ``I've been fighting terrorism for months and 
what matters to me is to return home,'' he said.
    The counterterrorism force soldiers spoke before the American 
Embassy in Baghdad on Thursday cleared the way to enter the United 
States for former interpreters and other Iraqis who had assisted the 
American government or military.
    The interpreters and their families had been issued special 
immigrant visas because of their service to the United States. The ban 
on so-called S.I.V. holders was lifted after the Pentagon recommended 
that the White House exempt Iraqis who have tangibly demonstrated their 
commitment to supporting United States forces, a Pentagon spokesman 
said.
    But Iraqis who hold valid refugee visas, some because their 
association with Americans exposes them to danger in Iraq, remained 
barred from entry to the United States.
    Before the Jan. 27 ban was announced, two counterterrorism force 
officers in Mosul said they had begun making plans to visit the United 
States after the battle for Iraq's second-largest city.
    Captain Musawe, who had hoped to vacation in the United States, 
said he was not making any travel plans at the moment. ``The decision 
by Trump has wasted my dreams,'' he said.
    Major Aloosi said he even asked his American counterparts for 
advice about the visa process for Iraqi soldiers seeking to visit the 
``wonderful sights and tourism'' he had seen on American TV programs. 
``But all that has vaporized because of the decision by Trump,'' he 
said.
    General Mashhadani said that despite bitter feelings among many of 
the soldiers he commands, he continues to work closely, if under trying 
circumstances, with his American counterparts.
    ``My American friends who are officers promised to let me in their 
country in case I decide to go there--even if they have to use illegal 
ways,'' he said.
    An employee of The New York Times contributed reporting from Mosul, 
Iraq, and Falih Hassan contributed from Baghdad.
A version of this article appears in print on February 4, 2017, on Page 
A12 of the New York edition with the headline: Travel Ban Strains Ties 
to Troops Across Iraq.

    Mr. Langevin. So based on your experience in Iraq, do you 
believe that the ban will improve the safety and security of 
U.S. forces there?
    Secretary Kelly. I believe the travel pause from all of 
those countries will give us time to evaluate those countries 
and the information they can provide us, which will ultimately 
lead to safety for the American people.
    Mr. Langevin. Thank you, Mr. Secretary.
    I would just say that we have strong measures in place to 
keep the country safe, and putting the ban in place, in my 
opinion, ultimately will do more harm than good. We could have 
done this in a more effective way by--if we need to enhance 
vetting, fine. If there is credible intelligence that we need 
to act upon, fine. But I think in the long run this ban will do 
more harm than good, both to our security but also to our 
troops in the field.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Chairman McCaul. Chair recognizes the gentleman from South 
Carolina, Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    Secretary Kelly. General, thanks for being here. Thanks for 
your service to the United States Marine Corps. As chairman of 
the Western Hemisphere Subcommittee, you and I had a chance to 
work together when you were at Southern Command, and I 
appreciate your work.
    Ask you a series of yes or no questions. Is President 
Trump's Executive Order a Muslim ban?
    Secretary Kelly. No.
    Mr. Duncan. Would you agree with this statement: Because we 
cannot properly vet those from Syria because of the lack of 
information coming out of the country, because they are in the 
midst of a civil war, do you believe that this in necessary in 
order to ensure America's safety?
    Secretary Kelly. Yes.
    Mr. Duncan. We have had a series of hearings in this 
committee and on Capitol Hill with regard to Syrian refugees. 
Your predecessors and those appointed by President Trump's 
predecessors came to the Hill and made some very interesting 
statements. I would like to read some of those in my time.
    John Brennan, director of the Central Intelligence Agency, 
said this, 11/18/2015: ``I think it makes it even more 
incumbent on the security and intelligence professionals to 
make sure that we are able to look at individuals who are 
coming into this country with an eye toward what it is that we 
might know about individuals or ways that terrorist 
organizations might try to secret people into these networks, 
into these refugee flows.''
    Would you agree with that statement?
    Secretary Kelly. That the terrorists are attempting to gain 
access to the United States, passing themselves off potentially 
as refugees? I do believe that they have got that in mind.
    Mr. Duncan. Yes, sir.
    Your predecessor, Secretary Johnson, said this, 10/21/2015: 
``It is true that we are not going to know a whole lot about 
the Syrians that come forth in this process; that is definitely 
a challenge. We know that organizations like ISIL might try to 
exploit this, the Syrian refugee resettlement program. The good 
news is that we are better at vetting than we were 8 years ago. 
The bad news is that there is no risk-free process.''
    He went on to say, 10/8/2015, I guess that was a little 
earlier: ``The Syrian refugees are a population of people that 
we are not going to know a whole lot about.''
    They testified over and over that Syria is in a civil war 
and that the records, (A), were never very good to begin with; 
(B), have been destroyed, have been stolen, have been 
commingled. In fact, you can go to Turkey and change your 
identity with a new passport based on what we know.
    Director of National Counterterrorism Center in this 
committee on 10/8/2015 said this, Nicholas Rasmussen: ``The 
intelligent picture we have had of this, the Syrian conflict 
zone, isn't what we would like it to be. You can only review 
refugees' submitted background data against what you have.''
    How this is different than Iraq is we had people in Iraq; 
we were working with the Iraqi government. We don't know a 
whole lot about the Syrians.
    General Clapper, retired general and director of National 
Intelligence, said this: ``As Syrian refugees descend on 
Europe, one of the obvious issues that we worry about, and in 
turn as we bring refugees into this country, is exactly what is 
their background. We don't obviously put it past the likes of 
ISIL to infiltrate operatives among these refugees. That is a 
huge concern of ours.''
    Director of FBI, James Comey, said this: ``We can only 
query against that which we have collected, and so if someone 
has not made a ripple in the pond in Syria on a way that would 
get their identity or interest reflected in our databases, we 
can only query our databases until the cows come home, but 
nothing will show up because we have no record of that 
person.''
    Ladies and gentlemen, the issue at hand that President 
Trump has recognized is that we don't have a whole lot of 
information on people from the war-torn areas. ISIL has said 
they are willing to infiltrate the refugee resettlement program 
and the immigration migration into Europe.
    This is a pause for 90 days so that our intelligence folks 
can try to get this right. It turns off the Syrian refugee 
program until the President says we can properly vet those whom 
we are going to allow to live amongst us. This is good policy 
to keep America safe.
    It is not a Muslim travel ban. It targets an area of the 
world that is torn with civil war and has elements--ISIS, al-
Qaeda, Boko Haram, Abu Sayyaf--that are intent on doing 
Americans harm. I support this.
    General Kelly, thank you. I look forward to your continued 
leadership at the Department. I look forward to working with 
you here.
    With that, I yield back.
    Chairman McCaul. Chair recognizes the gentleman from 
Louisiana, Mr. Richmond.
    Mr. Richmond. General, let me just ask you a couple yes or 
no questions.
    Is Steve Bannon, adviser to the President, a Department of 
Homeland Security employee?
    Secretary Kelly. No.
    Mr. Richmond. Are you a standing member of the National 
Security Council?
    Secretary Kelly. I am.
    Mr. Richmond. Has an adviser to the President ever been a 
standing member of the National Security Council?
    Secretary Kelly. I don't know specifically, but I would 
imagine that there have been advisers to the President. In 
reality, we are all advisers to the President. It would be hard 
for me to believe that there hasn't been some that have been 
advisers.
    Mr. Richmond. Well, let me just state for the record that 
while I understand the Secretary of Homeland Security has not 
traditionally been a standing member of the National Security 
Council, I do want to go on record saying that I find it 
appalling, disgraceful, and dangerous that Steve Bannon, a 
white supremacist and the architect of the ban, is on the 
National Security Council.
    I feel this inclusion weakens our Nation's security and 
makes your job even more complicated.
    Now, let me just spend 1 second again on the order, because 
some of my colleagues asked about Saudi Arabia. You indicated 
that we, as a country, was comfortable with the vetting that is 
done from--on the Saudi Arabia side.
    In the ban it mentions 9/11; 15 of the 19 terrorists 
involved in 9/11 came from Saudi Arabia. That doesn't give us 
any concern?
    Secretary Kelly. Of course it does, but again, that is some 
years ago. That is exactly why President Trump has decided to 
take a pause in countries we know are very, very high-risk in 
terms of not only terrorists or potential terrorists, but very 
high-risk in terms that they don't have really any databases we 
can work with, police, FBI, that kind of thing, where Saudi 
Arabia does have, you know, functioning police and intelligence 
services that we can work with.
    So at least we know that people that are coming out of that 
country are, (A), who they say they are; (B), why they are 
coming to the United States--whatever reason, tourists or 
otherwise. But it is pretty hard--it is impossible to get into 
someone's head.
    I believe if we put someone like Saudi Arabia on the list, 
given their very good intelligence, very good police work and 
all that kind of thing, then you could make the argument this 
is about religion. It is not.
    Mr. Richmond. Well, you say it is not about religion, but 
the President in a TV interview said that he would prioritize 
and even exempt persecuted Christians. How does that work? If 
we have a pause, how do we un-pause it for persecuted 
Christians?
    Secretary Kelly. Again, you know, we have--both myself and 
Secretary Tillerson have authority within the Executive Orders 
to make case-by-case--and I certainly did in the early hours--
to make case-by-case exemptions, a couple of Iraqis, as an 
example. I mean, the first lawsuit that was brought against the 
pause, one of the E.O.s, the two people that were wronged, 
allegedly, had long been admitted into the United States.
    So we have a case-by-case on this, and have let in some 
Iraqi generals, some other people, dual citizens, of course. So 
there is a way to, on a case-by-case--the little girls that the 
Congresswoman referenced. I mean, these are people that we 
said, OK, let's let them in. So there is a way to do that.
    Mr. Richmond. Well, and I am glad that there is a way to do 
that, but I guess what I am specifically asking is whether you 
or the Secretary of State are going to take the directive that 
the President stated, which is he favored preference for 
persecuted Christians. So are we going to put persecuted 
Christians over everyone else, as he suggested, is my question.
    Do you intend on implementing it like that or executing it 
like that?
    Secretary Kelly. We will look at every individual case that 
we are presented for exemption and make a decision not based on 
only religion, but on persecution and those kind of things.
    Mr. Richmond. So we won't put religion as a priority over 
other religions? We won't pick a religion and put them as a 
priority over another religion.
    Secretary Kelly. The way we are implementing this we will 
not use religion, but persecution for sure--why someone is 
being persecuted. But there is no, you know, no Muslims, but 
all Christians; nothing like that, Congressman.
    Mr. Richmond. OK.
    The former director of homeland security placed our voting 
apparatus as critical infrastructure. So my last question is, 
No. 1, do you plan on taking that designation away? Then the 
second part of that question would be, because it is designated 
critical infrastructure, the fact that the President believes 3 
million to 5 million people voted illegally, and I guess he 
assumes they didn't vote for him, how do we proceed?
    If the number is 3 to 5 million, it really could change 
some States like Michigan and Pennsylvania. He may well not be 
a President. He may be a so-called President, or in his terms, 
a fake President.
    So, are we going to institute that investigation and follow 
it to its logical conclusion? Or why should we have the 
confidence that these 3 to 5 million people didn't steal an 
election if, in fact, they did vote illegally?
    Secretary Kelly. Mr. Chairman, we are a minute past the 5 
minutes. OK to answer that question?
    Chairman McCaul. Yes, sir.
    Secretary Kelly. I think the, Jeh Johnson, good friend of 
mine, in his final days determined that, you know, the voting 
system was critical infrastructure. I believe we should help 
all of the States--provide them as much help as we can to make 
sure that their systems are protected in future elections. So I 
would argue that, yes, we should keep that in place.
    Everything after that, I can't find the question, just a 
statement. So----
    Mr. Richmond. I am past my time, Mr. Chairman.
    Chairman McCaul. I think the Secretary reminds us that we 
have a 5-minute rule. I think in the interests of all the 
Members here to get a question in let's try to adhere to that 
as much as possible.
    Mr. Barletta is recognized.
    Mr. Barletta. Thank you, Mr. Chairman.
    Secretary Kelly, the Federal judge who paused the Executive 
Order on January 27 stated from the bench that no one from the 
seven countries named in the order has been arrested for 
terrorist activities in the United States since 9/11, reading 
from an Associated Press article in the Seattle Times.
    He asked the Justice Department lawyer, ``How many arrests 
of foreign nationals from the countries have occurred since 9/
11?''
    When the lawyer said she didn't know, the judge answered 
his own question. He said, ``Let me tell you. The answer to 
that is none, the best I can tell. You are here arguing on 
behalf of someone that says we have to protect the United 
States from these individuals coming from these countries, and 
there is no support for that.''
    I can't help but note that at least in one instance he is 
right. The young man who stabbed a number of people at Ohio 
State this past November was in the United States through the 
refugee program. He came here from Somalia, one of the seven 
countries we are talking about. But in this one case, the judge 
was right. He was not arrested because he was killed at the 
scene by police.
    I have here a study by a professor from the University of 
North Carolina which finds that in all the arrests made for 
terror-related activities in the United States since 9/11 
almost a quarter of them have direct family ties to those seven 
countries.
    In your opinion, Mr. Secretary, are these critics correct? 
Have there been no problems at all with people from these seven 
countries?
    Secretary Kelly. I think, Congressman, the first thing I 
would say is people like me are paid to do--in my case, protect 
the Nation in the home game, protect the homeland. Hope is not 
a course of action for people like me, and police officers and 
sheriffs and members of the CBP, people like that. Hope we can 
never rely on, ``Gee, I hope nothing bad happens.''
    In the case, and I have nothing but respect for judges, but 
in their world it is a very academic, very almost in-a-vacuum 
discussion. Of course, in their court rooms they are protected 
by people like me.
    So they can have those discussions and if something happens 
bad from, you know, from letting people in they don't come to 
the judge to ask him about his ruling, they come to people like 
me. There are bad people in the world. They come from all over 
the world. Some of them are home-grown, and people like me are 
doing the best we can to get after the problem.
    So again, I have nothing but respect for our judges, but 
they live in a different world than I do. I am paid to worst-
case it; he is paid to, in a very academic environment, make a 
call.
    I don't criticize him for that. That is his job. But I am 
the one that is charged with protecting the Nation, the 
homeland, and I intend to do that and never hope that some 
people coming from some part of the world are coming here for 
the right reasons.
    Mr. Barletta. Thank you.
    Secretary Kelly, one of the principal reasons I ran for 
Congress was my frustration with the Federal Government for 
refusing to enforce our existing immigration laws. My city of 
Hazelton, which I was mayor of, was overrun by illegal aliens 
who brought with them gangs, drugs, identity theft, fraud, 
other crimes that I had to deal with.
    No one was speaking for the victims of these crimes. I 
always heard that, you know, we have to have compassion for the 
person that comes here illegally, but I had to sit with people 
who were--who lost loved ones who were victims. I have 
compassion for them, so I commend the Trump administration for 
recognizing these crime victims, the victims.
    As you know, the Executive Order of January 25, enhancing 
public safety in the interior of the United States, establishes 
an office of victims of crimes committed by removable aliens. 
Can you please speak to when this office will be set up and 
what services it would provide?
    Secretary Kelly. The office is being set up kind-of as we 
speak. Even though it is actually down inside the ICE 
organization, I have told my people that I want that particular 
office to work for me. So we are raising it up to the Secretary 
level.
    Generally speaking, these criminals who are here illegally 
are generally going through a criminal justice system in the 
States, for the most part. First of all, our view would be that 
those people can expect from us, if they call and say, ``How is 
that case going, you know, the person that murdered my daughter 
with a gun or ran over my son with an automobile or killed a 
police officer on the side of a road, how is that going?''
    So we hope to be--we will be able to say, ``It is in 
court,'' and you know, give them a description of what it is.
    But further down the line that office will be able to tell 
those people, ``OK, the convicted person that killed your 
daughter, murdered your son, killed a cop, he has got, you 
know, 10 years, 9 years, 8 years, 7 years. OK, he is going to 
be paroled, and you can bet that my people will be standing 
there when he is paroled to take him into custody and send him 
back to wherever he came from.''
    That is what I see that office doing, sir.
    Mr. Barletta. Thank you. Thank you for your service to our 
country.
    Chairman McCaul. Gentleman from Massachusetts, Mr. Keating, 
is recognized.
    Mr. Keating. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for your extraordinary service to 
our country, and particularly assuming this role as a native of 
Massachusetts.
    Mr. Secretary, I have heard the administration reference 
the Boston Marathon bombings as an example of a domestic attack 
that would have been prevented by the President's Executive 
Order. The Boston Marathon bombing, as we all know, is a 
heinous and personal attack on all of us as Americans.
    But the year following the attack this committee led an 
extensive bipartisan investigation into the Tsarnaev brothers, 
their families, their motivations, and I can tell you with 
confidence that the Tsarnaev brothers would not have been 
denied entry into this country under that Executive Order.
    Now, in your opening statement you said fear should not be 
the status quo. If you could, words matter. If you could 
comment on the importance of every official clearly defining 
and being accurate when they discuss issues such as that that 
provoke such public concern and fear, as this Executive Order 
did.
    Secretary Kelly. I agree. Public officials at every level 
should, you know, to the greatest degree that they can, 
understand the specifics of given cases and----
    Mr. Keating. That includes the President.
    Secretary Kelly. I think all public officials--but I will 
also say this: Since the regional--the third E.O. was put in 
order, the number of Members of Congress as well as 
international--my counterparts on the international scene that 
called me with really anecdotal, ``This is what is happening, 
it is horrible, these people are all being rounded up and all 
of this.''
    I said, ``OK, give me specifics.'' Not a single member but 
one was able was able to give me a specific, and that led to us 
getting a young girl out of a camp in Uganda and reunited with 
her family in Minneapolis, I think.
    So, all members of--that serve the Nation should be 
exacting. I will tell you, the biggest problem I had from that 
Friday until about Tuesday was the misrepresentation of what 
was taking place in the various airports, in particular. As I 
say, I was just inundated with----
    Mr. Keating. Thank you for making that a priority of yours. 
I hope every official at all levels----
    Secretary Kelly. We all have to be exact.
    Mr. Keating [continuing]. Take that responsibility 
seriously.
    Secretary Kelly. None of us should be talking about 
anecdotes. Specifics are--matter.
    Mr. Keating. Yes. Quick question I had. All your 
predecessors since I have been on this committee, and I think 
before I was on this committee, have stated that the No. 1 
security concern domestically has been home-grown violent 
extremists. Would you agree with all your predecessors that 
that is the most immediate and pressing danger that we have?
    Secretary Kelly. I don't think I would say ``the most'' 
because there are others that are equally as dangerous and just 
about as likely as home-grown terrorism.
    Mr. Keating. Fair enough.
    As a general you are familiar with the chain of command 
more than, I think, anyone in this room, given your years of 
experience. Looking at what happened, the chaos surrounding the 
Executive Order, what would you do going forward differently 
yourself to impact that process so there was a very clear chain 
of command with communications not just within government but 
also in the private side, with the airlines, and everyone else 
that is a traveler?
    Secretary Kelly. For the record, again, if you talk to the 
men and women of CBP, there was no chaos as they received 
people from various countries. You know, in the first 24 hours 
of the Executive Order from aviation, coming in by air, about 
325,000 or 330,000 people, over half of whom were foreigners, 
most of whom get in without any problem, and then a small 
number, relatively small number, were held up for additional 
vetting. The vast--I think all of them, but a very small number 
get in, in pretty short order.
    So if you ask the CBP people that were working the 
counters, they don't know what you are talking about when you 
are talking about chaos. Now, if you then look out to where the 
demonstrators were--and, with all due respect, some public 
officials--there was chaos, but that were--that was due to 
other factors.
    Mr. Keating. We had some airlines allowing people entry and 
some airlines didn't----
    Secretary Kelly. That came actually in the last few days. 
It was very quick. The airlines were very cooperative, as they 
always are. They are great partners, and when they were told, 
``Don't board these people,'' they didn't. Now, we have got a 
little bit of a difference----
    Mr. Keating. Are you satisfied with that chain of command, 
then, that took place during that period?
    Secretary Kelly. The chain of command is from the President 
to me to CBP in this case. I am satisfied with that chain of 
command.
    Mr. Keating. Just quickly, is that what happened in this 
case? Is that the chain of command?
    Secretary Kelly. It is.
    Mr. Keating. Thank you, Mr. Secretary.
    Chairman McCaul. Mr. Perry, from Pennsylvania, you are 
recognized.
    Mr. Perry. Thank you, Mr. Secretary, and let me offer my 
gratitude for your service to our Nation.
    As the Chairman of the Oversight and Management Efficiency 
Subcommittee on this committee, I have been concerned about an 
employee survey that DHS once again ranked dead last by its 
employees as the worst place to work in the Federal Government. 
Now, as you know, the--there are five core missions at DHS, two 
of which are to secure and manage our borders. Through the 
previous administrations, countless internal directors, in my 
opinion, the border became less secure and immigration agents 
literally could be fired for attempting to enforce Federal 
immigration laws.
    I am just wondering, the question is at this point, do you 
think the previous administration's actions, coupled with the 
mainstream media's demonization of securing our border and what 
it means, sometimes turning people away that want to come 
across the border, has had an adverse impact on the attitude of 
your now employees?
    Secretary Kelly. I believe that. If I could just make a 
comment, Congressman, the frustration--and I am very new at 
this job, but I am really good at interacting with people and 
really good at leading them. When I talk to the members, 
particularly where the rubber meets the road, or, as I have 
learned down on the Rio Grande the other day, where the hull 
meets the water, and you talk to them about why they have been 
frustrated--great Americans, magnificent men and public 
servants in uniform, sometimes out of uniform, they would tell 
you that, ``You know, sir, hard to do a job and not allowed to 
do it until a couple of the E.O.s came on.''
    Their particular frustration is when they see people who 
are, in fact, here illegally who are--have committed some 
crimes and then are let go. So I think their morale has 
suffered because of the job they were hired to do, and then in 
their sense they are kind of hobbled or, you know, hands tied 
behind their back, that kind of thing. Now they feel more 
positive about things. I bet if you watch the morale issue you 
will be surprised going forward.
    Mr. Perry. Well, thank you, Mr. Secretary, and I guarantee 
you we are going to be watching.
    I do want to make a statement in regard to the gentlelady 
from Texas regarding the attacks of refugees. I just want to 
just quickly point out a Somali who planned to blow up a 
Christmas tree lighting ceremony in Oregon, an Iraq refugee who 
set off a bomb in a Social Security office in Arizona, Somali 
refugee who went on a stabbing spree in St. Cloud. Of course, 
the one that Mr. Barletta referenced, a Somali refugee with the 
successful attack in Ohio.
    As a person who has worn the uniform, sir, I want to remind 
us both of the two Iraqis convicted on charges that they 
assisted al-Qaeda in Iraq and may have killed American service 
members who lied on their immigration paperwork. While it might 
be inconvenient for some people to be stopped at the airport, I 
don't have the photographs of the families who--mothers and 
fathers, brothers and sisters and children--who never saw their 
parents come home from the war zone or from some place out in 
their community where they were attacked by some of these 
people.
    So if we are going to bring up anecdotes, I imagine we can 
bring up some of the blown-up--pictures of blown-up parts of 
individuals and innocent civilians who were victimized by these 
people. I hope we don't have to be reduced to that level.
    Mr. Secretary----
    Ms. Jackson Lee. Would the gentleman yield?
    Mr. Perry. No. I have another question for the Secretary. I 
appreciate it.
    Mr. Secretary, just looking at some of the comments from--
and I am looking at a report from November 17 on NPR from the 
Border Patrol Union head, who said law enforcement has been 
handcuffed and the criminals are being let go. And another CNS 
news report from June 27, 2014, where agents were forced 
without documentations to accept the claims of immigrants and 
treat them as minors and turn them over to HHS within 72 hours 
pretty much feeling full well that they have been involved in 
gang activities, were above the age of minority, were above the 
age of 18, but without documentation were forced to do it.
    These folks then enter up--enter into the interior, and 
then the other concerns of dangerous drugs like heroin, health 
circumstances like polio, leprosy, small pox, the infiltration 
of al-Qaeda, et cetera. I am wondering if you can tell us 
tangibly today--today, starting right now or before--what has 
changed in those policies that led the head of the union to say 
that they were being handcuffed while criminals were being let 
go?
    What has changed already for Border Patrol under your 
leadership and under a new administration?
    Secretary Kelly. The 10-second answer, because that is all 
I have, is they are now--the various policies and whatnot that 
did restrict them--and I hear this all the time--that did 
restrict them have now been lifted and they are out there doing 
the job.
    But one of the things, in 6 seconds or less, we really need 
to do is really re-enforce--surge, if you will--the number of 
immigration courts and judges and that kind of thing to really 
get after the numbers of illegal aliens. Because, you know, we 
can pick them up all day long but if the process takes a year 
or 2 or 5 or 10, it is pretty hard to deter people coming up 
from South America, good people overwhelmingly, if they know 
once they get here they are in.
    But they feel better about things now that they--the E.O. 
has lifted the restrictions and the--the policy restrictions. 
The laws are there. They are good laws. Now they are being 
executed.
    Mr. Perry. Thank you.
    Mr. Chairman, I yield.
    Chairman McCaul. Chair recognizes the gentleman from New 
Jersey, Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman, and to the Ranking 
Member.
    Mr. Secretary, we thank you for being here today and thank 
you for your service to this Nation. It goes without saying 
that you have been a great American with respect to your 
service in the Marines and all the way up. So I want to 
congratulate you on this opportunity to serve, as well.
    You know, there has been a lot of discussion today in 
reference to the Muslim ban on these seven countries that, you 
know, the--my colleagues on the other side of the aisle are 
citing incidents now of refugees from those countries. But the 
data we have says that there hasn't been anyone from those 
seven countries that has--have made terrorist attacks.
    Countries that are not on that list, sir, are Lebanon, 
where we have had 159 Americans killed by their citizens; 
Egypt, 162; United Arab Emirates, 314; and Saudi Arabia, 2,369. 
So I would think that there might be reason to add other 
countries to that list.
    In terms of staffing for Customs and Border Protection, you 
know, the President's Executive Order on border security 
directs hiring of an additional 5,000 Border Patrol Agents but 
gives no specifics. What is the time frame for hiring these 
additional agents?
    Secretary Kelly. OK, Congressman, a lot there.
    Under the general heading, if I could start by saying, you 
know, honest men and women can disagree on things and hold 
their own opinions. This is not a Muslim ban.
    The countries that you mentioned--Saudi Arabia, Egypt, 
Lebanon and UAE--have systems within their countries that are, 
in our view, fairly reliable, although we are looking, in terms 
of their internal vetting, police records, things like that.
    The countries that are on the list that--put on the list, 
really, by the last administration, don't have those. They are 
countries in chaos, really countries in collapse.
    If we had put countries on--predominantly Muslim countries 
on this pause list, my view that would be putting them on there 
because they are Muslims. But because they are not--the reason 
they are not there is we have reasonable trust in their systems 
that we can rely on to begin the vetting first----
    Mr. Payne. These seven countries are not Muslim?
    Secretary Kelly. They are overwhelming Muslim.
    Mr. Payne. OK.
    Secretary Kelly. There are 51 countries on the planet that 
are Muslim, 26 of whom are over 80 percent. So of the 51----
    Mr. Payne. We keep count of those? We keep----
    Secretary Kelly. Of the 51 countries----
    Mr. Payne [continuing]. Count of Muslim countries?
    Secretary Kelly. Of the 51 Muslim countries on Earth--
predominantly Muslim countries--seven from that list are on the 
pause list, but not because they are Muslims but because their 
countries are in--they are failed states and we have no--they 
don't have reliable systems by which we can right now depend on 
their information to us. It is not a Muslim ban.
    Mr. Payne. OK. Well, you know, it is--as you said, we can 
disagree. It is even interesting that we are keeping count of 
the number of Muslim countries that there are in the world.
    To my Border Patrol--my time is running out.
    Secretary Kelly. Yes, on the Border Patrol. What I have 
told my people is that--and we have made this mistake in the 
military more than once, going back to certainly the Vietnam 
War. We will add to the ranks of the ICE and border protection 
people as fast as we can, but we will not lower standards and 
we will not lower training. So the people that--and I don't 
believe we are going to get 10,000 and 5,000 on board within 
the next couple of years.
    I would rather have fewer and make sure that they are high-
quality people that are already serving in those organizations, 
already well-trained. But I will not skimp on the training and 
the standards.
    Mr. Payne. OK. Thank you.
    I yield back.
    Chairman McCaul. Gentleman from New York, Mr. Katko, is 
recognized.
    Mr. Katko. Thank you Mr. Chairman.
    Thank you, Mr. Secretary, for being here today, and thank 
you for your long and dedicated service to our country.
    You are embarking on a job now where your daily mission is 
to find a proverbial needle in a haystack, and I admire you for 
wanting to take it on and I appreciate you willing to do so.
    I just want to share with you briefly a story. Last year we 
were part of a Congressional delegation to the Middle East. We 
went to Israel and then on to Iraq, Turkey, Berlin, Brussels, 
and Paris. That was before all of them were attacked by ISIS-
related terror attacks.
    When I went over there they were--all the security agencies 
had the exact mindset as you, and that is they don't want it to 
have to happen. It hasn't happened yet, but they didn't want it 
to happen in their turf. I pray to God that it doesn't happen 
here.
    So I appreciate all the efforts you and this administration 
are doing to try and keep our country safe. It is not enough to 
hope that we keep it safe. We have got to do everything we 
possibly can to keep it safe, so I appreciate you doing that.
    Now I want so switch gears a bit and put on my old 
prosecutor hat, because I was a 20-year organized crime 
prosecutor, and I was on the Southwest Border, then in Puerto 
Rico, and the Northern Border. My questions are emanating from 
that experience.
    When I was in El Paso I saw first-hand the border and how 
much of a sieve it was, even around the El Paso sector. The 
fact that they have 650 miles of border fence now and we are 
simply contemplating adding to that does not make this a novel 
idea that the border needs to be more secure.
    In my district we are inundated with heroin, and the number 
of heroin deaths in our area are overwhelming, to say the 
least. I know much of it is coming across the Southwest Border.
    So by tightening up the border can you tell me what impact 
it will have on drug traffickers and their ability to ship this 
poison into our country? I ask you to draw upon your experience 
as part of the Southern Command, as well.
    Secretary Kelly. A lot of experience with drugs--not taking 
them of course, but interdicting them.
    Interdiction of drugs. If the drugs are in the United 
States we have lost.
    I will use an example of cocaine in Colombia. You know, 
last year our Colombian friends, the best, closest allies we 
have in Latin American, bar none, they eradicated tens of 
thousands of acres of coca; they seized 378 metric tons of 
cocaine before it ever left and they destroyed hundreds and 
hundreds and hundreds of drug labs. So that is all cocaine that 
never even started the, you know, the trip up.
    Southern Command last year got a couple of hundred tons, 
with the Coast Guard getting a lot of that.
    Once it gets into Central America cocaine is--it is in 
Pennsylvania, it is in wherever.
    Heroin: 100 percent of the heroin consumed, generally--99 
percent is produced in Mexico. Poppy is grown in Mexico and 
Guatemala and trafficked up into the United States. We get a 
lot before it gets here but, as you point out, it comes here in 
massive numbers.
    Then the vast majority of methamphetamines, once again, 
produced in Mexico in the hundreds of tons and trafficked into 
the United States.
    I think a huge partner here is Mexico. If we can help them 
get after the poppy production, as an example; if we can help 
them get after the production labs; if we can help them get 
after the heroin, methamphetamine as it is moving in relatively 
large amounts before it gets to the border.
    We are never going to get to zero, but, you know, we don't 
have--we do not have a drug demand reduction. This is 
embarrassing. It is--well, we don't have a drug demand 
production program in the United States to stop the use of 
drugs. Most of this stuff starts recreationally and then turns 
into addiction.
    We are never going to get to zero, but we know how to do 
this. We have done it before with other drugs and other things 
that were bad for our society. We are not even trying.
    The people in the south, if you are Guatemala looking north 
or in the south looking north, they will tell you, ``How about 
stop lecturing us about not doing enough to stop the drug flow? 
How about you stop the demand and then the drug flow will go 
away?''
    I would like to think as we go forward that this Congress, 
myself, the Homeland Security would maybe get into the business 
of drug demand reduction, because that is what is killing our 
folks.
    I will just finish with this: There has been a drug 
heroin--there has been a heroin problem in this country since I 
was a kid, because the vast majority of my friends died of 
heroin overdoses long ago, in the 1960's and 1970's. But the 
heroin problem has been primarily, up until recently, in the 
inner cities, black neighborhoods, working-class neighborhoods 
like I grew up in, Hispanic neighborhoods. For decades I guess 
as a society, we said, ``Well, so long as it is just there who 
cares?''
    All of a sudden kids are dying in New Hampshire in large 
numbers, on the college campuses of places like Harvard, 
Stanford, in Capitol Hill, and Nob Hill, and Beacon Hill in 
Boston. Now it is a big issue.
    I think we should capitalize on the fact that it has got 
people's attention and somehow put together a drug demand 
reduction strategy that works and can reduce the number of 
people using drugs. That is what I think.
    Mr. Katko. Right. I appreciate it. My time is up. But 
briefly, by strengthening the Southern Border will that help 
prevent some of the drugs from coming across?
    Secretary Kelly. Yes.
    Mr. Katko. Thank you. I have more questions, but my time is 
up so I will have to submit it to you in writing.
    Thank you.
    Chairman McCaul. Gentleman from Texas, Mr. Vela.
    Mr. Vela. Thank you.
    Secretary Kelly, is President Trump's promise to build a 
2,000-mile, big, beautiful wall that will cost $14 billion and 
paid for by Mexico a viable option?
    Secretary Kelly. The President, Congressman, has tasked me 
to take a look at what we need on the Southwest Border and come 
up with recommendations to him. Yes, there are many, many 
places that we need some type of physical barrier right now 
backed up by men and women of Border Protection. There are 
other places where we need physical barrier, if we can afford 
it, in given time.
    But yes, I--there is no doubt in my mind that a physical 
barrier, backed up by men and women using technology, working 
with local law enforcement at the State and local level will go 
a long way to securing the Southwest Border.
    Mr. Vela. But building the 2,000-mile wall that was 
promised during the election is not the best way to achieve 
border security. Wouldn't you agree?
    Secretary Kelly. I wouldn't agree with that at all, no.
    I mean, it is a layered defense that starts with drug 
demand reduction. It continues with helping particularly the 
Central American countries socially and economically. That for 
sure will stop the movement--some of the movement of illegal 
aliens.
    For sure an immigration system that doesn't take 2, 3, 4 
years to return people, this will deter people coming up from 
the Central American countries, most of whom are good people. I 
don't criticize them at all for wanting to come to the United 
States.
    So there is no one single solution, but for sure, in my 
opinion, barriers and patrolling of the Southwest Border is a 
big part of it.
    Mr. Vela. Now, some of these things I think that we would 
be able to agree on, but I forcefully reject the idea of 
building a wall along the Southern Border. The fact is that 
Mexico is an ally. It is our third-largest trading partner, our 
second-largest export market. When you consider the 
relationship that we have with the country of Mexico that is 
right on our border and compare it to that of Russia, the idea 
that we would build a wall along that border doesn't make any 
sense to me.
    But what I would like to talk to you about is the----
    Secretary Kelly. Could I just ask----
    Mr. Vela. Of course.
    Secretary Kelly [continuing]. If 100 percent of the heroin, 
methamphetamines, and cocaine are coming in through the 
Southwest Border, and hundreds of thousands of illegal aliens 
are coming up through the Southwest Border, and billions of 
dollars' worth of counterfeit goods are trafficked up through--
you know, watches and electronics and things like that--are 
coming up through the Southwest Border, I mean, I think that 
argues for--that we do something on the Southwest Border.
    Again, the people that work the problem every day, CBP, are 
telling me--us, as--you all, as elected officials--that we need 
a combination of barriers, technology.
    I don't see any other option. I mean, it is a gaping wound 
in our defenses; drugs, people, the whole bit. So we have got 
to do something down there and I don't get your point about----
    Mr. Vela. No, I agree that we have to do something.
    Secretary Kelly. OK.
    Mr. Vela. What I am saying is--and let me ask you this: Has 
somebody at CBP told you that we need a 2,000-mile wall built 
along that border?
    Secretary Kelly. The people at CBP that work the sectors 
don't know about--like, if you go down to McAllen, Texas where 
I was they don't know what they need in Arizona. They don't 
even know what they need at the Big Bend of Texas. But they 
say, ``Boss right here I need fence so I can control the flow 
of people and drugs.''
    But I would argue that we should look at the entire border 
and where it makes sense--and it may make sense to do it for 
2,000 miles--actually for 1,300 miles since there is already 
600 miles of fence there--but to do it either--either to fill 
it in or to--maybe there are some places that are too rugged to 
put a wall and we cover that with patrolling and technology. 
But the people that work the border will tell you that physical 
barriers, and backed up by men and women on patrol, is what we 
need to secure the Southwest Border.
    Mr. Vela. I agree we have to do something, but what I am 
saying is--what I am asking is has anybody at CBP suggested 
that we should spend $14 billion to build a 2,000-mile wall 
along the Southern Border?
    Secretary Kelly. The people at CBP will tell you that we 
need physical barriers backed up by people and technology.
    Again, the people that look at it holistically at the 
headquarters level will tell you, ``Yes, we need a physical 
barrier.'' The people locally, though--and that is really more 
importantly to me--they can tell you exactly where they want 
10, 12, 15 miles tomorrow, and then 50 miles the next day, and 
then 100 miles. That is more important input to me than 
anything.
    Mr. Vela. Well, we are going to run out of time, and I 
appreciate some of your comments today and earlier in your 
Senate testimony with respect to the socioeconomic conditions 
in Central America and what we have to do to address that, and 
am particularly appreciative of your comments with respect to 
our country's tendency over the past few decades to ignore the 
issue of demand, and I look forward to working with you on 
those things.
    But just real quickly, to talk about the terrorist threat, 
wouldn't you agree that the threat of terrorists entering this 
country is a threat that exists at our international airports 
from Boston, New York, Washington, Miami, Chicago, San 
Francisco, Houston, Dallas, Los Angeles; at our sea ports along 
the Gulf Coast, Atlantic Ocean, Pacific Ocean, right; and at 
our Southern and Northern Border, correct?
    What I am wondering is if we obsess ourselves only with the 
Southern Border, are we not missing the boat?
    Secretary Kelly. Well, we are not obsessing ourselves. I 
mean, the immediate and the gaping wound, or the largest 
opening and the most uncontrolled part of our border is the 
Southwest Border.
    As far as our airports go, where people come here, as they 
say, you know, almost a million people a day come into our 
country; most of them are foreigners. But we do a real good job 
at the airports. A real good job at the airports.
    Our Northern Border, the good news with our Northern Border 
is Canada is an unbelievable partner and we don't get much in 
the--I mean, there is some, but there is not much that flows in 
from Canada.
    So I think you have to, you know, look at--never forgetting 
Canada, never forgetting the seaports, never forgetting the 
airports, but right now we have a completely exposed flank 
called the Southwest Border. There is no doubt we have to do a 
lot of different things there. It starts 1,500 miles south of 
the Southwest Border. Certainly the Mexicans are important, but 
we have to look at the immediate problem, and the immediate 
problem is the Southwest Border.
    Mr. Vela. I have got more questions but I am out of time. 
Thank you, Secretary Kelly.
    Chairman McCaul. Gentleman from Texas, Mr. Hurd, is 
recognized.
    Mr. Hurd. Thank you, Mr. Chairman.
    Mr. Secretary, it is great to have you here.
    I think most of the people on this dais would probably 
agree that we live in a world that is probably more dangerous 
than our parents, and our children are probably going to 
inherit a world that is more dangerous than ours. I am glad you 
willing to continue your public service because I think you are 
the right man for the job and you have the right perspective.
    My concern is that I feel like we need to stop talking 
about getting in the wall-making business and get in the border 
security business. Your concept of defense-in-depth I think is 
the right place to be.
    Now, we talk about physical borders, and I have 820 miles 
of the border with Mexico. I have more border than any Member 
of Congress. We have talked a lot about physical barriers, and 
we are going to see if this works.
    Can you advance to the first slide?
    Mr. Secretary, you have the pictures. The first picture is 
Amistad Lake and Amistad National Recreation Area. Would this 
be considered a physical barrier? Can we advance to the next 
slide to show where the actual international border--the 
international boundary is?
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Secretary Kelly. In my view, that is a physical barrier so 
long--it is a physical barrier. But it is easily crossed unless 
we patrol it.
    Mr. Hurd. Absolutely. Patrolling it, technology, making 
sure we know. But building a wall in the middle of Lake 
Amistad--lake--I guess it wouldn't be a wall; it would be 
another dam--is probably not the right--is a misuse of funds.
    Because I would like for the money that would potentially 
go to building a wall in the middle of a lake go to hiring more 
people, to helping with National security collection in Mexico, 
to give your folks additional intelligence to stop the problem 
before it gets to our border.
    Director McCraw--he is the director of the Texas Department 
of Public Safety; he is going to be testifying in the next 
panel--in his written statement said the border is best secured 
at the border, and forfeiting territory to cartels is not 
acceptable. I would say even working with our partners to stop 
it from happening is important.
    Can we advance to the next slide?
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hurd. This next one is the Pecos River, and it flows 
into the Rio Grande. This is about 10 miles west of Comstock in 
Val Verde County. The perspective is hard to see, but again, 
there are cliffs on both sides. Would this be considered an 
additional physical barrier?
    Secretary Kelly. That is a physical barrier to movement, 
yes, Congressman.
    Mr. Hurd. Thank you.
    I think we have one more picture.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hurd. One of my favorite places in the 23d District of 
Texas, the Santa Elena Canyon in Big Bend National Park. It is 
south of Terlingua, and I think you can tell--again, can we 
show where the international boundary is? That looks like two 
or three physical barriers along the international boundary. 
Would you agree with that, Secretary?
    Secretary Kelly. That is a physical barrier to movement.
    Mr. Hurd. Would there be any value of building a wall 
somewhere in that----
    Secretary Kelly. Well, not to be cute, but I think I would 
like to talk to the people that patrol that region. It clearly 
won't be down the middle of a river, but they may tell me that 
there is, you know, the flow of individuals that move through 
all of those pictures, that there may be need for some physical 
barrier, so----
    Mr. Hurd. Sure.
    Secretary Kelly. As we discussed yesterday on the phone, I 
look forward to getting down there, taking a look, kicking the 
tires, and talking to people.
    Mr. Hurd. I would love to take you down there. One of the 
things that they are going to tell you is they need horses in 
this part in order to do pursuits. I don't think you may--I 
don't think the folks in San Diego sector are going to be 
asking for horses.
    Secretary Kelly. You know, it was amazing to me. I actually 
own now 4,200 horses.
    [Laughter.]
    Secretary Kelly. As a city guy I wouldn't know how to even 
begin. But if they need horses there and that is what they 
need, then we will look at that for sure.
    Mr. Hurd. Good copy.
    Well, Secretary, looking forward to working with you 
because, again, this is an important issue for all of us. I 
think you are the right person for the job.
    I yield back, Mr. Chairman.
    Chairman McCaul. Mrs. Watson Coleman, from New Jersey.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    Congratulations, again. I am delighted to have an 
opportunity to talk to you.
    I have got a gazillion questions. I am going to ask them as 
quickly as I can, and I am going to ask if you will respond to 
them as quickly.
    I want to start with this. I think this is very telling: 
Donald J. Trump is calling for a total and complete shutdown of 
Muslims entering the United States ``until our country's 
representatives can figure out what the hell is going on.'' 
That is a quote.
    Now, Mr. Secretary, are we to take the President at his 
word? This is the sentiment that apparently drove this. So how 
can you say this is not a ban on Muslims when that is precisely 
what he promised?
    Secretary Kelly. Well, as the guy that is implementing the 
travel pause on the seven countries, I can tell you it is not 
being done for--because they are Muslim countries, but because 
they are countries that we don't trust their vetting or their 
information.
    Mrs. Watson Coleman. Well, thank you. I can understand your 
needing to say that, as well.
    Mr. Chairman, I would like unanimous consent for the 
current refugee screening process, which has been stated by 
National security professionals as one of the most stringent in 
the world, to be entered into the record.
    Chairman McCaul. Without objection, so ordered.
    [The information referred to follows:]
   Refugees Entering the U.S. Already Face a Rigorous Vetting Process
                    New York Times, January 29, 2017
By Haeyoun Park and Larry Buchanan
https://www.nytimes.com/interactive/2017/01/29/us/refugee-vetting-
        process.html
    President Trump has suspended entry of all refugees to the United 
States for 120 days, and he has barred Syrian refugees indefinitely. 
The current screening process for all refugees involves many layers of 
security checks before entry into the country, and Syrians were subject 
to an additional layer of checks. Sometimes, the process, shown below, 
takes up to two years.
    1. Registration with the United Nations.
    2. Interview with the United Nations.
    3. Refugee status granted by the United Nations.
    4. Referral for resettlement in the United States.
    The United Nations decides if the person fits the definition of a 
refugee and whether to refer the person to the United States or to 
another country for resettlement. Only the most vulnerable are 
referred, accounting for less than than 1 percent of refugees 
worldwide. Some people spend years waiting in refugee camps.
    5. Interview with State Department contractors.
    6. First background check.
    7. Higher-level background check for some.
    8. Another background check.
    The refugee's name is run through law enforcement and intelligence 
databases for terrorist or criminal history. Some go through a higher-
level clearance before they can continue. A third background check was 
introduced in 2008 for Iraqis but has since been expanded to all 
refugees ages 14 to 65.
    9. First fingerprint screening; photo taken.
    10. Second fingerprint screening.
    11. Third fingerprint screening.
    The refugee's fingerprints are screened against F.B.I. and Homeland 
Security databases, which contain watch list information and past 
immigration encounters, including if the refugee previously applied for 
a visa at a United States embassy. Fingerprints are also checked 
against those collected by the Defense Department during operations in 
Iraq.
    12. Case reviewed at United States immigration headquarters.
    13. Some cases referred for additional review.
    Syrian applicants must undergo these two additional steps. Each is 
reviewed by a United States Citizenship and Immigration Services 
refugee specialist. Cases with ``national security indicators'' are 
given to the Homeland Security Department's fraud detection unit.
    14. Extensive, in-person interview with Homeland Security officer.
    Most of the interviews with Syrians have been done in Jordan and 
Turkey.
    15. Homeland Security approval is required.
    16. Screening for contagious diseases.
    17. Cultural orientation class.
    18. Matched with an American resettlement agency.
    19. Multi-agency security check before leaving for the United 
        States.
    Because of the long amount of time between the initial screening 
and departure, officials conduct a final check before the refugee 
leaves for the United States.
    20. Final security check at an American airport.
Sources: State Department; Department of Homeland Security; Center for 
American Progress; U.S. Committee for Refugees and Immigrants; Refugee 
Council USA

    Mrs. Watson Coleman. Thank you very much.
    I am very concerned about the ban on the refugees. That is 
very concerning to me.
    Mr. Payne mentioned to you the fact that there were a 
number of countries in which we were calculating the number of 
people who have been killed in this country from those 
countries: Iran, zero; Iraq, zero; Libya, zero; Somalia, zero; 
Sudan, zero; Syria, zero; Yemen, zero. Are they included in 
this Muslim ban? Yes.
    Saudi Arabia, 2,369; United Arab Emirates, 314; Egypt, 162; 
Lebanon, 159. Are any of these countries included in this ban? 
No.
    One of the questions that was asked of you earlier was why 
wouldn't some place like Saudi Arabia be included in this ban, 
and you answered somewhat to the effect, ``Well, that happened 
such a long time ago.''
    So I guess my question to you, if we aren't going to 
include a country in which there was this heinous genesis of 
activity even 10 years ago or so, why would we include 
countries from which there is no evidence that there has ever 
been any killing in this country under those circumstances? 
That makes no--that doesn't sound logical.
    Secretary Kelly. I don't think I said that doesn't count 
because it was so many years ago, but if that is how you took 
it let me clarify and say that pre-9/11 we did things 
differently than we do post-9/11, so we have tightened up even 
more.
    Now, one of the things we have confidence in with, say that 
using the Saudis as an example, as when there is a Saudi 
citizen with a passport we can query or we can work with the 
Saudis to say, you know, ``Is this your citizen?''
    ``Yes, he has got one of our passports.''
    What is the degree of reliability that you can give us 
through your police records, intel records, that this 
individual is not----
    Mrs. Watson Coleman. Thank you. Thank you, Mr. Secretary.
    Secretary Kelly. So you don't want the answer?
    Mrs. Watson Coleman. That would suggest that we would trust 
that country.
    So I want to move on because I want to talk about the 
refugee process a little bit.
    The refugee process, or the whole vetting process, is 
really quite extensive. But the vetting process that involves 
refugees coming from Syria is even more layered. After they go 
through the regular vetting process, they have got to go 
through additional checks and balances.
    The majority of the people that have been coming from Syria 
who are seeking refuge in this country were old, ill, children, 
and women. So why are we compelled to think that there was a 
need to put a pause on letting those individuals, who were not 
any threat to this country, none whatsoever?
    What is the logic on putting a pause to their coming into 
this United States after years of vetting and even going 
through the United Nations? That just seems harmful, and 
hurtful, and mean, and un-American. So I would like you to just 
respond to that.
    Thank you, Mr. Secretary.
    Secretary Kelly. Sure. The logic is, the pause is put in 
place so we can evaluate the vetting process that these various 
groups go through and determine whether that is sufficient for 
me to recommend to the President that we change what the E.O. 
requires.
    I don't think a pause puts any, you know, real hardship on 
people who are--have already, in many cases, been waiting a 
year or 2 to come. But at the end of the day, we need to be 
sure.
    Frankly, I love the United Nations, but I trust my own 
people to determine whether the vetting is sufficient. As 
terrible as the conditions are in Syria, there is really almost 
no way to truly vet them in terms of records keeping and things 
like that. So, we will work through it.
    Mrs. Watson Coleman. Thank you. I appreciate that----
    Secretary Kelly. But it is only--it is a pause, and we will 
work with them.
    Mrs. Watson Coleman. Thank you, Mr. Secretary. I really 
appreciate that.
    You keep referring to ``your people,'' and you are brand 
new so I am not sure if you are saying that your people are the 
people that have been there, the careers that have been at DHS, 
or if you are speaking about a whole bunch of new people that 
you are bringing in that you are referring to your people.
    But whatever people they are, I would like for them to 
refer to the refugees entering the U.S. already facing a very, 
very thorough vetting process. Nothing is perfect. We can 
always make a mistake; we can always miss something. But let us 
not ignore the good work that has been done previously.
    I thank you.
    With that, I yield back.
    Secretary Kelly. When I refer to ``my people,'' the quarter 
of a million people that are in DHS are my people. I brought no 
people into the organization since being Secretary. Right now 
we are relying overwhelmingly on the career people because, of 
course, the political--with the exception of myself, really, 
the political appointees will take months and months and months 
to get through the confirmation process.
    Chairman McCaul. Chair recognizes Ms. McSally, from 
Arizona.
    Ms. McSally. Thank you, Mr. Chairman.
    Mr. Chairman, I have received a statement from CBP officers 
union on their concerns regarding staffing at our points of 
entry and efforts to support this. I ask unanimous consent it 
be included in the record?
    Chairman McCaul. Without objection, so ordered.
    [The information referred to follows:]
Statement of Anthony M. Reardon, President, National Treasury Employees 
                                 Union
                            February 7, 2017
    Chairman McCaul, Ranking Member Thompson, distinguished Members of 
the committee; Thank you for the opportunity to submit this testimony. 
As president of the National Treasury Employees Union (NTEU), I have 
the honor of leading a union that represents over 25,000 Customs and 
Border Protection (CBP) officers and trade enforcement specialists 
stationed at 328 land, sea, and air ports of entry across the United 
States and 16 Preclearance stations currently at Ireland, the 
Caribbean, Canada, and United Arab Emirates airports.
    NTEU's CBP members are very concerned about lack of adequate 
staffing at the ports of entry. The most recent results of CBP's 
Workload Staffing Model--factoring in the additional 2,000 CBP officers 
funded in fiscal year 2014 appropriations, but not yet fully-hired--
shows a need for an additional 2,107 CBP officers through fiscal year 
2017. The Agriculture Resource Allocation Model (AgRAM) calculates a 
need for an additional 631 CBP agriculture specialists for a total of 
3,045. There is no greater roadblock to legitimate trade and travel 
efficiency than the lack of sufficient staff at the ports. Understaffed 
ports lead to long delays in commercial lanes as cargo waits to enter 
U.S. commerce and also creates a significant hardship for CBP 
employees.
    It is not yet known which CBP positions will be exempt from the 
freeze on the hiring of Federal civilian employees as directed by the 
President on January 23, 2017. NTEU strongly supports exempting all CBP 
operational positions from the President's hiring freeze under the 
public safety exemption. CBP operational positions include not just CBP 
officers, but also other uniformed and non-uniformed CBP employees that 
perform public safety work, such as CBP Agriculture Specialists that 
prevent plant and animal pests and diseases that could harm U.S. 
agriculture and CBP trade operations specialists that prevent illegal 
and dangerous counterfeit products from entering U.S. commerce.
    Also, NTEU continues to have concerns about the slow pace of hiring 
at CBP. Despite appropriated funding for the hiring of 2,000 additional 
CBP officers, CBP has realized a net gain of less than 900 officers as 
of January 2017, due to attrition and the amount of time it takes to 
bring on new CBP officers.
                     cbp officer hiring challenges
    As you know, CBP has struggled to fill the initial 2,000 positons 
Congress authorized in 2014. One factor that may be hindering hiring is 
that CBP is not utilizing available pay flexibilities, such as 
recruitment awards and special salary rates, to incentivize new and 
existing CBP officers to seek vacant positions at these hard to fill 
ports, such as Nogales.
    Another major impediment to fulfilling CBP's hiring goal is that 
CBP is the only Federal agency with a Congressional mandate that all 
front-line officers receive a polygraph test. Two out of three 
applicants fail its polygraph--about 65 percent--more than double the 
average rate of eight law enforcement agencies according to data 
provided to the Associated Press. The eight law enforcement agencies 
that supplied information showed an average failure rate of 28 percent. 
The U.S. Drug Enforcement Administration failed 36 percent of 
applicants in the past 2 years.
    NTEU commends Subcommittee Chair McSally's work last year to enact 
legislation and to include a provision in the Defense authorization 
bill that authorizes the CBP Commissioner to waive polygraph 
examination requirements for certain veterans applying for CBP job 
openings.
    NTEU does not seek to reduce the standards used by CBP in their 
hiring process, but believe that there may be a problem with how the 
polygraph is currently administered and asks for CBP to review its 
current polygraph policy to understand why CBP is failing applicants at 
a much higher rate than individuals applying to work at other Federal 
law enforcement agencies.
    Not only is CBP not meeting its current staffing targets for 
Federally-funded CBP positions, CBP's Workload Staff Model calls for 
Congress to fund the hiring of an additional 2,100 CBP officers. Both 
CBP and Congress must act to address significant delays in the current 
hiring process to meet both current and future hiring targets.
    Lastly, the best recruiters are likely current CBP officers. 
Unfortunately, morale continues to suffer because of staffing 
shortages. In addition to being overworked due to excessive overtime 
requirements, temporary duty assignments are a major drag on employees, 
especially those with families. Based on their experiences, many 
officers are reluctant to encourage their family members or friends to 
seek employment with CBP. I have suggested to CBP leadership that they 
look at why this is the case.
      temporary duty assignments at southwest land ports of entry
    Due to CBP's on-going hiring delays, CBP has been diverting CBP 
officers from other air, sea, and land ports to the severely short-
staffed Southwest land ports. Since 2015, CBP has diverted officers 
from their assigned ports to San Ysidro and more recently to Nogales 
POEs for 90-day temporary duty assignments (TDYs.) In November 2016, 
CBP issued an updated TDY solicitation that directs 14 CBP Field 
Offices to provide 200 CBP officers for TDYs to the San Diego and 
Tucson Field Office. For example, in this solicitation, CBP directed 
the New York Field Office to send 12 CBP officers to the San Diego 
Field and 13 CBP officers to the Tucson Field Office from January 9 
through April 7, 2017.
    NTEU suggests Congress should ask that CBP supplement the TDY 
solicitation to include the following suggestions:
  <bullet> The size of the TDY pool should be immediately increased by 
        including non-bargaining unit personnel such as qualified 
        Headquarters staff, supervisors, and other employees on special 
        teams such as Tactical Terrorism Response Team and the 
        Strategic Response Team, and by including all officers who have 
        graduated from Federal Law Enforcement Training Center and who 
        have received a sufficient amount of post-academy training;
  <bullet> CBP should schedule TDYs in such a way that the supplemental 
        staffing through TDYs remains constant, so there is not a gap 
        between the departure of one round of TDYs and the arrival of 
        the next;
  <bullet> CBP should establish an advertised cash award for 
        individuals who volunteer for a TDY and should offer available 
        incentives such as student loan repayments, overtime cap 
        waivers, and home leave;
  <bullet> A surplus of volunteers for a TDY from one Field Office 
        should be allowed to make up for a shortage of volunteers in 
        another Field Office; and
  <bullet> Approved leave should continue to be allowed during a TDY.
                     diversion of customs user fees
    Because of the on-going staffing shortage, CBP Officers' funding 
streams cannot be compromised. In addition to appropriated funding, CBP 
collects customs user fees which include fees authorized by the 
Consolidated Omnibus Budget Reconciliation Act of 1985 (COBRA) to 
recover certain costs incurred for processing, among other things, air 
and sea passengers, and various private and commercial land, sea, air, 
and rail carriers and shipments. The source of these user fees are 
commercial vessels, commercial vehicles, rail cars, private aircraft, 
private vessels, air passengers, sea passengers, cruise vessel 
passengers, dutiable mail, customs brokers, and barge/bulk carriers.
    COBRA fees are deposited into the Customs User Fee Account and are 
designated by statute to pay for services provided to the user, such as 
100% of inspectional overtime for passenger and commercial vehicle 
inspection during overtime shift hours. Of the 23,775 CBP officers 
currently funded, customs user fees fund 2,859 full-time equivalent CBP 
officers.
    In addition to the on-going staffing shortage of over 1,100 CBP 
officers funded positions, CBP estimates that it would need an 
additional 2,107 CBP officers, over and above the 2,000 officers funded 
in fiscal year 2014, through fiscal year 2017 to meet optimal staffing. 
CBP proposes to pay for these additional officers with a $2 increase in 
both the immigration and customs user fees. NTEU reiterates that any 
increases to the Customs User Fee Account should be properly used for 
much-needed CBP staffing and not diverted to unrelated projects and 
should not result in any reduction in CBP-appropriated funding.
    In 2015, the highway bill enacted into law, indexed customs user 
fees to inflation, but diverted this increase in fees to pay for 
infrastructure projects and not to CBP officer pay and staffing, as 
intended. Indexing customs user fees to inflation raises $1.4 billion 
over 10 years creating a $140 million per-year funding stream that 
could have helped pay for the hiring of additional CBP officers to 
perform CBP's National security, law enforcement, and trade and travel 
facilitation missions.
    By diverting this fee, $140 million a year in additional customs 
user fees are being collected, but CBP is not receiving one additional 
dime to fund much-needed new CBP officer personnel needed to provide 
inspection and enforcement services to the users of these services.
    On February 1, 2017, Senator Deb Fischer (R-NE) introduced a bill 
that diverts the first $21.4 million of customs user fees collected to 
the Highway Trust Fund beginning in 2020. NTEU strongly opposes any 
attempts by Congress to raid customs user fees to pay for 
infrastructure projects.
    If Congress is serious about border security, wait times, 
international trade and travel enforcement, and job creation, Congress 
must reject any further attempts to divert custom user fees to fund 
other programs and restore the use of the fees collected from indexing 
to inflation to their original purpose.
                    agriculture specialist staffing
    CBP employees also perform critically important agriculture 
inspections to prevent the entry of animal and plant pests or diseases 
at ports of entry. For years, NTEU has championed the CBP agriculture 
specialists' Agriculture Quality Inspection (AQI) mission within the 
agency and has fought for increased staffing to fulfill that mission. 
The U.S. agriculture sector is a crucial component of the American 
economy generating over $1 trillion in annual economic activity. 
According to the U.S. Department of Agriculture, foreign pests and 
diseases cost the American economy tens of billions of dollars 
annually. NTEU believes that staffing shortages and lack of mission 
priority for the critical work performed by CBP agriculture specialists 
and CBP technicians assigned to the ports is a continuing threat to the 
U.S. economy.
    NTEU worked with Congress to include in the recent CBP Trade 
Facilitation and Enforcement Act (Pub. L. 114-125) a provision that 
requires CBP to submit, by the end of February 2017, a plan to create 
an agricultural specialist career track that includes a ``description 
of education, training, experience, and assignments necessary for 
career progression as an agricultural specialist; recruitment and 
retention goals for agricultural specialists, including a timeline for 
fulfilling staffing deficits identified in agricultural resource 
allocation models; and, an assessment of equipment and other resources 
needed to support agricultural specialists.''
    CBP's fiscal year 2016 AgRAM, shows a need for an additional 631 
front-line CBP agriculture specialists and supervisors to address 
current workloads through fiscal year 2017, however, even with the 2016 
increase in AQI user fees, CBP will fund a total of 2,414 CBP 
agriculture specialist positions in fiscal year 2017, not the 3,045 
called for by the AgRAM.
    Because of CBP's key mission to protect the Nation's agriculture 
from pests and disease, NTEU urges the committee to exempt CBP 
agriculture specialist positions from the hiring freeze and authorize 
the hiring of these 631 CBP agriculture specialists to address this 
critical staffing shortage that threatens the U.S. agriculture sector.
                            recommendations
    To address the dire staffing situation at the Southwest land ports, 
as well as other staffing shortages around the country, it is clearly 
in the Nation's interest for Congress to insist that all CBP 
operational employees be exempt from the hiring freeze. Congress should 
also authorize and fund an increase in the number of CBP officers and 
other CBP employees as stipulated in CBP's Workload Staffing Model.
    Over the years, NTEU has worked with Congress on a variety of 
proposals that would increase CBP's funding to support additional 
personnel, as well as to address other hiring challenges that create 
barriers to adding staff in a timely and efficient manner. For 
instance, we are hopeful that NTEU supported legislation that will 
allow recent military personnel to be hired as CBP officers without 
undergoing a polygraph will result in an increase in new hires.
    However, in addition to our longer-term goals of securing the 
proper staffing at CBP to address workloads, NTEU recommends that 
Congress call for a series of immediate steps that CBP should take to 
alleviate the immediate burdens being placed on CBP officers at the 
Southwest land ports of entry:
  <bullet> CBP should consider re-hiring recently-retired CBP officers 
        (so-called reemployed annuitants) who could be brought on board 
        quickly without the need for extensive new training or 
        background checks.
  <bullet> An immediate review should be undertaken of CBP's current 
        polygraph policy to understand why CBP is failing applicants at 
        a much higher rate than individuals applying to work at other 
        Federal law enforcement agencies; and
  <bullet> Immediate polygraph re-testing opportunities should be 
        afforded to those with a No Opinion or Inconclusive result, 
        including those with a No Opinion Counter Measures finding.
    Lastly, NTEU recommends that Congress pursue additional funding 
when considering funding for the final months of fiscal year 2017 and 
in the fiscal year 2018 CBP funding bill to address the staffing and 
overtime funding shortages facing the ports of entry. The current 
demand for staffing at the Southwest land ports is causing CBP to burn 
through its overtime budget at a much higher than anticipated rate, 
which could result in extensive staffing shortages at large volume 
ports of entry Nation-wide during the peak travel season this summer.
    Congress should also redirect the recently-enacted increase in 
customs user fees from offsetting transportation spending to its 
original purpose of providing funding for CBP officer staffing and 
overtime and oppose any legislation to divert the fees collected to 
other uses or projects.
    The more than 25,000 CBP employees represented by NTEU are proud of 
their part in keeping our country free from terrorism, our 
neighborhoods safe from drugs, and our economy safe from illegal trade, 
while ensuring that legal trade and travelers move expeditiously 
through our air, sea, and land ports, but those working at the 
Southwest Border ports of entry especially need relief. These men and 
women are deserving of more staffing and resources to perform their 
jobs better and more efficiently.
    Thank you for the opportunity to submit this testimony to the 
committee on their behalf.

    Ms. McSally. Thank you, Mr. Chairman.
    Thank you, Secretary Kelly.
    I represent southern Arizona, about 80 miles of the border, 
and we look forward to hosting you in our--the Tucson sector 
later this week. I am also the Border Security Subcommittee 
Chair on this committee.
    I would talk about our frustrations of border residents, 
ranchers, and Border Patrol agents, and myself in my role as 
someone who represents this community and chairs the 
subcommittee, in four areas.
    The first is the measurement of border security. The way 
that DHS has measured border security in the past has not been 
useful. The denominator is not included in the numerator of 
apprehensions or people that have turned themselves in.
    Last year in a hearing I got Chief Vitiello to admit that--
when I asked him as fighter pilot, I think in simple terms, 
``What percent of the 2,000-mile border do you have situational 
awareness of? If something is breached, you see it.''
    The answer was 56 percent.
    So the first frustration is how we measure effectiveness, 
and I would like to hear your thoughts on that and adjusting 
that.
    The second one is, in rural areas like ours defense-in-
depth, where we cede territory to the cartels. So we have 
individuals that are--when we are saying we have hours to days, 
we have families, ranchers, and others that are--this is a 
public safety threat. Transnational criminal organizations 
trafficking through our communities, creating a public safety 
threat.
    So this idea that we have, you know, days--or hours to days 
to intercept them in this defense-in-depth, it doesn't work for 
a community like ours. Also the fixed checkpoints, which we 
have really not got good answers as to whether they are 
effective or not, which are impacting people going about their 
daily business and commerce.
    But this is all part of the defense-in-depth, so that is 
another significant frustration that you will see.
    Then the last thing is the percentage of Border Patrol 
agents that are actually patrolling at the border, versus doing 
other queep and additional duties or other issues further away 
from the border.
    So these are really the four things. I would just like some 
of your thoughts on measuring effectiveness, this whole ceding 
territory issue, fixed checkpoints, and then percentage of the 
agents that are actually on the line.
    Secretary Kelly. I have got to tell you that is why I am 
going down to Tucson, to find out about these very things. The 
defense-in-depth, in my mind, at least the way I think of it, 
is--it is more going south--Mexico, Central America, Colombia. 
If----
    Ms. McSally. Not what it is right now.
    Secretary Kelly. Right. If they get in--if the border is 
penetrated, we have lost. For the most part, we have lost.
    Ms. McSally. Right.
    Secretary Kelly. So I am thinking it the other way, in 
terms of working with partners to the south and taking care of 
the issues. I won't go into it again about the socioeconomic 
conditions in the Central.
    I don't know how we--to be honest with you--I have heard a 
number of times from members and others. I don't know what the 
metrics are.
    So going forward, as we look at a physical barrier and some 
of the other things we are looking at, I have asked the staff, 
``Tell me how we measure success or failure.''
    I mean, I suspect it has a lot to do with--not I suspect. 
They can tell me--us--how many people they have stopped, but, 
you know, how many people got through? Tell me what the metrics 
are here. So I am with you on----
    Ms. McSally. But you don't know who you didn't see----
    Secretary Kelly. I know. Exactly. Exactly.
    Ms. McSally [continuing]. Is the point, right? So our view 
is--and again we have got legislation on this--the percent that 
we have situational awareness of, and then percent we have 
operational control of, where we can actually intercept it. I 
mean we look forward to working with you later on this.
    Secretary Kelly. We will work to that. Yes, we will work--
--
    Ms. McSally. The current effective numbers don't work.
    Secretary Kelly. Got it.
    Ms. McSally. Then back to the defense-in-depth. Right now 
the strategy is fixed checkpoints that make cartels go around 
the checkpoints into our communities, while you catch Darwin-
award winning low-level criminals going through known fixed 
checkpoints. It doesn't work. Do you have any comments on that?
    Secretary Kelly. Again, going down there to talk to the 
people on the line that--to include, you know, hopefully 
ranchers and people like that. I mean, I have already been in 
contact with a couple.
    Ms. McSally. Great.
    Secretary Kelly. Every bit, as you know--you know, McAllen 
is different than Tucson, which is different----
    Ms. McSally. Right.
    Secretary Kelly. So I think the solution is different in 
every place, but I do believe it starts trying to prevent the 
border from being penetrated. As I say, after that we have 
lost.
    Ms. McSally. Do you have any comments on kind of the level 
of effort Border Patrol agents actually reporting to patrol of 
the border, versus doing other duties?
    Secretary Kelly. It has been brought up to me, and folks 
are looking into it to satisfy me that there are--this is a 
common theme. They are involved in things that aren't really 
Border Patrol. So I am going to get--I am going to find out 
what those things are, and then if they can be done by someone 
else so that we can maximize the number of people----
    Ms. McSally. Look forward to working with you on all these 
issues and visiting with you end of the week.
    Secretary Kelly. Sure.
    Ms. McSally. Thanks.
    I yield back.
    Chairman McCaul. Miss Rice from New York is recognized.
    Miss Rice. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for your service to our country 
and your willingness to take on this very profound and 
important role.
    It was reported over the weekend that President Trump's 
chief political strategist, Steven Bannon, told you not to 
issue a waiver exempting green card holders from the travel 
ban. Some of the details of that report has since been called 
into question; others have been denied by the White House.
    But I figure since I have you in front of me I would just 
ask you directly. Did that happen? Did that conversation take 
place?
    Secretary Kelly. You know, I read that article Saturday 
morning and my--well, I would tell you that every paragraph, 
every sentence, every word, every space, every comma, every 
period was wrong. It was a fantasy story. And my concern to my 
public affairs people was, ``Look, this reporter, whoever he 
is, got this so wrong that, assuming he is not making it up, 
you gotta get to him and tell him whoever his sources are, are 
playing him for a fool.'' I don't know if they did that, but it 
is untrue.
    Miss Rice. So Steve Bannon did not ask you not to issue the 
waivers.
    Secretary Kelly. The entire story is untrue.
    Miss Rice. So do you have concerns about--just objectively 
in your new role, do you have concerns about political 
operatives trying to influence the work of the Department of 
Homeland Security?
    Secretary Kelly. No. I work for one man. His name is, you 
know, Donald Trump, obviously.
    He has told me, ``Kelly, secure the border,'' and that is 
what I will do. I am mildly interested in what political people 
think about that mission.
    Miss Rice. Well, actually, you were chosen by him. You work 
for us. You work for the American people, first and foremost.
    Secretary Kelly. We all work for the----
    Miss Rice. I am sure that is what you meant.
    Secretary Kelly. We all work for the American people.
    Miss Rice. As Secretary what are you doing to ensure that 
your leadership--because clearly had you been involved in 
creating this Executive Order you would have a pointed out the 
issue with the visa holders and all of that. What are you doing 
to make sure that this kind of a, if you want to call it a 
roll-out or preparation of an Executive Order, if they are 
going to continue in the future, that you have some input in 
the area that you clearly have expertise in?
    Secretary Kelly. I was involved tangentially in the writing 
of it, so the point--the reporting that I never saw it, didn't 
have anything to do with it, is untrue. We had a very small 
number of people in homeland security working with the White 
House as they developed it.
    I think in retrospect, as I think I have heard and pointed 
out a little earlier, but for sure have had discussions with 
Members of Congress, both sides of the Hill, both sides of the 
aisle, that a better way to have rolled that out--and we will 
do this in the future--will be to engage more fully at least 
the leadership of the House and Senate initially, and roll it; 
and then immediately after, as we start to execute, meet with 
additional Members of the House and the Senate.
    So, yes, I mean, lesson learned, on me. I should have 
slowed it down by a day, maybe two. Probably would not have put 
it out, you know, exactly on a Friday the way we did. But I was 
knowledgeable of the writing of it. I saw it twice Tuesday and 
I think Thursday, knew full well it was going to be released on 
a Friday.
    So again, there is an awful lot of misreporting, and I will 
assume that the members of press that got it wrong got it wrong 
because they are relying on people who were giving them 
information who didn't know.
    Miss Rice. There is a lot to go on in terms of trying to 
interpret the meaning behind the Executive Order. We have about 
18 months of comments by candidate Donald Trump about his 
desire to institute a ban on Muslims entering the country. His 
language was unequivocal and very clear.
    I understand now you are using the frame--the term 
``temporary pause.'' But I think one of the reasons why it is 
interpreted to be an outright ban is because it came--the 
Executive Order did not speak to or suggest ways that the 
vetting process, which we already know is one of the most 
rigorous there is, could be made better. The Executive Order 
was void of any suggestion on how that could be.
    So as you sit here now and you talk about the need to--now 
the desire is to make the vetting process better, what ways 
would you recommend, since you were really left with nothing 
other than an order that rightfully--my opinion, that is not 
because--I am not saying this because I am a Democrat, but we 
have a lot to go on in terms of interpreting the meaning behind 
this, especially since the order was void of any suggestions?
    Secretary Kelly. Well, first, I don't have to tell you that 
there are a lot of things that are spoken about in campaigns 
that once you get in the seat you--just like in my case, I 
mean, sitting here in a job that I have never had before, I am 
looking at life fairly, you know, differently. I thought we 
could accomplish things coming into this job that I realize now 
will be slower, or whatever.
    So, again, he said what he said in the campaign. He has 
tasked me to protect the Southwest Border, get control of it, 
which I will, of course, do.
    Miss Rice. Can I just stop, because there is one other 
question I want to ask you. So I trust that you will bring to 
us suggestions on how you will make the vetting process better.
    Secretary Kelly. Right.
    Miss Rice. OK. One other thing.
    Yesterday President Trump suggested that the, ``very, very 
dishonest press doesn't adequately report terrorist attacks.'' 
Do you believe that statement?
    Secretary Kelly. I think the press gets--does the best 
job--responsible press do the best job they can to get the 
facts straight. But, of course, they will go with a story. It 
is what they do. It is their job. They will go with the story 
and the best information they have.
    Much of the world is aflame today, and we know tremendous 
amounts of things about what is going on but it is in the 
Classified realm. That is not shared with the press. 
Consequently, they do, I think, generally the best job they 
can.
    But in my mind, having worked with the press a great deal, 
the most responsible press won't go with a story or will write 
it in such a way that they will acknowledge that they don't 
have the definitive information.
    There are a lot of other questions you have asked me, but, 
you know, again, Mr. Chairman, we are way over, I think.
    Miss Rice. Well, you can't blame the press for not knowing 
about Classified information that they are not privy to.
    Secretary Kelly. Of course not.
    Chairman McCaul. Gentlelady's time----
    Miss Rice. But do you know what terrorist attacks--just 
last--Mr. Chairman, please--what terrorist attacks President 
Trump was referring to when he said that? Yes or no?
    Secretary Kelly. I don't know which ones----
    Miss Rice. OK.
    Secretary Kelly [continuing]. Which ones he was referring 
to
    Miss Rice. Thank you very much.
    Chairman McCaul. Gentlelady's time has expired.
    The gentleman from Texas, Mr. Ratcliffe, is recognized.
    Mr. Ratcliffe. Thank you, Mr. Chairman.
    Secretary Kelly, welcome. Let me join others in saying that 
I am very excited that President Trump selected someone with 
your experience and leadership to take the reins at the 
Department of Homeland Security and to implement his agenda for 
safety and security for all Americans.
    We have heard a lot about border security today, but the 
folks that I represent in Texas have heard a lot of tough talk 
for a long period of time with, frankly, little to show for it. 
They have seen a border security bill that was enacted in 2006 
but never implemented. So many have rightfully, I think, lost 
faith in the Federal Government on this issue.
    I will tell you that for me it is personal. As U.S. 
attorney for the Eastern District of Texas I led an effort to 
arrest over 300 illegal aliens in a single day who were 
committing Social Security fraud and identity theft to steal 
jobs from hardworking Americans.
    My fear then is the same as it is today, that after 
criminal aliens are deported from the United States, let's say 
on a Tuesday, there is very little right now that stops them 
from coming back across that imaginary, unsecured line on a 
Wednesday.
    The fears with respect to that are not hypothetical. Last 
year I had to console my constituent, Courtney Hacking, when 
her husband Peter, a fire captain, and their 4-year-old 
daughter Ellie and their 2-year-old son Grayson, was killed by 
an illegal alien that had been previously deported. So 
heartbreaking and so real.
    Unlike the fake tears of one of our Democratic colleagues 
last week in calling for compassion for folks trying to come to 
this country from terror hotspots, I think we need to finally 
start showing compassion for people who are already here with 
real border security.
    So I am grateful. From everything that you have said today 
it is very clear to me that we finally have an eager and 
willing partner at the Department of Homeland Security to 
fulfill the fundamental role of the Federal Government to 
provide for the common defense.
    Now, let me shift gears, Secretary Kelly.
    Besides the threats coming across our physical borders 
Americans, as you know, face grave threats every day that are 
coming across our digital borders. I think you might agree with 
me that that is, frankly, more difficult to defend. We can't 
simply build a wall or erect some barrier to fix that problem.
    Cybersecurity is, in my opinion, the National security 
issue of our time because weak cyber defenses affect our 
economy, they impact our critical infrastructure, and they 
impact the integrity of Americans' most sensitive personal 
information. So I think we need a sustained, strategic 
attention to this issue.
    I will tell you, Mr. Secretary, that I frankly don't envy 
you in the role that you are stepping into here. As you have 
learned, the Department of Homeland Security cyber mission is 
immense under current law. You have got responsibility for 
coordinating the operational security of our Federal systems, 
and you are tasked with overseeing Federal efforts to 
coordinate the protection of our critical infrastructure. That 
is only part of your mission.
    You are taking over an agency that has--while made great 
strides in some respects, still suffers from credibility issue 
with many Members in Congress and many members of the public.
    So that is to say nothing of the broader policy issues. I 
know that what I am relating to you is not news to you.
    I want to take the opportunity here, as the chairman of 
the--in your first House appearance, as Chairman of the 
Cybersecurity and Infrastructure Subcommittee here in the 
House, to tell you that our subcommittee is willing to pedal as 
fast as you would like and are willing to tackle this critical 
National security issue.
    So I know you have only had a couple of weeks to settle in, 
but I want to get a sense of how things look to you so far in 
this respect. The biggest question, Secretary, that I am 
getting from stakeholders--they keep asking me, and it is 
something I am hoping you can shed some light on is, do you 
anticipate the Department of Homeland Security maintaining the 
role it is currently tasked with under the law, with respect to 
maintaining the dot.gov domain?
    Secretary Kelly. Yes, sir. On your last question I would 
say yes.
    That said, President Trump has ordered a kind-of--a 
complete top-to-bottom relook on cyber. That will include, you 
know, all stakeholders, and hopefully we are going to bring 
in--and we have been successful, I think, already in bringing 
in the private community.
    Because, you know, the one thing--the thing about cyber 
that a lot of people get--you certainly do, but others don't, 
is that, you know, it knows no bounds, it knows no boundaries, 
it knows no law, or it knows no, you know, regulations. We do. 
Privacy issues, legal issues, all that kind of thing. So we 
have to--the threat is changing faster than we are keeping up 
with it.
    The good news is, you know, in overseas we can do things to 
protect ourselves as a Nation. I can't, but others do. I was a 
beneficiary of a lot of that.
    You know, I know what we can do to people overseas. We 
obviously can't do that and should not do that internally to 
the United States. But there is a way, I believe, to break down 
a lot of the boundaries within the law, and particularly 
working with our private partners because, you know, they have 
got huge equities in it.
    But again, I am very sensitive to this because I was one of 
the 5 million or so Americans who had all of their information 
stolen, and the best I got out of the Federal Government a 
couple of years ago was, you know, ``General Kelly, all of your 
data has been stolen with the OPM. Good luck.''
    We have got to do better than that, and we will. So I look 
forward to working with you, Congressman.
    Mr. Ratcliffe. Well, again, I am so excited about your 
appointment and grateful for the chance to work with you.
    So with that, I will yield back.
    Chairman McCaul. If I could just add----
    Ms. Jackson Lee. Mr. Chairman.
    Chairman McCaul [continuing]. I think my clearances were 
stolen, as well.
    Ms. Jackson Lee. Mr. Chairman.
    Chairman McCaul. If I could just say, as Chairman's 
privilege, that I would hope this Executive Order coming down 
on cyber is done in coordination with this committee. We have 
passed a FISMA Reform and a Cyber Security Act, major landmark 
cyber legislation.
    I would hate to see any Executive Order come down that is 
inconsistent with current law. I think it would cause a lot of 
problems and a lot of consternation with the Members who have 
worked so hard to get this done.
    Ms. Jackson Lee. Mr. Chairman.
    Chairman McCaul. I would like the witness to respond, if 
that is OK.
    Secretary Kelly. Absolutely, Chairman.
    We are working with your staff, the White--your staff is 
working with the White House--they have got it. There was a 
kind of a draft E.O. that had been leaked some time ago--a week 
or so ago.
    I can tell you that the E.O. that is being contemplated is 
vastly different than that. I don't know whose work that was, 
but it did send shivers to a lot, my own organization included.
    So we are working with the White House. We will work with 
the Congress, of course, to make sure that going forward that 
E.O. says the right things and gets at the right problems.
    Chairman McCaul. We certainly--because we have through a 
lot of--we don't want to relitigate old battles, and certainly 
conforming with existing law I think is very important in this 
task.
    Chair recognizes----
    Ms. Jackson Lee. Mr. Chairman? Mr. Chairman, may I ask----
    Chairman McCaul. The gentlelady has no time. Would somebody 
like to yield?
    Ms. Jackson Lee. No, I am not asking a question. I am 
asking unanimous consent to submit something into the record.
    Chairman McCaul. Yes. What is it?
    Ms. Jackson Lee. An article from the Houston Chronicle: In 
the midst of the Muslim ban Feds detain Katie, a high school 
student from Jordan, following President Trump's immigration 
ban. The pictures that I held up. I ask unanimous consent, Mr. 
Chair.
    Chairman McCaul. Without objection, so ordered.
    [The information referred to follows:]
 Feds Detain Katy High School Student From Jordan Following President 
                        Trump's Immigration Ban
    Houston Chronicle, Updated 10:38 am, Thursday, February 2, 2017
By Shelby Webb
http://www.chron.com/news/houston-texas/houston/article/Feds-detain-
        Katy-High-School-student-from-Jordan-10897205.php
    A 16-year-old Jordanian visa holder, who attends Katy High School 
west of Houston, has been detained by U.S. immigration officials for 
more than three days following President Trump's controversial 
immigration executive order, according to his brother and an attorney 
representing the family.
    Mohammad Abu Khadra, who lives in Katy with his brother Rami, 
traveled to Jordan last week to renew his visa. When he flew into Bush 
IAH airport Saturday, officials with U.S. Customs and Border Protection 
detained him at the airport for about 48 hours. He was transferred to 
an Office of Refugee Resettlement shelter in Chicago Monday, where he 
remained as of Tuesday afternoon. The teen has no access to his cell 
phone or to a computer, his brother said.
    Mohammad is among dozens of visa holders and immigrants to be 
detained at U.S. airports since Trump signed an executive order Friday 
indefinitely barring all Syrian refugees from entering the United 
States and suspending all refugee admissions for 120 days. It also 
prohibits citizens from seven Muslim-majority countries from entering 
the United States for 90 days, whether they are refugees or not. Those 
countries include Iran, Iraq, Libya, Somalia, Sudan, Syria and Yemen.
    Mohammad's native Jordan is not on the list, and Mohammad is not a 
refugee.
    The ACLU of Texas said it was the only case its knows of where a 
minor has been detained for more than 24 hours since the executive 
order was signed.
    Mohammad and Rami's attorney, Ali Zakaria, said he is filing a 
family reunification document with the shelter so the Office of Refugee 
Resettlement can release him to his brother's custody in Texas. He said 
he has not yet heard back from U.S. Immigration and Customs Enforcement 
about why Mohammad was detained or how long his detention could last.
    Zakaria estimated Mohammad could be in custody anywhere from two 
weeks to two months. He did not know Mohammad's visa status or which 
type of visa Mohammad tried to renew in Jordan.
    ``Obviously Mohammad's case is extraordinary,'' Zakaria said. ``For 
a kid to be detained at an airport for 48 hours is unconscionable.''
    Rami, a 37-year-old green card holder who has been in the United 
States for five years, said he feels helpless.
    ``My country is not one of seven countries on the list,'' Rami 
said. ``It's like because he's from the Middle East, he gets 
detained.''
    Rami said he hopes to hear from Mohammad Tuesday, but that his 
little brother is only allowed to call once a week for 30 minutes.
    Katy ISD would not comment on the situation, citing federal student 
privacy laws that prevent them from sharing information about 
individual students.
    Mohammad is not the only minor to be detained by immigration 
authorities at airports since the order was signed, but his detention 
appears to be among the longest yet.
    A 5-year-old was allegedly separated from his Iranian mother and 
detained at Dulles International Airport outside of Washington, D.C., 
for more than four hours Saturday before the two were reunited. A 
Somali woman and her two young children were detained at the same 
airport for 18 hours due to the executive order.
    Rami said he was able to visit Mohammad briefly at Bush IAH airport 
Sunday after he was peppered with questions from immigration officials 
curious about his relationships and his allegiances. He said his 
brother was exhausted after a 16-hour flight from Jordan and spending 
the night sleeping in an airport chair.
    ``He was very afraid,'' Rami said. ``Before I saw him, he was on a 
flight for 15 or 16 hours, then was at the airport for 72 hours. He was 
very tired and frustrated. When he took the flight to Chicago, he 
called me, but he doesn't know anything. He doesn't know what's going 
on.''
    Zakaria said he spent the weekend volunteering with the ACLU and 
working with other immigrants, visa holders, citizens and refugees at 
IAH airport. He said after that work and speaking with colleagues 
across the country, he's convinced immigration officials are not just 
barring or delaying citizens from the seven countries listed on Trump's 
executive order.
    ``It's a lot of Muslims from other countries, too,'' Zakaria said. 
``I think Mohammad is a prime example. Jordan is not on the list, but 
he's still enduring this treatment. People say it's not a Muslim ban, 
but they need to look at the facts on the ground and not the spin 
coming from the White House.''
    Rami said his parents, who still live in Jordan, are inconsolable 
over their son's detention. He wished the U.S. government would just 
send Mohammad back to Jordan rather than have him languish in a 
bureaucratic limbo.
    ``I'm trying to fly out to Chicago, trying to reach out people. I 
just want to see him,'' Rami said. ``I'm trying very hard to just see 
him or hear from him or anything. I need to see if he needs money or 
anything.''
    Zakaria said keeping Mohammad in detention does nothing to keep 
Americans safe.
    ``It's OK to enforce the law, it's OK to be vigilant for terrorism, 
but stopping a kid at an airport for days does not accomplish that 
objective,'' Zakari said.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman McCaul. Mr. Correa, from California, is 
recognized.
    Mr. Correa. Thank you, Mr. Chairman and Ranking Member 
Thompson, for holding this hearing today.
    Secretary Kelly, I want to thank you for your service to 
our great country. I know you and your family have made great 
sacrifices for this country. For that I thank you, a debt we 
can never repay to you and your family.
    Just wanted to say all of us share the mutual goals of a 
safe Nation, safe citizens, safe taxpayers. Before I discuss 
border security I just want to tell you where I live.
    I live in central Orange County: Anaheim, California, 
Disneyland, happiest place on earth, which also, by the way, we 
have a number of mosques in my community. I can tell you right 
now that many of my neighbors, all those folks are good 
American citizens, law-abiding citizens, and they are scared to 
death. The way this immigration Executive Order was presented, 
I believe, just backfired.
    I have spent many hours, invested many time in going to 
these communities and to tell them, ``Please work with the 
authorities; make sure that we coordinate it. If you see 
anything out there that is going wrong, let us know.''
    Right now the Muslim community is very scared.
    I also have four children in central Orange County. I am 
very concerned about drugs. I am very concerned about their 
well-being.
    They go to school with a lot of kids whose parents are 
undocumented, who the kids are also DACA kids. All good. They 
have all been part of the California economic miracle.
    California is now, I think, the sixth-largest economy in 
the world, a couple of steps up. All those undocumented workers 
have been part of that economic miracle in the State of 
California.
    You call it the gaping wound, sir. I respect that.
    Want to address immigration? Let's do it with good public 
policy.
    Mexico, California's biggest trading partner. A lot of 
business; a lot of work. These people take care of our 
children, cook our food, provide a lot of services. Let's give 
them green cards.
    No. 2, in terms of the drugs, which is something that is 
very concerning to me as a father. You know 20, 30 years ago 
most of the drug trade, most of those heavy drugs came through 
the Caribbean. We were so good as Americans in stopping that 
drug trade through the Caribbean that we just redirected it 
through an inland bridge called Mexico.
    We destabilized Mexico. People in Mexico are scared to 
death.
    I went down there 2 months ago. They said, ``Don't go out 
after 8 p.m. because your life will be in danger.''
    The big gaping wound is our American drug demand for those 
drugs; our American dollars being spent on those drugs. So soon 
as we shut off the Mexican connection, will it be Canada next? 
Given the numbers, probably.
    Quick question to you, sir: Do you have a count of the 
number of special interest people that have been apprehended 
coming through Canada versus Mexico?
    Secretary Kelly. I don't, Congressman. I can get that to 
you.
    Mr. Correa. Thank you very much.
    A second question: As a State legislature in California I 
dealt a lot with the Baja California folks. One of the biggest 
concerns they had is when the Americans deported individuals, 
opened the gate, let folks essentially physically walk across 
the border, Mexican authorities had no idea if that was a 
person that got caught for a traffic ticket or as a rapist or 
murderer.
    What is it going to take for us to coordinate with our 
friends in the south to make sure we can keep track of these 
bad hombres so they won't continue to do harm south of the 
border or north of the border? I hope you come up with 
something in that area, sir.
    Secretary Kelly. Not familiar. But, I mean, if these are 
Mexican citizens who are being deported----
    Mr. Correa. Yes, sir.
    Secretary Kelly [continuing]. For sure, unless it is not 
legal--I am just trying to think of someone--for sure we should 
alert the Mexican authorities as to what they have done beyond 
being illegal aliens that we are deporting them.
    Mr. Correa. General, and I look forward to working with you 
on that issue. That is an issue I have been bringing up to ICE, 
Homeland for a number of years.
    My final question--I know I am running out of time--is, you 
know, right now immigration from Mexico is going down. It is at 
all-time lows.
    Part of the reason is economic growth in Mexico. The middle 
class is finally growing.
    It is an old saying, when the United States sneezes Mexico 
catches pneumonia, in terms of the economy. We are looking at 
public policies today of taxing commerce with Mexico. You 
finally have a growing economy south of the border. We are 
creating jobs so folks can stay home, and we are messing with 
tax policy. Any thoughts on, you know, advancing economic 
growth in Mexico and tax policy?
    Secretary Kelly. Same argument I would make when I talk 
about Central America. If the countries to our south are better 
off economically and socially then their people will rightly 
stay home with their families and what-not. So I think it is 
important to have, you know, a good economy in Mexico, Central 
America, places like that.
    If I could on a couple of your other points, on the 
illegals and what-not, the DACA individuals, I would just ask 
you. You know I have to--I have sworn to uphold the law, so I 
have to uphold the law. I would just beg you, as a lawmaker, if 
it is bad law, change the law so I can take that particular 
issue off the plate.
    I plead with you to change the law because I have to do 
what you and people like you have told me to do within our 
laws.
    The demand reduction thing, you are spot-on, Congressman. 
It is all about demand. If we stop the flow of drugs up through 
Mexico and don't reduce demand for those drugs, they are going 
to come up--they will come back up through the Caribbean into 
Florida on the East Coast. If we stop that, they will come 
another way.
    They are mailing it now, particularly getting into Puerto 
Rico and mailing it in. So we have got to reduce the demand and 
we have to put together a comprehensive demand reduction policy 
that goes everything from stopping the production of these 
drugs in the south all the way up to rehabilitation of drug 
addicts in the United States and everything in between.
    But we know how to do this. We have done this before, to 
affect people's behavior. It is not necessarily law 
enforcement; it is just making sense to people to do the right 
thing. We are never going to get to zero, but if we don't stop 
the demand, shame on us.
    Mr. Correa. Thank you, Mr. Secretary. Just one final 
comment if I may, and that is that I will work my colleagues 
here to change the laws as much as we can to reflect economic 
reality, the way we did in California. Thank you very much.
    Chairman McCaul. Chair recognizes the gentleman from New 
York, Mr. Donovan.
    Mr. Donovan. Thank you, Mr. Chairman.
    Mr. Secretary, I hope you don't get tired of hearing it 
because myself and my colleagues have all thanked you for your 
service to our country. We really do appreciate what you have 
done and what you will do for us.
    Secretary Kelly. I live for those comments.
    Mr. Donovan. Well, glad we could accommodate.
    I am the Chairman of a committee, of a subcommittee of this 
committee, that deals with not only preparedness and response 
to terrorist attacks, but also to natural disasters. Currently 
we don't have a FEMA administrator. I was just wondering if we 
can anticipate when you and the President will get to a point 
where you will be nominating somebody as the FEMA 
administrator. We have recently had disasters in Mississippi 
and Georgia that we need some direction with.
    Secretary Kelly. It is a great question. I mean, this 
process of finding the right people, putting them in the job, 
getting--if they have to go through confirmation, is--I now 
know is a tedious one. But, you know, the really good news for 
not only this group of men and women but for America is the 
career public servants that are in the organization, the people 
that have stepped up into those jobs--FEMA is an example--are 
very, very capable people.
    In case just in the 2 weeks I have been in the job we have 
said yes to every single request that has come up through the 
system in the right way. I don't mean to be bureaucratic. If 
they are not coming up the right way we help them, you know, do 
it, in terms of the requests for assistance.
    I have signed off in record time for every one of them. I 
have talked to the--like Mississippi, the Governor of 
Mississippi, the Governor of Georgia, when they had such 
terrible tornadoes. They were taken care of. We have said yes 
to snowstorms up in the Dakotas, I think, certainly Oregon.
    The fact that we don't have a political appointee has not 
slowed down the business of homeland security, sir. But you are 
right, we need to get going on that. But I don't know when. I 
can't predict when we might have a political appointee in that 
seat. But have no fear, because we have got a very, very, very 
good career administrator.
    Mr. Donovan. That is very assuring. Thank you, Secretary.
    The other thing I would like to ask you, with another 
Executive Order that the President administered. You know, I 
live in New York City and we depend on Federal funding to 
secure our city. Our State depends on State security grants.
    The sanctuary city Executive Order may have some kind of 
effect on our ability to access those grants. I was just 
wondering if you are giving States and localities or at what 
point you would give them some kind of guidance on how they 
would be affected.
    Secretary Kelly. Never say all. I would just offer that the 
input I have received from chiefs of police around, you know--
this is more anecdotal, but the numbers are low, but sheriffs 
and people like that are, ``Look, please don't penalize us for 
the actions of our elected officials.'' They have to be loyal, 
and I get that.
    In my view, if we are giving grants to a police department 
or a city specifically to help us in the execution of a, you 
know, say, ISIS mission, and that is not being done, it would 
seem to me it makes--there is no point in then giving grants to 
the city to execute that.
    We will do it--I will do it, in the grants that I control, 
in a measured way so that the good work of police departments 
all over the country, sheriff's departments all over the 
country, are at least given a say in what we are about to do.
    But again, if we are specifically giving grants for 
cooperation for removal of illegal aliens and a given 
department city is no longer doing that, it would--it seems 
irresponsible for me to continue giving the money.
    But it will be case-by-case and we will work very closely 
with the homeland heroes of this country, and that is the 
sheriff departments and the police departments all over the 
country.
    Mr. Donovan. I know you are well aware of how essential 
localities are to protecting particularly a city like New York 
City so----
    Secretary Kelly. Absolutely.
    Mr. Donovan [continuing]. I thank you very much.
    Mr. Chairman, I yield back the balance of my time.
    Chairman McCaul. Gentlelady from Florida, Mrs. Demings, is 
recognized.
    Mrs. Demings. Thank you so much, Mr. Chairman.
    Mr. Secretary, as a former police chief I know how 
important it is to hear every now and then ``thank you for your 
service.''
    As we all know, there can be an abundance of data available 
to the public safety community. But we also know just how 
important that data can be to helping public safety officials 
make decisions that they really need to get right the first 
time.
    Data analytics continue to evolve, and new applications for 
how to use data can often be a force multiplier for law 
enforcement. I believe that ensuring the deployment of assets 
and resources along the border is paramount to securing the 
border. Data analytics, I believe, may be helpful in that 
regard.
    Secretary Kelly your predecessor, Secretary Johnson, made 
joint operations and information sharing among DHS components 
about Southwest Border threats a priority through the Southern 
Border and Approaches Campaign.
    Do you see an expanded role for data analytics to be used 
to inform ICE, CBP, and the Coast Guard as they work together 
on the Southern Border?
    Secretary Kelly. You know, Congresswoman, I do. I think any 
time we can expand cooperation with anyone that is kind of in 
the same fight, has the same interest in terms of, in this 
particular case, Southwest Border.
    I had an interesting conversation the other day with the 
President-CEO of IBM about data analytics. Within about 30 
seconds of conversation, you know, kind-of my eyes rolled back 
up into my head and--but she made some points about this topic 
that my staff are now delving into.
    But just some of her comments about useful and expansive 
the reliance on--or useful the reliance on data analytics would 
be. So to your point, yes.
    My folks now, people that really understand the topic, 
are--and I would really like to see certainly a partnership 
with everybody, in this case it might be IBM, who can help us 
do better in this realm.
    Mrs. Demings. Have you had any opportunity to have any 
initial meetings with the stakeholders, private and public, to 
this point?
    Secretary Kelly. I have not. Again, not as a defense or an 
excuse, rather, but 2 weeks--a little more than 2 weeks in the 
job, and I can tell you the E.O.s took up a little bit of my 
time last week, so.
    [Laughter.]
    Mrs. Demings. OK. Thank you.
    Secretary Kelly. I will do better.
    Mrs. Demings. Also, I believe that border security 
Executive Orders and the vetting process is what really brought 
us here today, so please bear with me.
    I believe you testified earlier that our refugee vetting 
checks are minimal, but yet we have also heard that we have one 
of the most robust vetting processes when we compare it to 
others throughout the world.
    Mr. Secretary, and I know you also indicated that you are 
going to share with us, when you get to that point, what some 
of the recommendations are for improving the process.
    Secretary Kelly. Right.
    Mrs. Demings. But what is wrong with it? Is it minimal? Is 
it just not working? What is wrong with it?
    Secretary Kelly. The process now, whether it is Syria or 
anywhere else, but the process now is as good as it can be 
based on past philosophy--and that is not a criticism, but past 
philosophy--and the realities of a country, using Syria as an 
example, that is in collapse.
    So the people who are interviewing refugees, whether they 
are young men or old women and everything in between, about the 
best they can rely on--and it starts with the United Nations, 
and they are good people but they don't have a lot to work 
with. So when someone says, ``I am from this town and this was 
my occupation,'' and all of those kind of things, they 
essentially have to take the word of the individual.
    I, frankly, don't think that is enough. Certainly President 
Trump doesn't think that is enough.
    So we have got to, you know, maybe add some additional 
layers. Some of the things we have talked about was finances. 
One of the ways we can track--follow the money, so to speak.
    So how have you been living? Who has been sending you 
money? It applies, under certain circumstances, to individuals 
who may be involved in being on the payroll of terrorist 
organizations.
    We could be looking at--we could be asking them about 
websites that they frequently visit, if they visit, and 
anything and everything of that nature so that we can get our 
arms around about what kind of an individual we are dealing 
with.
    But this is a pause right now as we sort these issues out. 
I would be less than honest with you if I told you that of the 
seven countries all of them will come off that status in 80 
days or so, or when we owe the President the report. But I 
would like to think some of them will, but--and the ones that 
won't get off--because again, once again they just are 
countries that have basically failed.
    You know, I was just reading this morning where hundreds, 
perhaps even into the thousands, of individuals from Africa 
have fled to Yemen--again, a country that defines, almost, a 
country--a failed country--so that they can try to get on a 
list to come to the United States. Well, the people that are 
coming, to use that example, from another part of the world, 
Africa in this case, to go to Yemen are people that themselves 
may or may not have proper paperwork but they are going to a 
country that I absolutely do not trust right now in terms of 
what they provide us to vet people from Yemen. So it is a work 
in progress.
    Mrs. Demings. So you have indicated that some may stay on 
the list, some may not. But is the list prioritized?
    Secretary Kelly. It is seven now. Again, two of them are on 
the list of the State sponsors of terrorism, and I think four 
or five of the others we don't even have an embassy there. When 
you don't have an embassy there is no Americans to sit there 
and do the interviews, the consular interviews, to start the 
process of determining if this person is the kind of person we 
want to come to our country.
    Mrs. Demings. OK. Thank you, Mr. Secretary.
    I yield back.
    Chairman McCaul. Gentleman from Wisconsin, Mr. Gallagher, 
is recognized.
    Mr. Gallagher. Thank you, Mr. Chairman.
    Secretary Kelly, you and your family have sacrificed a lot 
for this country, and I thank you for that. Your willingness to 
step up again is inspiring.
    As a fellow Marine I just have to share that I am currently 
on an e-mail chain with about 10 of my basic school buddies, 
and they are all debating whether with you and Jim in critical 
spots we should all reenlist. But I will do my best to work 
with you in this position.
    You talked a lot to your commitment to securing the 
Southern Border. I applaud you for that and I share it.
    One of the things that concerns me, however, is no matter 
how robust the physical barrier, no matter how long this pause 
or how extreme the vetting process, we still confront the issue 
of domestic radicalization, whereby ISIS and its adherents will 
send out a call and an American citizen or a Muslim-American 
will answer that call. Can you talk a little bit about how you 
think about that problem and what we can do as a committee to 
help you confront the problem of domestic radicalization?
    Secretary Kelly. Huge problem. What you are trying to do is 
get into someone's head before they make a decision.
    You know, I share this responsibility with other law 
enforcement, all law enforcement agencies as well as the FBI. 
But, you know, I think it starts and maybe--it starts and maybe 
the solution, such as it is, with parents and spouses, siblings 
maybe watching the kind of websites that their kids are on or 
their brothers are on.
    You know, and I think it is a--most people would agree, all 
parents have to watch what their kids are doing on the 
internet, but I think it begins with that, people who are 
watching their kids and what they are doing.
    I believe, whether it is white supremacists in Christian 
churches, you know, people in--you know, holy men, rabbis in 
synagogues, imams in mosques, to be watchful of the--
particularly the young people, particularly maybe the young 
males to see what kind of talk, what kind of questions, what 
kind of things they are doing and report before the person--the 
young person makes a decision to, you know, to go radical, I 
think.
    So in my view, you know, there is a certain level of 
usefulness, I guess, in kind of campaigns that--to try to 
convince young people or any people to not do the wrong things, 
but I really do believe it starts down in the home. I don't 
think the Federal Government can do it; I don't think the State 
government. It really, I think, begins in the home, and then 
into the churches and in the synagogues and the mosques, the 
idea being to prevent it.
    I remember meeting, I think, with someone, a young woman 
from Mississippi, who was going down that trail. Her father, I 
think, was a police officer and reported it. I think that is 
what we need because for the most part we learn about these 
terrible things when it happens, whether it is a shooting in a 
club in Florida or at a holiday party in San Bernardino. It is 
a tough problem.
    Mr. Gallagher. I take your point about the limits of the 
Federal Government in this space, but to what extent do you 
view engagement with the Muslim-American community as well as 
our Muslim allies abroad as part of your integrated strategy 
for securing the homeland?
    Secretary Kelly. Well, you know, from my military time, you 
know, we delivered a win in Anbar Province, which is 
overwhelmingly 99 percent Sunni. We delivered a win there not 
just simply by killing people--and we killed a lot of people, 
and they were the right people that needed to die--but mostly 
because we--and you know this--we engaged Sheiks, the community 
leaders, the elected leaders, and particularly the mosques.
    You know, when I left Iraq my last time I was--the title 
escapes me, but it was essentially ``defender of the faith,'' 
the Islamic faith. They gave me a beautiful Quran, gold 
embroidered and all that kind of thing, and had a big, you 
know, a big celebration when I left, and it was because how 
closely we worked and protected the imams and protected the 
mosques and the people within them.
    The imams overwhelmingly, the holy men, were targeted by 
this small percentage of erratic--I mean radical Muslims. Small 
percentage, don't represent true Islam, and they--and we 
protected the imams from those men.
    So I know how to engage on this issue and I will continue 
to do that. But my message has got to be to the communities of 
Americans who happen to follow the Muslim faith. It would be 
the same message I would give to community--Christian 
communities of Americans who follow the Christian faith, 
relative to, say, white supremacy and that kind of thing, is, 
``Keep an eye on your kids; keep an eye on your sisters and 
your brothers and report before they get too close to that 
point where they walk into a church in South Carolina and shoot 
a bunch of innocent people, or go into a bar somewhere and 
shoot a bunch of gay people.''
    So I really do--I mean, that is the best answer I can come 
up to right now. We don't have to convince the vast majority of 
American Christians, Muslims, Jews not to do bad things. What 
we have to convince them to do, though, is to report when they 
see one of their flock or one of their family members going 
down the wrong road.
    That is my thought.
    Mr. Gallagher. Thank you, Mr. Secretary.
    Mr. Chairman, I yield.
    Chairman McCaul. Chair recognizes Ms. Barragan, from 
California.
    Ms. Barragan. Thank you.
    Mr. Secretary, one day ago the President went on another 
Twitter rant after the judge halted the Muslim ban. This was 
one of his tweets, and hopefully you can see it. It says, ``I 
have instructed Homeland Security to check people coming over 
into our country very carefully.''
    ``Very carefully'' is in all capital letters.
    My question is what was DHS not doing before this order 
that you are now doing? In other words, this order, which was 
post the judge's ruling?
    Secretary Kelly. First of all, I can see it because it is 
big enough to see from this seat.
    We are doing business as normal now that the--now that we 
are--you know, right from the beginning we quickly adjusted to 
obey every one of the judge's rulings. So we are back to normal 
operations, if you will, and doing nothing different today than 
we were doing before.
    That is to say when someone comes in as long as they have 
the right paperwork and all of that kind of thing, they are 
allowed to enter. If there is something that the officer at the 
counter, so to speak, doesn't like or suspects of something 
they would be taken aside for additional screening. That is 
normal.
    Ms. Barragan. So there is nothing new as a result of this 
order that the President tweeted out that now he has given an 
order that you are supposed to do very carefully? Because this 
insinuates that we were not doing it very carefully.
    Secretary Kelly. Right.
    Ms. Barragan. So I just want to clarify. There is no new 
order here, right?
    Secretary Kelly. The men and women that work the counters 
always do their business very carefully.
    Ms. Barragan. So this is not a new order, correct, Mr. 
Secretary?
    Secretary Kelly. We didn't have to see the President's 
concern about what has taken place post-Federal ruling to 
continue to do things very carefully.
    Ms. Barragan. OK, thank you.
    Are there any specific examples, any evidence of any recent 
refugees from the seven listed countries that may have slipped 
through DHS in the recent past? Do we have any evidence of 
that?
    Secretary Kelly. Well, if they slipped through we wouldn't 
have any evidence because we wouldn't know that they had 
slipped through.
    Ms. Barragan. Well, there is an instance where they may 
have slipped through and through intelligence you have--could 
have stopped some activity or a plot. Do you have any evidence 
that somebody maybe slipped through from one of these seven 
countries that you now know about?
    Secretary Kelly. Let me take that for the record.
    Ms. Barragan. Earlier, well, do you know how many countries 
there are where we do not have an embassy?
    Secretary Kelly. I don't off-hand, but I know that in the 
case of the seven countries we are dealing with, most of them 
do not have functioning embassies. As you know, I think, when 
we leave, generally speaking, another embassy will take up, you 
know, certain duties to help us out in that country.
    Ms. Barragan. So would you say there are more than seven 
countries where we don't have an embassy?
    Secretary Kelly. I would guess there are, but I would have 
to take that for the record. I will get with the State 
Department to find out specifically, but I will get that answer 
to you.
    Ms. Barragan. OK. Well, according to your testimony, one of 
the reasons for the seven countries is that we don't know--you 
said, ``I don't know how we would vet people where there is no 
embassy.''
    So my question is do you think it would be safer for us to 
close down our borders to all those countries where we don't 
have an embassy? That kind-of follows the rationale then----
    Secretary Kelly. If there are countries--and I am not sure 
there are, but if there are countries--I guess there is, but if 
there are countries that we don't have an embassy that we have 
not put on this list of seven it is because we have confidence 
that the structure, police, intelligence, that kind of thing is 
still operating to the degree that we can have confidence that 
individuals are at least who they say they are and we have some 
background information on them.
    Ms. Barragan. OK. You testified earlier that there was no 
chaos at CBP, is that correct?
    Secretary Kelly. I said there was no chaos where CBP were 
working at the airports, yes.
    Ms. Barragan. OK. Well, you know, I went down to LAX on 
Saturday night and there was chaos.
    Now, let me tell you there was chaos in the terminals at 
Bradley International Airport. Now, I got there and I asked to 
speak with somebody from CBP. Conveniently, the office was shut 
down, so I couldn't ask a question of somebody in the office. I 
asked to be taken down to speak to somebody at CBP but they 
wouldn't take us anywhere so I couldn't see for myself.
    We heard from people coming off planes there was dozens of 
people being detained. When I called CBP asking for a briefing 
just to find out if any of my constituents were being held, 
given access to an attorney, I was told call a 202 Washington 
number. Then I was hung up on.
    How are we to know that there was no chaos down there? 
Members of Congress couldn't even see for themselves.
    Secretary Kelly. Well, you could take my word for it. If 
the--my people in the--in CBP say there was no chaos, that they 
were doing their normal job at the counters with people coming 
into the United States, most of whom were allowed to pass, 
those that needed additional screening were put aside, this is 
normal, everyday operations in any airport in the United 
States, there was no chaos.
    Their job normally would not be--I mean, it would be 
unusual for someone to say, ``Hey, I am a Congresswoman and I 
want to talk to people in CBP.'' My opinion, they need to do 
their jobs on the spot.
    There is a 24-hour watch at DHS headquarters. I can report 
to you that more than one of your colleagues call the right 
number and unfortunately or fortunately, I was engaged 
throughout the night with Members of Congress. Again, most of 
what I was getting was very anecdotal. I am not saying that you 
didn't see what you saw, but there is a process to engage this 
DHS leadership and the people that are on the front lines are 
down there doing their job in the normal course of the events 
don't interact with Members of Congress.
    Ms. Barragan. I will yield back, since my time is up.
    Chairman McCaul. Gentlelady's time has expired.
    The gentleman from Florida, Mr. Rutherford, is recognized.
    Mr. Rutherford. Thank you, Mr. Chairman.
    General Kelly, thank you very much for you service, and 
particularly for your service here today with this very lengthy 
testimony. I appreciate you taking the time. Thank you. A true 
public servant.
    I represent Florida's--America's first coast, northeast 
Florida, Port of Jacksonville. One of the concerns that I have 
is as the administration strengthens the southern land border, 
the security there, that the drug cartels will again shift 
their operations back to the maritime domain.
    Can you talk briefly about your experience at SOUTHCOM? You 
know all too well the difficulties of interdiction, and 
particularly with, now, the Navy sort-of pulling out of that 
role. Can you speak briefly about any intentions that you may 
have to also strengthen at the same time our maritime security?
    Secretary Kelly. My information is a little dated, but I 
think it is still accurate.
    While we can see the flow of drugs, particularly cocaine as 
it comes up from South America, with a very, very high degree 
of clarity, primarily because of, you know, an organization in 
Key West, the Joint Interagency Task Force, that really 
leverages the entire U.S. interagency. Like most organizations 
that are far from Washington, DC, it works better than if it 
was here because people actually talk to each other. You know, 
DEA and FBI and Homeland Security, everyone is in the same 
fight. So the point is we have a great deal of clarity.
    The vast majority of the drugs, we know, are moving up the 
Central American isthmus into Mexico, as we all know, and into 
the United States. There is not really, as I testified many 
times in--when I was in SOUTHCOM, not even really a speed bump. 
It gets in. The network is so well-developed; it is so 
efficient and it will move anything--drugs, people, you know, 
counterfeit industrial items, whatever.
    What we did start to see--and I am going back a year ago 
now--we did start to see more flow coming up the island chain, 
the old cocaine cowboy days, if you will, mostly flights out of 
Venezuela up to--trying to get to places like Dominican 
Republic or even Puerto Rico.
    We started to react to that but, simply put, we don't have 
enough assets. I don't believe, with the exception of transit, 
there has been a U.S. Navy ship, certainly in the last 2 years 
of my time at Miami we didn't have a single Navy ship.
    The good news is United States Coast Guard, our fifth 
military service, kind-of doubled the number of cutters. But 
that was like four.
    So we don't have enough to monitor the flow. We can monitor 
the flow; we don't have enough to interdict the flow. Remember, 
when we interdict down there in SOUTHCOM we are getting it a 
ton a time, two tons, some of the submersibles 8 or 10 tons at 
a time.
    As we have success on the Southwest Border--and there is no 
doubt we will--we are going to start to see it flow up toward 
the--it will go back up the old island chain. The good news is 
Dominican Republic is a great ally in this whole effort. Many 
of the smaller island nations are great allies in this effort.
    But they will adjust to it, which goes back to the demand 
issue. If we simply reduce the demand significantly, like we 
have on other items and other things in the past, we would 
really, really cut into their profits.
    Even if we don't care about the 47,000 Americans that died 
last year from these drugs, the $250 billion dollars it costs 
the American taxpayer to deal with these drugs--even if we 
don't care about that, it is the profits that come out and 
cause death and destruction all over the Western Hemisphere. 
Frankly, some of that money is drawn off into the radical Islam 
organizations. Long answer, sorry.
    Mr. Rutherford. No, that is very good. Thank you, General.
    Also, Mr. Secretary, you mentioned the Coast Guard cutters. 
Will you continue to support the recapitalization of those 
cutters in the plan going forward now?
    Secretary Kelly. If I didn't say yes to that the Coast 
Guard commandant would come in here and hit me with a bat. But 
yes, absolutely. Their equipment is very, very, very old. They 
are a phenomenal group of men and women. They are in the fight 
every day, in terms of not only saving lives but crime-
fighting. We have to recapitalize the organization.
    Mr. Rutherford. Thank you very much, Mr. Secretary.
    I yield back, Mr. Chairman.
    Chairman McCaul. Thank you.
    The gentlemen from Pennsylvania, Mr. Fitzpatrick, is 
recognized.
    Mr. Fitzpatrick. Thank you, Mr. Chairman.
    Secretary Kelly, our country is better for having you serve 
in this role, and thank you for being willing to step up. I 
know you could be enjoying your retirement right now, but you 
chose to serve a cause bigger than yourself, and thank you for 
doing that.
    Just to expand on Mr. Rutherford's comments, and I believe 
Representative Katko, as well, asked about the drug issue, 
specifically opioids. We have an absolute epidemic in this 
country when it comes to opioids. It tends to 
disproportionately affect the northeastern part of the United 
States, my hometown of Levittown is being absolutely decimated.
    We know that they primarily come from three countries: 
Mexico, Columbia, and Afghanistan. We also know that they are 
primarily taking the route across the Southwest Border. There 
is a lot of talk about securing the border and what is involved 
with that, as far as a physical barrier.
    We also talked about what else can be done. Is there going 
to be, sir, a comprehensive strategy by your administration to 
focus specifically on not just slowing it down--we always, in 
the FBI, refer to physical barriers as a speedbump for cartels, 
but that is all it is. It requires more, and I just wondered if 
you could expand on that a little bit.
    Secretary Kelly. Well, I will let the demand reduction 
argument--not argument, comments. I have made them enough. I 
believe by reinforcing the Southwest Border and getting some 
level of control over it, it will make it harder for the 
importation of drugs that way.
    But, you know, the phenomenon we are seeing now--and I will 
go back in--for a second on the opioid thing--you know, these 
cartels are absolutely brilliant in how they do business. They 
saw a need that the United States wanted more heroin. So, they 
just, you know, they were the ones that were providing mostly 
marijuana over the years.
    But they said, ``OK, if the American consumer wants heroin, 
we will start growing heroin. We will start growing poppies 
here and turning it into heroin and we will import that, if 
that is what they''--you know, so really, almost, I would say 
99 percent of the heroin that is consumed here in the United 
States comes up through Mexico. These guys are, you know, 
really brilliant businessmen and they figure out how to deliver 
to the American market.
    Methamphetamine, because of Congressional action a few 
years ago, the precursors to making methamphetamines harder and 
harder to achieve inside the continental United States, so the 
Mexican cartel said, ``OK, so we will fill the need. The 
Americans want methamphetamines.''
    So most of it is made down there now because the precursors 
come in from China, India, a few places. Most of it comes in 
legal, by the way, and then the cartels use it to--and then 
finally the cocaine is cocaine, and it has been coming up 
through.
    So we just have to watch the flow. When we are successful 
on the Southwest Border--and we haven't even talked about 
enhancing the border crossings. I think, in my view, part of 
the wall is also to enhance the border crossings that we are--
the legal ones so that we can move larger volumes through, you 
know, as quickly as possible.
    But just as importantly, actually, the South Americans will 
say, you know, from their view, the things that we import into 
their country that is killing thousands of their citizens and 
wreaking havoc in their societies are guns--as I understand it, 
mostly legally purchased up there and then brought down through 
the ports of entry into Mexico; and cash, bulk cash--billions 
and billions and billions of--unlimited amounts of bulk cash.
    When I was in Southern Command I worked very closely with 
the FBI, CIA, and Treasury Department. Treasury Department has 
a really dedicated group of men and women who follow the money.
    Somehow, if we can bring all of that together and go 
after--you know, if you go to bed at night as a cartel guy with 
$10 billion in the bank--and I use ``b'' purposely--and wake up 
the next morning and you don't have any money in the bank, you 
are not only not a cartel guy anymore, you are dead.
    I think that kind of thing, going after the money; working 
with cooperative countries; and making them cooperative if they 
don't want to be--that is an aspect of it; the demand 
reduction; better ports of entry; working closer. But in my 
view, once it is in the States we are done; we lost.
    You know, there are a million law enforcement, roughly, 
individuals in our country. They are superheroes in every sense 
of the word.
    They cannot keep up with the amount of drugs, and, for that 
matter, people that make it into the country. They are just 
overwhelmed. The most selfless people on the planet. We owe 
them a debt of gratitude, and they are just overwhelmed by the 
numbers and the tonnages.
    Mr. Fitzpatrick. Thank you, sir.
    One other question, with regard to the Executive Order. 
There have been some in the counterterrorism community that 
have expressed some hesitancy and concern about cooperating 
witnesses--cooperating human sources that are being deployed 
overseas in furtherance of counterterrorism investigations, 
possibly getting caught up in that. I just ask that your 
administration be cognizant of that, as far as preserving those 
investigations.
    Secretary Kelly. I have the authority to make National 
security decisions--exemptions. We have already done it, and we 
will continue that.
    Mr. Fitzpatrick. Thank you, sir.
    I yield back, Chairman.
    Chairman McCaul. Chair recognizes Mr. Higgins, from 
Louisiana.
    Mr. Higgins. Mr. Secretary, I echo the sentiments of my 
colleagues when I say thank you for your service, sir.
    Like to ask your opinion regarding the increased and 
advanced use of social media to track potential terrorists. In 
my opinion, the previous administration showed a glaring 
deficiency and hesitancy to use that publicly available data. 
So to what extent do you envision that we will increase the use 
of this? I mean, it is out there. It is for public purview.
    Even in countries where, as you have so carefully pointed 
out, we don't have vetting procedures in those countries, those 
guys are on social media. I would hope that under your 
leadership your Department will increase its efforts to dig 
into that available data and to link visa applicants with their 
social media activity, you know, whereby we may determine 
whether or not they are talking to the wrong kind of people and 
have some bad plans for us. This would apply also to profile 
potential radicalization of domestic terrorists.
    Please give us some feedback on that.
    Secretary Kelly. Certainly great points on the social media 
thing. Again, it is still a work in progress, but this pause is 
giving us an opportunity. Well, it is not quite a pause anymore 
since we are under court order to allow people to continue.
    But even if we don't get under--get out from under the 
court order, we are looking at some enhanced or some additional 
screening. I think I mentioned them a little bit.
    You know, if someone comes in and wants to come into our 
country, you know, it might be not only do they bring a 
passport or whatever their stories are. Again, it is very hard 
to truly vet these people in these countries--the seven 
countries--because they just don't have the internal 
infrastructure. They are failed States in many cases.
    But if they come in and say, we want to say, for instance, 
``What websites do you visit? And give us your passwords,'' so 
that we can see what they do on the internet. This might be a 
week, might be a month. They may wait some time for us to vet. 
If they don't want to give us that information then they don't 
come.
    We may look at their--we want to get on their social media 
with passwords. What do you do? What do you say? If they don't 
want to cooperate, then they don't come in.
    There are other things like that. So these are the things 
we are thinking about. No one should take this as this is what 
we are going to do right now.
    But over there we can ask them for this kind of 
information, and if they truly want to come to America they 
will cooperate. If not, you know, next in line.
    But I think we honestly have to, if we are doing our jobs, 
enhance the way--or get more serious than we have been about 
how we look at people coming into the United States--not only 
individuals, but what they bring. You know, many countries look 
at immigration from the point of view of what do their 
countries need. We don't necessarily always do that.
    So I think two things: One, reliable information on people 
so we can have a reasonable expectation they are not coming 
here to do the wrong thing or to be a burden on our society; 
and the other issue is, do they bring skills that we want?
    Mr. Higgins. Your answer is encouraging, and I would hope 
that you would move forward with that as a mandatory part of a 
visa application to provide our own people with social media 
accounts and passwords. That is a crucial window into their 
intent.
    Thank you, sir. I yield back.
    Chairman McCaul. Gentleman from Virginia, Mr. Garrett, is 
recognized.
    Mr. Garrett. Thank you, Mr. Chairman.
    Thank you immensely for your service, Mr. Secretary. I was 
trying to count the number of times I have taken an oath in my 
life to defend the Constitution and the Nation, and I thought 
you have probably taken a few more than me. I presume you took 
an oath when you took your current position as Secretary?
    Secretary Kelly. I did. I am right at 16 times.
    Mr. Garrett. I am at 8, so you got me.
    Secretary Kelly. I got you.
    Mr. Garrett. Do you consider it part of your oath to 
support and defend the Constitution of the United States 
against all enemies foreign and domestic--do you consider part 
of your oath to ensure that the vetting that we apply to 
individuals who would seek to come to this country be as 
thorough as it can legally and constitutionally be?
    Secretary Kelly. I do.
    Mr. Garrett. Without regard to any individual in this panel 
or anywhere else, would you consider that to be sort of the 
minimum that you could do if your responsibility was to support 
and defend the Constitution--that is, to insure that the 
individuals who live under the blessings of that Constitution 
have the blessing also of the level of security that we could 
best guarantee?
    Secretary Kelly. I do.
    Mr. Garrett. So what we know, then, is that no vetting can 
prevent all risk. Am I correct?
    Secretary Kelly. Correct.
    Mr. Garrett. You are certainly familiar with comments by 
the director of the FBI who indicated, based on some of the 
same things that you pointed out, that we are unable to 
adequately vet certain individuals because there is just nobody 
to call. ``Tell me about Kelly. What does he do? Who does he 
hang out with?'' Right?
    Secretary Kelly. True.
    Mr. Garrett. But you would concede that more thorough 
vetting is more effective than less thorough vetting, correct?
    Secretary Kelly. I would.
    Mr. Garrett. I want to apologize on behalf of my 
colleagues, Mr. Secretary, who aren't in the room. I don't want 
to conjecture as to why they left, but I appreciate your time.
    I know that the media is in the hallway. I think we have 
more to learn from you than we have to tell them and that we 
owe you the full bearing of the time you are willing to spend 
here.
    Would it surprise you to know that, in fact, there have 
been multitudinous instances of individuals from the seven 
nations named where individuals were arrested and subsequently 
prosecuted for either engaging in or plotting to engage in acts 
of terror on U.S. soil? Would that surprise you?
    Secretary Kelly. It would not surprise me.
    Mr. Garrett. In fact, one of my colleagues indicated that 
you might not be able to point out any instances where this had 
happened. I would say you are unable to point out any instances 
where this has happened on your watch so far, correct?
    Secretary Kelly. Right.
    Mr. Garrett. But you would agree with the sentiments 
expressed by Secretary Rumsfeld that essentially the terrorists 
only have to be right once; we have to be right all the time.
    Secretary Kelly. Exactly right.
    Mr. Garrett. So inevitably, regardless of how good you are, 
how faithfully you discharge those duties, sometimes you lose 
soldiers, sailors, airmen, Marines, sometimes things go wrong.
    Secretary Kelly. Sometimes they go wrong.
    Mr. Garrett. Yes, sir.
    Are you familiar with--and I just wish my colleagues were 
in here because they said they had never heard of these--Dafar 
Adnan or Abdul Razakal Arton, any of these names? If you are 
not, it is OK.
    Secretary Kelly. No, but I am tough on--I am not good on 
names.
    Mr. Garrett. Well, sir, I am not very good on these names 
either. But I could continue to read off names.
    Ultimately what we have is six Iranians, six Sudanese, two 
Somalis, four Iraqis, one Yemeni, all off this seven-nation 
list, who either executed attacks in this Nation--the mall 
attack in St. Cloud, Minnesota; the car and knife attack at 
Ohio State University, both refugees; a bomb plot at a mall in 
Texas that was foiled, by an Iraqi. None of these instances--
you have heard of these, you just couldn't----
    Secretary Kelly. Right.
    Mr. Garrett. Yes, sir.
    So let me ask you this. We know that there is rhetoric 
about a Muslim ban. Do you believe that the rhetoric globally 
of a Muslim ban would, in fact, serve to enrage our enemies and 
be used by our enemies as a recruiting tool? Do you believe 
that that is the case?
    Secretary Kelly. If I could just elaborate a little bit, 
the kind of people that are trying to get here and kill us 
don't need any more reason to come here and try to kill us than 
the ones they already have. The ones they already have, of 
course, is it is about us and how we live our lives, our 
religions, or no religion, how we treat women, how we treat 
each other. That is why they hate us--a very small percentage--
--
    Mr. Garrett. Yes, sir.
    Secretary Kelly [continuing]. But that is why they hate us.
    So, you know, if we do something like this and it is 
advertised as a Muslim ban, I mean, they can only be so mad at 
us. I think their mad red light is on. They can't get any 
madder at us.
    Mr. Garrett. As they seek, though, to justify the--and 
recruitment and cite, ``Hey, see look what the Americans do, 
and this proves my point that they are bad''----
    Secretary Kelly. What I found about--when I ran Guantanamo 
Bay--and, you know, Guantanamo Bay is a super well-run--you 
would be proud of the soldiers, sailors, airmen, Marines down 
there. It is all misinformation.
    So the point is when the previous President--I don't--I am 
not criticizing here. Mr. Obama was our President and I respect 
him. But when he would say that because we had Guantanamo Bay 
open it added more people to the jihad, the jihad information 
warriors said, ``Ah, if he is saying that, that is a good thing 
to use and we will say it.''
    They hate us. They don't need any more reasons to hate us.
    Mr. Garrett. Mr. Secretary, I suppose my question is 
ultimately--and I am inartful sometimes with words--if it does 
aid our enemies and there is no Muslim ban, is it not those who 
are perpetuating this myth who are aiding our enemies?
    Secretary Kelly. I wouldn't disagree with that.
    Mr. Garrett. Thank you.
    Mr. Chairman, I will yield back the negative 33 seconds.
    Chairman McCaul. I thank the gentleman.
    Let me just close. I want to enter into the record a, Mr. 
Secretary, a letter I sent to the DNI about a reported re-
investigation of dozens of Syrian refugees already admitted 
into the United States. Because of a lapse in vetting through 
technology defects that Syrian refugees with potentially 
derogatory information in their files came into the country for 
resettlement.
    That obviously concerns us. This has been our great concern 
all along with the refugee program, and I look forward to the 
response to that letter.
    [The information referred to follows:]
       Letter From Chairman Michael T. McCaul to Michael Dempsey
                                  January 26, 2017.
Michael Dempsey,
Director of National Intelligence (Acting), Washington, DC 20511.
    Dear Director Dempsey: I write to express my alarm regarding the 
reported reinvestigation of dozens of Syrian refugees already admitted 
into the United States. A January 25, 2017 article in the Los Angeles 
Times\1\ indicated that a ``lapse in vetting'' stemming from a 
technological issue had allowed Syrian refugees with potentially 
derogatory information in their files into the country for 
resettlement. Needless to say, this alleged gap in the security vetting 
of Syrian refugees raises serious national security concerns, 
especially considering more than 15,000 Syrians were admitted in 2016 
alone under the direction of former President Obama and former 
Secretary of State Kerry.
---------------------------------------------------------------------------
    \1\ Del Quentin Wilber and Brian Bennett, ``Federal agents are 
reinvestigating Syrian refugees in U.S. who may have slipped through 
vetting lapse,'' The Los Angeles Times, January 25, 2017, http://
www.latimes.com/politics/la-na-syria-refugees-vetting-gap-20170125-
story.html.
---------------------------------------------------------------------------
    For two years, my Committee has highlighted frustration with 
serious security weaknesses related to the Syrian refugee program. 
Indeed, leaders from the Federal Bureau of Investigation (FBI), the 
Department of Homeland Security (DHS), and the National 
Counterterrorism Center (NCTC) have testified before the House Homeland 
Security Committee that intelligence gaps prevented them from fully 
vetting such individuals--and that extremists could potentially slip 
through the cracks. Despite these public concerns, the Obama 
Administration vowed that Syrians would be screened ``without cutting 
any corners when it comes to security'' through what was described as 
an ``extraordinarily thorough and comprehensive''\2\ process. But it 
now it appears that the process may not have been as secure as the 
White House promised.
---------------------------------------------------------------------------
    \2\ Alex Leary, ``John Kerry defends `thorough' Syrian refugee 
screening in letter to Rick Scott,'' The Miami Herald, November 22, 
2015, http://miamiherald.typepad.com/nakedpolitics/2015/11/john-kerry-
defends-thorough-syrian-refugee-screening-in-letter-to-rick-scott.html.
---------------------------------------------------------------------------
    Already we know that hundreds of individuals with ties to 
terrorismu have tried to enter the United States through the Syrian 
refugee program, and apparently some have succeeded. In a letter sent 
to me by the FBI, DHS, and NCTC the day before the Presidential 
Inauguration, I was informed for the first time that DHS has denied 
more than 500 refugee applications since Fiscal Year 2011 from Syrians 
trying to enter the United States who were known or suspected of having 
terror ties--a total of almost seven percent of those who have applied. 
Some of these individuals had ties to the Islamic State of Iraq and 
Syria (ISIS). Moreover, those agencies informed me that there were 
several hundred additional Syrian cases are on hold pending final 
review for denial on national security grounds. I find it very 
disturbing that so many terror-connected individuals have already tried 
to reach our shores through the Syrian refugee program. But what is 
worse, this new report suggests that potentially dozens of them have 
managed to make it into our country because of a ``glitch.''
    We cannot be blind to the threat. ISIS has already used the global 
migrant crisis as Trojan Horse to send operatives to the West and 
conduct attacks. For instance, some of the suspects behind the heinous 
attacks in Paris and Brussels posed as refugees to sneak into Europe, 
and dozens of other suspected jihadists reportedly have entered the 
continent the same way. In just the past year, a number of European 
terror plots have been uncovered in which operatives had arrived under 
the guise of refugees fleeing the Syrian civil war. We must do 
everything possible to keep this from happening in the United States.
    I request answers from the Intelligence Community (IC) about the 
extent of this reported ``glitch,'' its impact on screening refugees 
and any other individuals trying to enter the United States, and 
efforts to mitigate the vulnerability. I therefore respectfully request 
classified and unclassified responses to the following questions by 
February 3, 2017. If questions require an answer from another 
department or agency, please coordinate with them to provide as part of 
a consolidated response:
    1. Please detail any and all lapses in vetting that have occurred 
        with regard to Syrian refugees, including the ``glitch'' in the 
        aforementioned report. How was this security gap discovered?
    2. Please explain how any such lapses have affected the screening 
        of other individuals entering the United States. How many 
        foreign nationals, including refugees, were not fully screened 
        against our intelligence holdings because of the alleged 
        ``glitch''?
    3. What specific steps is the IC taking to mitigate any such 
        lapses?
    4. Is the IC aware of any Syrian refugee(s) with ties to a 
        designated foreign terrorist organization that have been 
        admitted and resettled in the United States since 2011? If so, 
        how many? How were they located? Have they been removed from 
        the country?
    5. Is the IC aware of any Syrian refugee(s) with ties to a known or 
        suspected terrorist that have been admitted and resettled in 
        the United States since 2011? If so, how many? How were they 
        located? Have they been removed from the country?
    6. How many, and what percent of, admitted Syrian refugee applicant 
        cases have been referred to the USCIS Fraud Detection and 
        National Security Directorate?
    7. How many, and what percent of, Syrian refugees have been 
        rejected for resettlement due to national security concerns?
    We face a determined enemy, and we must ensure we are aggressively 
closing all security gaps which they might exploit. I thank you in 
advance for your responses.
            Sincerely,
                                         Michael T. McCaul,
                                                          Chairman.
     CC: The Honorable John F. Kelly, Secretary, Department of Homeland 
Security
    The Honorable Rex Tillerson, Secretary, Department of State

    Chairman McCaul. With that, let me congratulate you on 
getting through your first Congressional hearing.
    Secretary Kelly. This has been great.
    Chairman McCaul. I think you are going to like this 
committee better than some of the other ones you may have to 
report to, if I can say. We just really appreciate your 
service, and I sincerely mean this when we look forward to 
working with you.
    I think the terrorists don't check our political stripes. 
We are all Americans, and I know all of us on this committee 
want to help you in your effort to protect America.
    So thank you, sir.
    With that, votes have been called on the House floor. We 
have a second panel, and once we return from votes we will hear 
from the second panel after conclusion of the vote series.
    [Recess.]
    Chairman McCaul. Committee will come to order. We will now 
hear from the second panel of witnesses.
    Our second panel includes Steve McCraw, director, Texas 
Department of Homeland Security. Steve McCraw became the 
director of the Texas Department of Public Safety in 2009. Also 
serves as the Governor's homeland security advisor.
    So I know him well from my prosecutor days.
    It is good to have you here, sir.
    Mr. Joe Frank Martinez, sheriff of Val Verde County, Texas. 
Sheriff Joe Martinez served as a Texas police officer for 35 
years. In 1999 Sheriff Martinez was promoted to the rank of 
sergeant of Narcotics Service in Eagle, Texas. Served in this 
capacity until his retirement, 2007; 2009 elected sheriff of 
Val Verde County.
    Mr. Leon Wilmot is the sheriff of Yuma County, Arizona. 
Worked in law enforcement for the county of Yuma for over 30 
years since completing his service in the United States Marine 
Corps, and was elected to sheriff of Yuma County in 2012. 
Continues to serve in this capacity.
    Final witness is the Honorable Eddie Trevino, who is judge 
for Cameron County, Texas. He has served in Cameron County for 
15 years. He is a partner and founder of Trevino and Bodden Law 
Firm; was then elected as Brownsville's mayor from 2003 to 
2007. In November 2016 elected to Cameron County bench, where 
he currently serves.
    I want to thank all of you for being here today. Full 
statements will appear in the record.
    I know many of you have flights to catch, so with that the 
Chair recognizes Mr. McCraw for his testimony.

 STATEMENT OF STEVEN C. MC CRAW, DIRECTOR, TEXAS DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. McCraw. Well, thank you, Mr. Chairman and Ranking 
Member Thompson.
    Texas has, as you know--and we have heard testimony already 
about how big Texas is, and, Congressman Hurd, thank you for 
pointing that out. I think it is obligatory to note that 1,200 
to 1,900 miles belongs to Texas, and that is very important and 
it does impact--what happens on the border doesn't just stay at 
the border; there are consequences throughout Texas and the 
Nation.
    We talked a little bit. The Secretary, who I think did a 
great job of testifying, noted that there is--some of those 
consequences is that heroin epidemic that is happening in the 
Northeast that I think Congressman Fitzpatrick was worried 
about. Other things have happened.
    Of course, in 2014 when Border Patrol was overwhelmed by 
the surge and influx of Central Americans, they were--it was a 
threat, from a Texas standpoint. The Governor and the State 
legislature has always been proactive about doing something 
when it comes to protecting people, and they were concerned 
about the influx of gangs--transnational gangs, cartel 
operatives, cartel members, heroin, cocaine, methamphetamine, 
and marijuana, and this other thing that hasn't been talked 
about today: sex trafficking--international sex trafficking, 
this impact throughout the State and Nation.
    So we are sent down there, OK, to do something, work with 
our Federal partners, but importantly, coordinate with our 
local and State partners--our State partners, National Guard, 
also Texas game wardens--conduct surge operations in direct 
support of the U.S. Border Patrol to deter, detect, and 
interdict smuggling between the ports of entry. As we have seen 
in doing so over a period of time that you can influence the 
amount of drugs coming in and the amount of illegal aliens 
coming in. There is no question about it. It is border control 
physics.
    You can go back to 1991, when the Sandia Laboratory 
physicists were tasked by ONDCP to look at this issue, and they 
came back and said yes, it can be done, but what they 
recommended is what Secretary Kelly talked about, and that is 
what was so encouraging today. That is rather than wait for it 
to come in, prevent it from coming in in the first place. There 
are many positive aspects of doing that.
    That is the Texas way that we have been obligated to work. 
Put the Border Patrol at the river and not inward. Any defense-
in-depth we have looked at is defense-in-height, being able to 
stack it, whether it starts on the water, goes from sensors, to 
cameras, to RAID towers, to the aerostat balloons, to the 
helicopters. Of course, we have got 14 aircraft dedicated 
specifically to support Border Patrol agents on the ground.
    We have got a tactical Marine unit, which I wouldn't have 
believed that we would ever have an opportunity to have a Navy 
in the Department of Public Safety. We do now, and there is a 
reason for it, because that is what Border Patrol needed at the 
time.
    We don't need yesterday's technology for tomorrow. I mean, 
those sensors are archaic, OK? The private sector are the 
experts in developing, you know, technology and making it work.
    That is what we did in terms of support. We got 4,000 
cameras deployed that are detection--motion-detection cameras 
that are infrared to support Border Patrol that they install, 
not us. We turn it over to them. Border Patrol agents install 
those. We support them with State Guard to be able to help 
their capacity, but because they don't have that technology and 
they need it.
    I have got no question whatsoever, and we understand, and 
the Governor has clear--been clear about this and so has the 
legislature, that we know that the Border Patrol can secure the 
U.S. border. Ron Vitiello, the new chief that was named, was an 
outstanding Border Patrol sector chief, worked with us in Rio 
Grande Valley. I have got no question that he can do it if 
given the resources to do so.
    We look forward to working with the brave men and women of 
the Border Patrol. Until that time, I can tell you this: On 
behalf of the State legislature--I get to speak for them a 
little bit--and the Governor, because I talked to his chief of 
staff last night, is that there is a concern that the amount of 
money that we continue to spend at the State level in--to a 
Federal mission, it is--right now we--there is a--the price tag 
is over $1.4 billion.
    But our leaders and legislators have said, you know, that 
Texans are so important that we are going to spend this money 
if it can provide direct support for the Border Patrol. The 
last thing we want to do is diminish or degrade what already is 
out there right now, and I am concerned about when I report 
tomorrow before the Senate Finance hearing is that--what I am 
going to say. You know, how am I going to explain?
    We are hoping strategically to get out of the business. We 
had 3,742 deaths on Texas highways last year; not to mention 
transnational gangs; not to mention we rescued 36 children who 
were victims of predators on our highways by our troopers, 
another 26 by some of our special agents on the highway. We 
have much to do inwards inside the State of Texas, including 
transnational gangs.
    Now, Texas is a hub city for Mexican--or for the MS-13, 
simply because of an unsecure border. So we must deal with 
those things.
    Right now our directive is to continue to support Border 
Patrol as we are, and we will do everything we can, as the 
Secretary Kelly said, which is one of the concerns with how 
fast can they do it? How long is it going to take them to 
take--get those resources in place?
    With that, Mr. Chairman, I conclude my testimony. 
Questions?
    [The prepared statement of Mr. McCraw follows:]
                 Prepared Statement of Steven C. McCraw
                            February 7, 2017
    Good morning, Chairman McCaul, and distinguished Members of the 
House Committee on Homeland Security. My name is Steven McCraw and I am 
the director of the Texas Department of Public Safety. I would like to 
thank you for the opportunity to testify before the committee on this 
vitally important public safety and homeland security issue to Texas 
and the Nation. For more than 17 years, I have had the honor to testify 
before the United States Congress as a deputy assistant director and 
assistant director for the Federal Bureau of Investigation, the Texas 
homeland security director, and the colonel and director of the Texas 
Department of Public Safety.
    On December 13, 2000, I told the House Judiciary Committee, 
``Organized crime, drug trafficking, and terrorist acts are no longer 
insular, distinct activities that can be contained and eradicated 
through traditional enforcement. Instead, they are integrated 
activities, which through their very commission have a reverberating 
impact on our National interests.'' The testimony went on to describe 
the threat posed by Mexican Drug Trafficking Organizations citing the 
Carrillo Fuentes Drug Trafficking Organization based in Juarez, Mexico 
and its propensity for violence and use of corruption to support their 
drug trafficking operations, which at the time was predominantly 
cocaine and marijuana. I also used an example personal to me, the June 
3, 1998, murder of U.S. Border Patrol Agent Alexander Kirpnick who was 
shot and killed after he confronted three Mexican Drug Smugglers in the 
Sonoran desert of Arizona. At the time, I was the FBI assistant special 
agent in charge of the Tucson Resident Agency in the Phoenix Division 
of the FBI and oversaw the investigation of this tragic murder. The 
three subjects escaped to Mexico, but were later identified, captured, 
and returned to the United States to serve life sentences.
    At this point in my testimony, I must digress to raise a serious 
concern of Governor Greg Abbott. For reasons inexplicable to us, the 
Federal Government has declined to prosecute subjects who assault U.S. 
Border Patrol Agents in the performance of their duties. Mr. Chairman, 
as you know, Texas is a law-and-order State and its citizens cherish 
the rule of law, its men and women who enforce it, and those who serve 
or have served in the United States Military. In the absence of Federal 
prosecution, we have assigned the Texas Rangers to investigate assaults 
on U.S. Border Patrol agents, and the Texas Border Prosecutor's Unit, 
funded by the State Legislature, are prosecuting these cases until the 
Federal Government policy changes. On February 1, 2017, Governor Abbott 
brought this concern to the attention of Secretary Kelly when they met 
and he agreed to address this issue with the United States Attorney 
General. We are hopeful that this policy will change with a new 
Attorney General.
    The Congressional testimony provided in December 2000 was not 
prescient because it was abundantly clear to local, State, and Federal 
law enforcement agencies and the U.S. intelligence community what was 
happening at the time and that it would most likely get worse. 
Unfortunately, it has, as Texas law enforcement leaders have testified 
to for many years.
    The Mexican Drug Trafficking Organizations diversified their drug 
trafficking activities and now dominate the U.S. heroin, cocaine, 
marijuana, and methamphetamine smuggling and trafficking market, 
leveraging transnational and U.S.-based gangs to support their 
operations on both sides of the border. They also diversified their 
criminal activities, which now includes human smuggling and 
trafficking, extortion, kidnapping, and theft of oil and other 
commodities. Most disturbing is their embracement and use of the most 
vile and depraved terrorist tactics to intimidate and coerce their 
rival cartels, journalists, elected officials, police, and military to 
support their criminal operations. An essential element in their 
evolution to our Nation's most significant organized crime threat is an 
unsecured border with Mexico, which they exploit profiting in billions 
of dollars made on the unending demand for drugs and commercial sex 
with young women and children. In addition, as long as the border 
remains unsecured, there is a significant National security threat of 
global terrorists and their supporters entering the United States 
undetected. There are many other negative consequences in having an 
unsecured border with Mexico that this committee is aware of from 
previous testimony over the years.
    Securing our Nation's border is the sovereign responsibility of the 
Federal Government, and I never envisioned that someday it would be 
necessary for the State of Texas to dedicate substantial resources to 
increasing the level of security at the border. However, Texas Governor 
Greg Abbott and the Texas Legislature have been clear that there is no 
more important function of Government than the protection of its 
citizens and that they will do everything they can despite the enormous 
diversion of State funds to a Federal responsibility.
    The Governor and Legislature have insisted that State funds 
expended on border security support an evidence-based approach that 
integrates resources and capabilities and complements existing U.S. 
Border Patrol efforts. As I have testified on several occasions, the 
U.S. Border Patrol can secure the U.S./Mexico border if provided the 
necessary personnel and capabilities as a proven doctrine already 
exists. In fact, Congressman Silvestre Reyes demonstrated this in 1993 
when he was the U.S. Border Patrol chief for the El Paso sector. The 
then-sector chief, Silvestre Reyes noted that there were approximately 
8,000 to 10,000 illegal border crossings daily and that only 1 out of 
every 8 was being apprehended. At the time, the El Paso Police 
Department estimated that illegal aliens committed as much as 75 to 80 
percent of all motor vehicle thefts and burglaries in El Paso. 
Operation Hold the Line began in September 1993, which changed the 
strategy from arresting illegal aliens after they entered the United 
States to preventing their illegal entry. A subsequent GAO report 
titled ``BORDER CONTROL: Revised Strategy Showing Some Positive 
Results'' noted that ``Although El Paso Sector did not have the 
resources to install physical barriers, they were able to accomplish 
the same goals with a human barrier comprised of U.S. Border Patrol 
Agents.''
    By saturating a border area with agents, the El Paso Sector was 
able to significantly decrease the number of people being smuggled into 
Texas as evidenced in the rapid decrease of illegal alien apprehensions 
even though there was a much larger amount of resources available to 
make apprehensions. Within 1 year, the apprehensions reduced from 
285,781 to a low of 79,688 or a 72.1% decrease. The El Paso Police 
Department reported a decrease in crime for the same time and credited 
Operation Hold the Line as the reason for the dramatic decrease. The 
Sandia National Laboratories recommended this approach after being 
tasked in 1991 to conduct a systematic analysis of the security along 
the U.S.-Mexico border. The Sandia scientists recommended that Border 
Patrol change its tactics from apprehending illegal aliens after they 
enter the United States to preventing their illegal entry. This 
approach has worked whenever used to address hot spots along the border 
and is the approach the Texas Department of Public Safety took when 
first integrating State resources into Border Patrol operations with 
the then-Border Patrol Sector Chief for the Rio Grande Valley and 
newly-named U.S. Border Patrol Chief, Ron Vitiello.
    There has long been a renascence in technology since 1993 that 
could substantially augment the U.S. Border Patrol's ability to secure 
the border and yet they are seriously lacking in technology despite the 
billions of Federal dollars spent on the ``Secure Borders Initiative'' 
and the ``Merida Initiative.'' The State of Texas has provided Border 
Patrol agents more than 4,000 low-cost, high-capability cameras to 
detect smuggling activity along the border. The Department of Public 
Safety has diverted much of its fleet of high-technology aviation 
assets that are capable of communicating directly with Border Patrol 
agents on the ground to the border security mission. This includes 8 
helicopters and 4 fixed-wing aircraft with night vision and FLIR 
capability to support detection and interdiction operations around-the-
clock. The Governor has also directed that Texas Military aviation 
assets funded through the Governor's Counter Drug Program provide 
direct support to U.S. Border Patrol. The combined aviation assets 
ensures aircraft availability around-the-clock within the Rio Grande 
Valley Sector, which is the most active smuggling area in the Nation 
and those State assets serve as an important force multiplier and 
essential Officer/Agent safety capability.
    The following implementing principles guided the deployment of 
State resources:
  <bullet> A sense of urgency is imperative as an unsecure border with 
        Mexico threatens border communities and communities throughout 
        the State and the Nation.
  <bullet> The border is best secured at the border and forfeiting 
        territory to the cartels is not acceptable. Moreover, when 
        drugs and people reach public roads and stash houses, they 
        become far more difficult to detect and interdict.
  <bullet> Integration of effort among local, State, and Federal 
        agencies is essential to success.
  <bullet> The timely collection, integration, production, and 
        dissemination of multi-agency information and intelligence is 
        required to support operations.
  <bullet> Integrated air, marine, and ground operations must be 
        sustained around the clock.
  <bullet> Integrated cost-effective technologies and capabilities are 
        needed to increase detection coverage and interdiction 
        capacity.
  <bullet> Operations must achieve meaningful and measurable results 
        that can document increased levels of border security zone-by-
        zone and county-by-county and sector-by-sector.
  <bullet> Operations should begin where the highest concentration of 
        smuggling exists to maximize the impact on smuggling.
    Important to the State of Texas and the U.S. Border Patrol was the 
integration of detection capabilities and interdiction assets to 
maximize their effectiveness. The best approach that we have observed 
is multi-layered, redundant, and vertically-stacked resources. When the 
cartels are able to move people and drugs onto the improved roadways or 
into stash houses, it is far more difficult to detect and interdict. 
The integration and overlapping of detection technologies and 
capabilities is a highly efficient means of increasing the level of 
security within an area. For the Rio Grande Valley Sector, it begins on 
the Rio Grande River and the around-the-clock deployment of DPS, Border 
Patrol, and Texas Game Warden tactical marine boats with ground-
tracking and water-rescue capabilities. The Border Patrol ground 
sensors serve as the first ground layer, which is integrated with the 
Drawbridge motion-detection cameras by the Border Patrol Sensor Teams 
recently augmented with a Texas State Guard Team to assist Border 
Patrol. The Texas Military Forces have deployed Observation Post/
Listening Posts (LP/OP) in direct support of detection operations along 
the Rio Grande River. Law enforcement tactical units serve as an added 
ground layer in hot spots and include the Border Patrol BORTAC, DPS 
Ranger Recon and SWAT Teams, and Texas Game Warden tactical personnel. 
Texas Military Forces provide UH-60 Black Hawks in support of the 
tactical teams.
    Border Patrol observation towers provide the next layer followed by 
the Border Patrol Aerostats with long-range video detection capability. 
The aerostats are important in providing sustained long-range detection 
coverage and Governor Abbott has repeatedly requested that the Federal 
Government increase the number of operational aerostats in the Rio 
Grande Valley Sector and places located in the Border Patrol Laredo 
Sector. Rotary aircraft serve as the next level and then the mid-
altitude and high-altitude fixed-wing aircraft with long-range 
observation, FLIR and night vision capability. The last in the vertical 
stack are Federal drones when they are available for use. As additional 
technologies and capabilities are developed and/or acquired, they can 
easily integrate into the stack. The coordinates for the Border Patrol 
sensors and the State's detection cameras are placed into DPS aircraft 
optical systems, which enables the timely verification and tracking of 
smuggling events and serves as a good example of cross-agency 
technology integration to better support the Border Patrol agents and 
DPS officers on the ground.
    In addition to the fixed and rotary aircraft and substantial DPS 
and Texas Game Warden marine assets provided, the Governor and 
Legislature directed the DPS to deploy additional resources from around 
the State until more than 250 newly-funded officer positions were 
recruited, hired, trained, and deployed to the border region. Since 
June 23, 2014, DPS State troopers, special agents, and Texas Rangers 
from around the State have continuously deployed to the border to work 
12- to 14-hour shifts for 7 days until relieved by the next wave. These 
selfless and dedicated men and women continue to work side-by-side with 
their Border Patrol and local and State partners until the last of the 
permanently assigned Troopers complete their Field Training Program and 
can begin conducting patrol operations on their own. The Texas Rangers 
have been instrumental in conducting and overseeing integrated tactical 
operations along the Rio Grande River; the oversight of the Drawbridge 
camera detection and monitoring program; and the conduct of major 
violent crime and public corruption investigations. DPS special agents 
conduct enterprise investigations working with their local and Federal 
partners and the State-funded Border Prosecution Unit to dismantle 
those gangs working directly with the Mexican cartels along the Texas/
Mexico border such as the Texas Chicano Brotherhood operating 
predominantly in Starr County.
    A diagram of what the vertical stack currently looks like is on 
Page 1 of the attachment.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    I am often asked if building a wall along the Texas/Mexico border 
will secure it. Certainly, a wall and/or strategic fencing will make it 
more difficult for the cartels and easier for law enforcement. However, 
it is important to note that the cartels are highly adaptable and 
creative. A wall without sufficient overlapping detection technology 
coverage on the ground and in the air, and a sufficient number of 
Border Patrol agents to respond quickly, becomes a very expensive 
obstacle but not a barrier. Moreover, in some locations along the 
border there are in effect natural walls that serve as obstacles to 
smugglers, which with sufficient detection technology and agents, could 
serve as a barrier.
    Dramatic increases in detection and interdiction capability at any 
location along the border increases the percentage of the drugs and 
people interdicted and the risk to the cartels. If sustained for a long 
period, the following consistently happens:
  <bullet> Decrease in the amount of drug smuggling between the Ports 
        of Entry
  <bullet> Decrease in the amount of drugs being seized at the interior 
        checkpoints
  <bullet> Decrease in overall amount of drugs smuggled into Texas
  <bullet> Increase in the amount of drug smuggling on the 
        international bridges
  <bullet> Increase in drug seizures in adjoining locations outside the 
        area of operation
  <bullet> Decrease in bailouts
  <bullet> Decrease in the overall amount of people being smuggled into 
        Texas who are not detected
  <bullet> Decrease in smuggling deaths
  <bullet> Decrease in crime rate
  <bullet> Decrease in home invasions
    For example, the Border Patrol Leadership at the station and sector 
level in the Rio Grande Valley identified the busiest zone, within the 
busiest station, within the busiest county (Starr) in the busiest 
sector in the State and Nation. In direct support of the Border Patrol, 
local and State law enforcement agencies and Texas Military Forces 
worked together to dramatically increase the detection coverage and 
interdiction capacity on the water, in the air and on the ground zone-
by-zone. The amount of drugs seized in Starr County between 2014 and 
2016 decreased by 83.7 percent; Hidalgo County by 65 percent; Jim Hogg 
County by 64 percent; Brooks County 63 percent; Kenedy County by 88 
percent; and Zapata County 66 percent.
    The average amount of drugs seized at the Border Patrol Falfurrias 
Checkpoint from October 2012 to May 2014, was 11,474 pounds per month 
which decreased by 85 percent to 1,715 pounds per month for the period 
of June 2014 to December 2016. Similarly, at the Border Patrol Sarita 
Checkpoint for the same time period, 2,503 pounds of drugs per month 
were seized, which decreased to 605 pounds per month or a 75.8 percent 
decrease. Bailouts decreased by 64 percent between 2014 and 2016, and 
home invasions decreased by 58 percent for the same time.
    According the El Paso Intelligence Center (EPIC)--which is operated 
by the Drug Enforcement Administration--local, State, and Federal drug 
seizures within 150 miles of the Texas/Mexico Border decreased by 43.17 
percent between 2014 and 2016, illustrating the advantages of focusing 
limited resources in the busiest smuggling areas along the U.S.-Mexico 
border.
    Although the Index Crimes in the annual Uniform Crime Reporting 
system currently do not capture organized crime-related offenses (such 
as drug and human smuggling, kidnapping, and public corruption) the 
crimes that are reported decreased overall in the area of operation. 
For example, Index Crimes decreased by 17.5 percent in Starr County 
between 2014 and 2015; 12.3 percent in Hidalgo County for the same 
time; 54 percent in Jim Hogg County; and 50 percent in Kenedy County. 
State-wide there was a 4.7 percent decrease of the Index Crime rate for 
the same time. Importantly, there was a 2.35 percent decrease in 
violent crimes in Starr County between 2014 and 2015; a 9.54 percent 
decrease in Hidalgo County; a 66.7 percent decrease in Jim Hogg County; 
a 31.58 percent decrease in Brooks County; and a 50 percent decrease in 
Kenedy County. State-wide there was 3.6 percent increase in the Violent 
Crime Rate for the same period. As the U.S. Border Patrol has long 
known, when additional detection and interdiction resources are 
deployed to unsecured areas along the border, the level of security 
increases and the amount of organized criminal activity decreases--as 
evidenced above. (Border Control Physics, 101) Finally, I would like to 
conclude by publicly thanking Secretary Kelly for taking the time to 
observe first-hand on-going border security operations in the Rio 
Grande Valley with Governor Abbott.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman McCaul. Thank you, Steve.
    Chair recognizes Sheriff Martinez.

  STATEMENT OF JOE FRANK MARTINEZ, SHERIFF, VAL VERDE COUNTY, 
                             TEXAS

    Sheriff Martinez. Distinguished Member of the House 
Homeland Security Committee, thank you for the opportunity to 
address you all today on issues that affect every citizen in my 
border county of Val Verde, the State of Texas, and the United 
States of America.
    I have spent 39 years as a career law enforcement 
professional. As immediate past chairman of the Texas Border 
Sheriff's Coalition and current chairman of the Southwest 
Border Sheriff's Coalition, I have dedicated my law enforcement 
career to serving the citizens of the State of Texas right on 
the Texas-Mexico border, both at the State level and as a 
member of the Texas Department of Public Safety, the local 
police department of the city of Del Rio, and now as the 
current sheriff of Val Verde County.
    The Texas Border Sheriff's Coalition is comprised of 20 
border sheriffs, all who are within 20 miles--25 miles of the 
Mexico border. They share approximately 1,254 miles of border 
with the Republic of Mexico.
    Val Verde County consists of 3,200 square miles and share 
approximately 110 miles of border with the Mexican State of 
Coahuila.
    The Southwestern Border Sheriff's Coalition, which includes 
the State of California, Arizona, New Mexico, and Texas, 
combine for a total of 1,989 miles of border between the United 
States and the Republic of Mexico. Within the 1,900 miles of 
border from San Diego, California to Brownsville, Texas lie 31 
counties.
    The terrain throughout much of these areas varies from 
rural ranchlands, high desert, to desert-like valleys, and 
mountain ranges. Most of these lands are titled to private 
landowners. Some areas are National or State parks. So the need 
for each of these individual counties is unique in its own way.
    The Texas Border Sheriff's Coalition, founded in 2005--was 
founded in 2005 to provide a cooperative effort to effect a 
regional solution to a National problem. We all share common 
issues, but there is one issue--but there is no one issue more 
important than making sure that we secure our communities in 
which the people feel safe in their homes and surroundings.
    Sheriffs have a vested interested in the law enforcement, 
economic, social impact, health, and the overall quality of 
life of those that we serve. Sheriffs are unique in the 
understanding of the pulse of their communities and public that 
evaluates them during election time that determines whether 
they stay employed every 4 years.
    The Texas Border Sheriff's Coalition was organized and 
represented by the chief law enforcement officer of each 
respective county. Texas sheriffs, empowered by the State 
constitution, are committed, from a National security 
perspective, to protect the lives and property and the rights 
of the people by maintaining order and security of the United 
States along the Republic of Mexico border and enforcing the 
laws impartially while providing police service in partnership 
with other law enforcement agencies and community partners.
    The consequences of an unsecure border are felt throughout 
the United States. Each border county sits at the gateway into 
our country and is a first line of defense in dealing with law 
enforcement, social, and economic issues for both legitimate 
and illegitimate trade and travel.
    The issue here is public safety. Immigration, though an 
important factor, is a separate but related issue whose 
responsibilities lies within the Federal Government agencies. 
These Federal agencies that we work with every day have had a 
difficult job in carrying out their duties due to 
administrative policy issues and changes and not laws that are 
on our books.
    Sheriffs only encounter immigration issues as a by-product 
of other criminal acts which are referred to the Federal 
Government further actions. Some of the problems we encounter 
most are drug smuggling; human smuggling; stolen vehicles; 
crimes against persons; crimes against property; the violent 
crimes such as murder, rape, sexual assault, dealing with 
transnational organizations; and the list goes on.
    As many of you know, the lower populations and property 
values most counties lack a sufficient tax base to support the 
multifaceted needs at the sheriff's office. Each and every one 
of us our affected directly in one way or another by what 
happens on the border, and as such, border States and the 
Federal Government are a natural resource to support the needs 
of the border as it impacts public safety.
    A problem for most sheriffs is a shortfall of resources to 
address the problems identified here, which are not all-
inclusive but are prioritized as: Manpower, travel and 
training, equipment, direct operating expenses, and contract 
services.
    The sheriffs of the Texas Border Sheriff's Coalition offer 
a positive, effective, and less expensive approach to border 
security based on a partnership of action. The solution offered 
by the Texas Border Sheriff's Coalition is one of cooperation. 
Being at the table to discuss these issues that affect all of 
our communities on a daily basis, all Federal, State, and local 
law enforcement needs to work together as we move forward in 
finding the solution and securing our borders and our future. 
No one single form of government can go it alone.
    The plan for security in our--in the communities along the 
border with Mexico, as presented by the members of the Texas 
Border Sheriff's Coalition, is to provide a regional solution 
to a National problem. The plan is based on partnership of 
action and not rhetoric. It is based on existing cooperative 
working agreements and the willingness to share lessons learned 
and put into place best practices.
    The plan is formulated by sheriffs who have ownership in 
the respective communities they serve and understand how local 
needs interrelate from a law enforcement, economic, social, 
health, and environmental perspective. The initiative, created 
by sheriffs, with respect to all Federal and State agencies and 
in support of the men and women who are working on the front 
lines each and every day.
    The difference is in the solutions that are based on the 
local community impact and not on policies enacted by people a 
thousand miles away.
    I want, once again, to thank Chairman McCaul, the entire 
committee, for this opportunity to address the needs of our 
border sheriffs. May God bless the United States of America and 
every law enforcement officer protecting the front lines.
    [The prepared statement of Sheriff Martinez follows:]
                Prepared Statement of Joe Frank Martinez
                            February 7, 2017
                              introduction
    Chairman McCaul and distinguished Members of House Homeland 
Security Committee, thank you for the opportunity to address you today 
on issues that affect every citizen in my border county of Val Verde, 
the State of Texas, and the United States of America.
    I have spent 39 years as a career law enforcement professional. As 
immediate past chairman of Texas Border Sheriff's Coalition and current 
chairman of the Southwestern Border Sheriff's Coalition, I have 
dedicated my law enforcement career to the serving the citizens of the 
State of Texas right on the Texas/Mexico border, both at the State 
level, as a member of the Texas Department of Public Safety and as a 
local police officer for the city of Del Rio and now as sheriff of Val 
Verde County.
    The Texas Border Sheriffs Coalition is comprised of 20 border 
sheriffs, all of whom are within 25 miles of the Mexican border. Texas 
shares approximately 1,254 miles of border with the Republic of Mexico. 
Val Verde County Texas consists of 3,200 square miles and shares 
approximately 110 miles of border with the State of Coahuila Mexico.
    The Southwestern Border Sheriff's Coalition which includes the 
States of California, Arizona, New Mexico, and Texas combine for a 
total of 1,989 miles of border between the United States and the 
Republic of Mexico. Within that 1,986 mile of border from San Diego 
California to Brownsville, Texas lie 31 counties. The terrain 
throughout much of these areas varies from rural ranch and farmlands, 
high desert to desert-like valleys and mountain ranges. Most of these 
lands are titled to private landowners; some areas are National or 
State parks, so the needs of each of these counties are unique in their 
own way.
    The Texas Border Sheriff's Coalition was founded (2005) to provide 
a cooperative effort to affect a regional solution to a National 
problem. We all share common issues, but there is no one issue more 
important than making sure that we have secure communities in which the 
people feel safe in their homes and surroundings.
    Sheriffs have a vested interest in the law enforcement, economic, 
social impact, health, and the overall quality of life of those that 
they serve. Sheriffs are unique in understanding the pulse of their 
communities and a public that evaluates us during election time that 
determines whether we stay employed every 4 years.
                           mission statement
    Texas Border Sheriff's Coalition was organized on May 4, 2005, and 
is represented by the chief law enforcement officer of each respective 
county. Texas sheriffs, empowered by the State constitution, are 
committed, from a National security perspective, to protect lives, 
property, and the rights of the people by maintaining order and 
security in the United States along the Republic of Mexico border and 
enforcing the law impartially, while providing police service in 
partnership with other law enforcement agencies and community partners.
                           problem statement
    The consequences of an unsecure border are felt throughout the 
United States. Each border county sits at the gateway into our country 
and is the first line of defense in dealing with law enforcement, 
social, and economic issues for both legitimate and illegitimate trade 
and travel.
    The issue here is public safety. Immigration, though an important 
factor, is a separate but related issue whose responsibility lies 
within Federal Government agencies. These Federal agencies that we work 
with every day have had a difficult job in carrying out their duties 
due to administrative policy issues and changes and not laws that are 
on our books. Sheriffs only encounter immigration issues as a by-
product of other criminal acts which are referred to the Federal 
Government for their action.
    Some of the problems we encounter most are drug smuggling, human 
smuggling, stolen vehicles, crimes against persons, crimes against 
property . . . and violent crimes such as murder, rape, sexual assault, 
dealing with transnational criminal organizations and the list goes on 
 
    As many of you know, because of lower populations and property 
values, most border counties lack a sufficient tax base to support the 
multi-faceted needs of the sheriff's office. Each and every one of us 
are affected directly, in one way or another, by what happens on the 
border, and as such border States and the Federal Government are a 
natural source to support the needs of the border as it impacts public 
safety.
    There is talk about a border wall or fence; in some areas this is a 
viable solution, but it is not the solution in and of itself. Manpower 
and technology play a major key role in securing our borders.
    The problem for most sheriffs is a shortfall of resources to 
address the problems identified here, which are not all-inclusive, but 
are prioritized as manpower, travel and training, equipment, direct 
operating expenses, and contract services. The sheriffs of the Texas 
Border Sheriffs Coalition offer a positive, efficient, and less 
expensive approach to border security based on a partnership of action.
                                solution
    The solution offered by the Texas Border Sheriffs Coalition's is 
one of cooperation, being at the table to discuss these issue that 
affect our communities on a daily basis. ALL Federal, State, and Local 
law enforcement need to work together as we move forward in finding the 
solution in securing our borders and our future. No one single form of 
government can do it alone.
                                summary
    The plan for security in the communities along the border with 
Mexico as presented by the members of the Texas Border Sheriffs 
Coalition is to provide a regional solution for a National problem.
    The plan is based on a partnership of action and not rhetoric. It 
is based on existing cooperating working agreements and the willingness 
to share lessons learned and put into place best practices.
    The plan is formulated by sheriffs who have ownership in their 
respective communities they serve and understand how local needs 
interrelate from a law enforcement, economic, social, health, and 
environmental perspective.
    The initiative is created by sheriffs with respect for all Federal 
and State agencies, and in support of their men and women who are 
working on the front lines each and every day. The difference is in a 
solution that is based on local community impact and not by policies 
enacted by people thousands of miles away.
    I want to once again thank Chairman McCaul and the entire committee 
for this opportunity to address the needs of our Border Sheriffs. May 
GOD Bless the United States of America and every law enforcement 
officer protecting our front lines.

    Chairman McCaul. Thank you, Sheriff. We appreciate your 
work along the border with all the sheriffs.
    So, Sheriff Wilmot.

   STATEMENT OF LEON N. WILMOT, SHERIFF, YUMA COUNTY, ARIZONA

    Sheriff Wilmot. Good afternoon, Chairman McCaul, Ranking 
Member Thompson, and Members of the committee. Thank you for 
the invitation to speak to you today on this very important 
subject.
    For a geographical perspective, Yuma County is at the 
southwest border of the States of Arizona and California, and 
we cover the border of Mexico. We have roughly 110.5 miles of 
international boundary that we share with the State of Mexico.
    For historical perspective, back in 2005 the Yuma Sector 
Border Patrol tallied 272,300-plus illegal entries. The adverse 
effects of the drug and humans trafficking organizations 
operating in Yuma County not only significantly diminished the 
quality of life of country residents but also placed unbearable 
strain upon the budgets and resources of private and government 
agencies in Yuma County.
    The community, unfortunately, experienced a significant 
spike in ancillary crime, such as rapes, robberies, homicides, 
thefts of property, burglaries, home invasions, tractor and 
vehicle thefts, high-speed pursuits, assaults on law 
enforcement officers, military incursions by the Mexican army, 
as well as ransom groups holding those that they smuggled 
across the border for additional moneys.
    Mexican drug-trafficking organizations operating along our 
U.S. international boundary were explained eloquently by 
Sheriff Mark Dannels of Cochise County when he testified in his 
own words: They are highly sophisticated and innovative in 
their transportation methods. Aside from our normal use of 
human backpackers, which we refer to as mules, clandestine 
tunnels and vehicles, the trafficking organizations have 
resorted to the use of ultralight aircraft and GPS-controlled 
drones, which cannot be detected with normal radar. They are 
even utilizing cloned vehicles of our law enforcement and other 
legitimate companies. Most recently they are still utilizing 
catapults, T-shirt launchers, as well as--to get their bundles 
of marijuana into the United States awaiting their co-
conspirators.
    I have witnessed the escalation of violence by these 
careless assailants on our citizens, but I have also seen the 
successes that can be accomplished through coordinated law 
enforcement response with local, State, and Federal partners 
working in concert and cooperation with the prosecutorial 
agencies, as witnessed first-hand in Yuma County. By fiscal 
year 2008 the number of illegal entries totaled just 15,900, in 
comparison to the 270-some odd thousands in 2005, 2006. That is 
a decline of 91-plus percent.
    This turnaround can be attributed to four critical 
developments: Significant upgrades in tactical infrastructure--
anything from your fencing, to the vehicle barriers, to camera 
systems and surveillance equipment and upgrades; border 
security increased manpower for the United States Border 
Patrol; the implementation of Operation Streamline, which was a 
program designed for 100-percent prosecution of illegal 
entrants caught involved in criminal activity; and Operation 
Stonegarden, which to us, as sheriffs and local law 
enforcement, has been one of the most major successes of any 
Federal grant program that we have ever witnessed before.
    With this we were able to have a force-multiplier along the 
border area that otherwise could not be done within agency 
budgets. Operation Stonegarden assists agencies with overtime 
and equipment that we need.
    I will tell you that the following comprehensive 
recommendations are directly linked to our Federal leaders: A 
need to redefine the plan of the 1990's and build upon those 
successes. Have to have the political will to make border 
security a mandated program. Border security first, immigration 
reform second.
    Support and embrace the first-line agents that work the 
border regions and our Federal partners. They have a dangerous 
job and it is no secret that their frustration is high based on 
the unknown complexities referenced their assignments every 
day. They have great ideas to share, and it was refreshing to 
see the general speaking about the fact that he would go to 
each geographic location and sit down with those areas, talk 
with State, local, and Federal law enforcement officers, see 
what was best for that geographic area.
    Continued funding and support for Operation Stonegarden 
program; that is vital to our success. But we need to remove 
that funding from FEMA. Just by their very name they are 
cumbersome to law enforcement and being able to do our 
reporting and requesting those grants. Move that funding back 
into the Department of Homeland Security, where they know what 
is best for our mission as we partner and work alongside our 
Federal partners.
    Restore full reimbursement of SCAAP, State Criminal Alien 
Apprehension Program. It has been devastating to our budgets 
every year. I will tell you, last year $30 million is what the 
sheriffs of Arizona had to swallow because we only got 
reimbursed 5 cents on the dollar for housing illegal, criminal 
aliens that had committed crimes in our counties.
    In summary, our efforts and teamwork philosophy with our 
local, State, and Federal law enforcement partners has proven 
to be beneficial in bringing overdue solutions to our unsecure 
border. Unfortunately, border security has become a 
discretionary program for those Federally-elected leaders and 
policymakers that have been entrusted to protect our freedom 
and liberties.
    One would hope that the priority of securing our border 
doesn't become just about a price tag, but rather the legal and 
moral requirement to safeguard all of America. Today's 
opportunity to address this committee instills fresh hope that 
the--our voice does matter.
    [The prepared statement of Sheriff Wilmot follows:]
                  Prepared Statement of Leon N. Wilmot
                            February 7, 2017
                              introduction
    Chairman McCaul, Ranking Member Thompson, and Members of this 
committee, thank you for the invitation to speak to you today on this 
very important subject.
                         history of yuma county
    Yuma County is located in southwest Arizona. It is bordered on the 
west by California, on the south by Mexico, on the east by both 
Maricopa and Pima Counties, and on the north and northwest by La Paz 
County. The lowest point in the State of Arizona is located on the 
Colorado River in San Luis in Yuma County, where it flows out of 
Arizona and into Sonora, Mexico. Yuma County has a year-round 
population of approximately 200,000 residents. During the winter, the 
population increases by about 90,000 due to an influx of winter 
visitors and seasonal agricultural workers. Agriculture, tourism, and 
two military bases--the U.S. Marine Corp Air Station (MCAS) and the 
U.S. Army Yuma Proving Ground (YPG)--are Yuma County's principal 
industries. Yuma County also contains portions of two Tribal 
Reservations, the Cocopah and Quechan Nations.
    Agriculture in Yuma is one of the Primary industries:
  <bullet> $1.5 billion (aggregate)
  <bullet> 90 percent of North American winter vegetables
  <bullet> 200,000 acres under cultivation
  <bullet> $134,000,000 livestock industry
  <bullet> Roughly 50,000 farm workers employed per year
  <bullet> 7 irrigation districts
    For geographical perspective, Yuma County shares 110.5 miles of 
international boundary with Mexico.
    In fiscal year 2005, Yuma Sector Border Patrol tallied 272,319 
illegal entries. The adverse affects of the drug and human trafficking 
organizations operating in Yuma County not only significantly 
diminished the quality of life of county residents, but also placed 
unbearable strain upon the budgets and resources of private and 
Government agencies in the county.
    Yuma County became the worst in the Nation for illegal entries and 
with that, the community unfortunately experienced a significant spike 
in ancillary crimes such as rapes, robberies, homicides, thefts of 
property, burglaries, home invasions, tractor and vehicle thefts, high-
speed pursuits, assaults on law enforcement officers, military 
incursions by the Mexican Army, as well as ransom groups holding those 
they smuggled across the border for additional monies.
    In the southeastern portion of our county, the out-of-control 
border has also affected our own military with frequent interruptions 
of military training on the Barry M. Goldwater range. Scheduled 
training in those areas, such as the Weapons and Tactics Instructor 
(WTI) Course, has frequently had to shut down due to smugglers using 
the remote areas of the bombing range to smuggle both human and 
narcotic cargo.
    The Mexican drug trafficking organizations operating along our U.S. 
International Boundary were explained eloquently by Sheriff Mark 
Dannels of Cochise County when he testified in his own words: ``they 
are highly sophisticated and innovative in their transportation 
methods. Aside from the normal use of human backpackers (mules), 
clandestine tunnels, and vehicles, the trafficking organizations have 
resorted to the use of ultra light aircraft and GPS controlled drones 
which cannot be detected by normal radar, cloned vehicles appearing to 
be law enforcement or other legitimate companies, and most recently the 
use of catapults which hurl bundles of marijuana into the United States 
to awaiting co-conspirators. The organizations utilize sophisticated 
and technical communications and counter surveillance equipment to 
counter law enforcements interdiction tactics and strategies. Scouts or 
observers are strategically placed along smuggling routes to perform 
counter surveillance on law enforcement and report their observations 
to those controlling the drug/human smuggling operation so they may 
avoid and elude law enforcement. The use of cell phones and 
sophisticated two-way radio encryptions for communications are standard 
equipment, as are night vision and forward looking infra-red devices.''
                action-based solutions local government
    Local solutions and programs are no longer a thought, but a reality 
for bringing relief to our citizens who consciously choose to live near 
our International Boundaries.
    Local law enforcement is best suited to understand their geographic 
community needs and solutions based on the expectations of their 
citizens. Community policing begins and succeeds at the local level 
first.
    As the sheriff of Yuma County, and as all Arizona sheriffs clearly 
feel, it is our statutory duty (oath of office to support the United 
States Constitution and the Constitution and Laws of the State of 
Arizona) to protect and secure the freedoms and liberties of our 
citizens, with or without the help of our Federal law enforcement 
partners/policy makers.
    No longer are the border problems and issues we face restricted to 
the international border communities, but in fact, these problems and 
issues have now spread all across the United States and impacted 
agencies and budgets in every state of our Nation.
    Having the true-life experience of living and working as a deputy 
sheriff, and now sheriff, in Yuma County since 1985, border security 
has been a continuous educational lesson. Not only have I witnessed the 
escalation of violence by these careless assailants on our citizens, 
but I have also seen the successes that can be accomplished through a 
coordinated law enforcement response with local, State, and Federal 
partners working in concert and cooperation with the prosecutorial 
agencies. As witnessed first-hand in Yuma County by fiscal year 2008, 
the number of illegal entries totaled just 15,979--a decline of 91.9% 
from fiscal year 2005.
    This turnaround can be attributed to four critical developments:
  <bullet> Significant upgrades in tactical infrastructure. Fencing, 
        Normandy (vehicle) barriers, cameras, and surveillance 
        equipment and upgrades.
  <bullet> Increased manpower for United States Border Patrol.
  <bullet> The implementation of Operation Streamline, a program 
        designed for 100% prosecution of illegal entrants caught 
        involved in criminal activity.
  <bullet> Operation Stonegarden helped with creating partnerships with 
        local law enforcement and as a force multiplier along the 
        border area that otherwise could not be done within agency 
        budgets. Operation Stonegarden assists agencies with overtime 
        and equipment purchases.
    Our successes were based upon:
  <bullet> Frequent communication with all local, State, and Federal 
        agencies.
  <bullet> Face-to-face contact with local, State, and Federal 
        officials.
  <bullet> Common goals that address real issues.
  <bullet> Working on these issues at the local level.
  <bullet> Consequence delivery and prosecution.
                   problematic issues--what changed?
    Yuma County had the worst record in the United States for illegal 
entries by undocumented immigrants and as a result, our community 
suffered numerous ancillary crimes. Several Federal programs, such as 
the Secure Communities Program and Operation Streamline, were put into 
place and had a significant positive impact on curtailing the criminal 
activity in our county. The concept of these programs was that if they 
were successful (which they were), they would be expanded all along the 
international boundary. However, changes and restrictions to these 
programs made by our prior Federal administration placed a significant 
burden on local governments not only to bear the costs associated with 
the apprehension, prosecution, and incarceration of criminal illegal 
aliens, but to also ensure that this criminal element was not released 
back into society to continue to prey on our citizens. Furthermore, 
State and local resources which have become necessary to address the 
criminal activity by illegal aliens and its effects on our communities, 
have also been burdened to the point of exhaustion and aggravation. How 
does all this translate in actual dollars?
                                 scaap
    The intent of the State Criminal Alien Assistance Program (SCAAP) 
was to fully reimburse States for the cost of housing criminal aliens 
in State, county, and city prisons, and jails.
    Funding has never fully covered State costs. Arizona, California, 
New Mexico, Texas, and Florida incarcerate nearly 60 percent of the 
criminal alien population Nation-wide but are reimbursed for less than 
15% of the cost to house these inmates.
SCAAP was funded
    For fiscal year 2016, Yuma County received $72,570 in SCAAP funds 
while inmate costs exceeded $1,076,078; a reimbursement of only 6.7% of 
the costs. Arizona sheriffs as a whole had to absorb $29 million in 
unanticipated costs due to lack of reimbursement, which also does not 
cover any medical costs for those inmates with significant medical 
issues, i.e., dialysis, surgeries, etc. (See attachment).
           operation streamline/``smart on crime'' initiative
    Federal law mandates border security. However, an order issued by 
the previous Attorney General reduced Federal prosecutions under 
Operation Streamline and called it the ``Smart on Crime'' Initiative, 
which in essence reduced the Federal Government's enforcement of our 
Nation's laws regarding border security and the prosecution of 
undocumented aliens committing crimes against our citizens, our States 
and our Nation. The USAG's lack of prosecuting this criminal element 
has left a significant burden on local governments not only to bear the 
costs associated with the apprehension, prosecution, and incarceration 
of this criminal element, but to also ensure that this criminal element 
was not released back into society to continue to prey on our citizens.
    Working with limited budgets and staffing, border sheriffs struggle 
to find ways to maintain the quality of life and safety for those they 
serve and to deter those who cross our borders to promote their 
criminal activities. Unfortunately, without aggressive prosecution by 
the U.S. Attorney's Office of all those committing criminal acts as a 
result of breaching our border, the American people will continue to 
see a border that is an open opportunity for this criminal element to 
exploit.
    As a result of this change of policy and due to the failure of the 
USAG's Office to prosecute undocumented aliens who committed crimes in 
Yuma County as of October 2014, I submitted a bill to AG Loretta Lynch 
for services provided by my agency (see attached) which as of this date 
is over $1.8 million. As of today's date, I am still waiting for 
reimbursement or even a response.
                    backpackers cost to yuma county
    From October 2014 through December 2016, the Yuma County Detention 
Center housed a total of 241 inmates (illegal aliens) on drug transport 
and identity theft charges after they were detained by Federal agents 
and the USAG's office deferred prosecution, and they in turn were 
transferred to a local agency. The total jail bed days for these 
inmates were 23,684 jail days with an average length of stay of 98 jail 
days. The cost to house these prisoners for Yuma County was 
approximately $1,855,000.00. This does not cover the court costs, cost 
of prosecution, major medical expenses, or the public defender's cost.
          pep--priority enforcement program/secure communities
    In 2015, the Federal administration announced their ``Priority 
Enforcement Program'' as a replacement for the ``ineffective'' Secure 
Communities Program. According to Director Jeh Johnson, the goal of 
this new program was `` . . . to better focus our immigration 
enforcement resources on convicted criminals over undocumented 
immigrants who have been here for years, have committed no serious 
crimes, and, have, in effect, become peaceful and integrated members of 
the community.''
    The Priority Enforcement Program (PEP) that the previous Federal 
administration touted as ``a new way to protect our citizens from the 
worst of the worst'' seems more like a complete failure when you look 
at the numbers.
    The U.S. Immigration and Customs Enforcement (ICE) released 36,007 
convicted criminal aliens in 2015 who were awaiting the outcome of 
deportation proceedings, according to a report issued by the Center for 
Immigration Studies. The group of released criminals includes those 
convicted of homicide, sexual assault, kidnapping and aggravated 
assault, according to the report, which cites a document prepared by 
the ICE.
    A majority of the releases were not required by law and were 
discretionary, the organization says. According to the report, the 
36,007 individuals released represented nearly 88,000 convictions, 
including:
    (1) 193 Homicide convictions
    (2) 1,160 Stolen Vehicle convictions
    (3) 426 Sexual Assault convictions
    (4) 9,187 Dangerous Drug convictions
    (5) 303 Kidnapping convictions
    (6) 16,070 Alcohol/Drugged Driving convictions
    (7) 1,075 Aggravated Assault convictions
    (8) 303 Flight Escape convictions
    (9) Resettled nearly 13,000 Syrian refugees in the United States 
        this past fiscal year.
    (10) 38,901 Muslim refugees entered the United States in fiscal 
        year 2016, making up almost half (46%) of the nearly 85,000 
        refugees who entered the country in that period, according to a 
        Pew Research Center analysis of data from the State 
        Department's Refugee Processing Center.
    (11) Syria (12,486) and Somalia (9,012) were the source of more 
        than half of fiscal 2016's Muslim refugees. The rest are from 
        Iraq 7,853), Burma (Myanmar) (3,145), Afghanistan (2,664), and 
        other countries (3,741).
 prime example of releasing the worst of the worst into arizona society
Musa Salah Abdelaziz Abdalla
  <bullet> Abdalla had multiple arrests for assault in Randall County, 
        Texas.
  <bullet> Abdalla was arrested for aggravated assault in Maricopa 
        County in September 2007. He accepted a plea agreement which 
        stipulated 5 years probation and dropped a second aggravated 
        assault in the City of Phoenix (Phoenix Police Department 
        Report Number 200771553320).
  <bullet> Abdalla violated probation three times and was finally 
        sentenced to the Arizona Department of Corrections (DOC) for 13 
        months starting June 2014. Abdalla had an ICE detainer on him.
  <bullet> Abdalla was released from DOC on July 21, 2015--the same day 
        that ICE releases any holds.
Dennis Valerievitch Tsoukanov--Russia
  <bullet> On December 15, 2001, Tsoukanov was involved in a scheme to 
        rip off a delivery of Human Growth Hormones worth 
        $1,000,000.00. Tsoukanov and two Russian accomplices kidnapped 
        a police informant and took him to the Fossil Creek area near 
        Camp Verde where they beat, stabbed, and then poured gasoline 
        on him and set him on fire while he was still alive. The three 
        Russian suspects were arrested; however, Tsoukanov's two 
        accomplices made bail and fled. Both suspects were caught later 
        on. One was caught in Canada after America's Most Wanted 
        profiled him (news articles enclosed).
  <bullet> Tsoukanov turned State's evidence against the two co-
        defendants and was spared a life sentence. He was sentenced to 
        13 years in DOC for kidnapping and second-degree murder; his 
        co-defendants both received life sentences without parole.
  <bullet> Tsoukanov was released from DOC on December 21, 2014. There 
        was an ICE Detainer on him at the time of his release.
  <bullet> Tsoukanov was released from ICE on July 16, 2015.
  <bullet> Tsoukanov is a Russian citizen born in Estonia. Whose 
        country refused to take him back.
Nasser Hanna Hermez--Iraq
  <bullet> Hermez was arrested in April 2009 and charged with second-
        degree murder of his 7-week-old daughter (victim report 
        enclosed). After a lengthy court process, he finally took a 
        plea agreement on April 4, 2011 for negligent homicide per 
        domestic violence and endangerment per domestic violence. He 
        received 6 months in jail and 3 years of probation (Court case 
        activity information enclosed).
  <bullet> Hermez was arrested and indicted in April 2015 for third-
        degree burglary--a class 4 felony. He accepted a plea and on 
        July 30, 2015, he was sentenced to 2 years probation (Court 
        case activity information enclosed).
  <bullet> Hermez was released from ICE on July 31, 2015.
                   recommendations federal government
    The Federal Government (elected and policy makers) has been slow to 
react to the voices and concerns of those living on the Southwest 
Border. Counties along the border have become VIP attractions, venues 
for those seeking to make a difference or promising change only to 
become another faded high-hope. The following comprehensive 
recommendations are directly linked to our Federal leaders:
  <bullet> Re-define the plan of the '90s and build upon successes.
  <bullet> Political will to make Border Security a mandated program.
  <bullet> Border security first; immigration reform second.
  <bullet> Maximize allocated resources such as staffing on the actual 
        border.
  <bullet> Support and embrace first-line agents that work the border 
        regions. They have a dangerous job and it's no secret that 
        their frustration is high based on the unknown complexities 
        reference their assignments. They have great ideas to share.
  <bullet> Quality of life/citizens living on border supported by 
        sheriffs need to be involved from the very beginning regarding 
        implementing improved security/safety.
  <bullet> Funding supplement for local law enforcement, prosecution, 
        detention, and criminal justice in support of border crimes.
  <bullet> Continued funding and support for Operation StoneGarden 
        program. Remove funding from FEMA; move this funding to DHS.
  <bullet> Enhanced funding for Regional Communication and 
        Interoperability with local law enforcement.
  <bullet> Restore full reimbursement of SCAAP funding to non-sanctuary 
        cities and counties.
  <bullet> estore Operation Streamline.
  <bullet> Restore Safe Communities.
  <bullet> Restore/lift restrictions on 1033 Program for law 
        enforcement agencies to screen military surplus property for 
        law enforcement purposes.
  <bullet> Assign a district judge to the new Federal court house in 
        Yuma County. Right now there is only a Federal magistrate to 
        conduct initial appearance duties. Officers and attorneys 
        continue to have to travel to Phoenix on every case they have, 
        tying up resources and manpower by having to travel to court 3 
        hours away.
  <bullet> Enhance U.S. Customs ``ICE'' by providing adequate holding 
        facilities and manpower so that USBP agents are not tied up 
        performing this function in their holding facilities that are 
        not equipped to handle that function.
                                summary
    Our efforts and team work philosophy with our local, State, and 
Federal law enforcement partners has proven to be beneficial in 
bringing overdue solutions to an unsecure border.
    Unfortunately, border security has become a discretionary program 
for those Federally-elected leaders and policy makers that have been 
entrusted to protect our freedoms and liberties. As a sheriff elected 
by the good people of my county, my biggest fear--which is shared with 
all sheriffs--is the loss of life to one of our citizens and/or law 
enforcement officers/agents that would be attributed to a border that 
is NOT secure. We have seen it happen on more than one occasion.
    One would hope the priority of securing our border doesn't become 
just about a price tag and/or political posturing, but rather the legal 
and moral requirement to safeguard all of America, which so many heroic 
Americans have already paid the ultimate price for.
    Today's opportunity to address this committee instills fresh hope 
that our voice does matter and on behalf of the citizens of Yuma 
County, Arizona and beyond, we hope that you will carry out your 
Constitutional mandate to bring positive change to an overdue 
vulnerable situation.
    As always, you have an open invitation to visit Yuma County, along 
with a personal guided tour, and visit with our citizens to see/hear 
first-hand America's true rural border; even when its 115 degrees 
outside.
    Again, thank you very much for the opportunity to share this 
information with you. I will be happy to answer any questions you may 
have.
                              ATTACHMENT 1

                                                      SCAAP
----------------------------------------------------------------------------------------------------------------
                                                                                    2009
                                                           -----------------------------------------------------
                                                                Requested         Received           Deficit
----------------------------------------------------------------------------------------------------------------
Apache County.............................................        $59,394.00         $8,875.00        $50,519.00
Cochise County............................................        480,173.96        664,261.00        184,087.04
Coconino County...........................................        314,100.00         64,977.00        249,123.00
Gila County...............................................        108,058.14         19,403.00         88,655.14
Graham County.............................................         41,415.00          5,737.00         35,678.00
Greenlee County...........................................          4,650.00          1,402.00          3,248.00
La Paz County.............................................  ................  ................  ................
Maricopa County...........................................     49,607,648.00      4,006,872.00     45,600,776.00
Mohave County.............................................        312,808.16         24,135.00        288,673.16
Navajo County.............................................        894,187.11         50,457.00        843,730.11
Pima County...............................................      8,014,395.00        832,379.00      7,182,016.00
Pinal County..............................................      1,176,279.72        215,025.00        961,254.72
Santa Cruz County.........................................        507,130.00         49,657.00        457,473.00
Yavapai County............................................      1,671,956.00        239,719.00      1,432,237.00
Yuma County...............................................      1,724,811.78        162,766.00      1,562,045.78
                                                           -----------------------------------------------------
      TOTALS..............................................    $64,917,006.87     $6,345,665.00    $58,571,341.87
----------------------------------------------------------------------------------------------------------------


                                                      SCAAP
----------------------------------------------------------------------------------------------------------------
                                                                                    2010
                                                           -----------------------------------------------------
                                                                Requested         Received           Deficit
----------------------------------------------------------------------------------------------------------------
Apache County.............................................       $191,805.00        $15,594.00       $176,211.00
Cochise County............................................        791,271.71        468,199.00        323,072.71
Coconino County...........................................        230,100.00         27,671.00        202,429.00
Gila County...............................................        220,705.20         37,408.00        183,297.20
Graham County.............................................        157,850.00         16,721.00        141,129.00
Greenlee County...........................................          1,050.00            314.00            736.00
La Paz County.............................................  ................  ................  ................
Maricopa County...........................................     47,016,440.70      2,819,911.00     44,196,529.70
Mohave County.............................................        402,372.32         29,769.00        372,603.32
Navajo County.............................................        825,161.42         47,844.00        777,317.42
Pima County...............................................      7,786,850.00        709,628.00      7,077,222.00
Pinal County..............................................        831,441.24        107,290.00        724,151.24
Santa Cruz County.........................................        559,780.00        103,383.00        456,397.00
Yavapai County............................................      1,261,393.00        178,483.00      1,082,910.00
Yuma County...............................................      1,356,300.42        133,551.00      1,222,749.42
                                                           -----------------------------------------------------
      TOTALS..............................................    $61,632,521.01     $4,695,766.00    $56,936,755.01
----------------------------------------------------------------------------------------------------------------


                                                      SCAAP
----------------------------------------------------------------------------------------------------------------
                                                                                    2011
                                                           -----------------------------------------------------
                                                                Requested         Received           Deficit
----------------------------------------------------------------------------------------------------------------
Apache County.............................................       $154,185.00        $11,619.00       $142,566.00
Cochise County............................................        878,255.26         70,214.00        808,041.26
Coconino County...........................................        191,250.00         17,185.00        174,065.00
Gila County...............................................         60,475.41         10,012.00         50,463.41
Graham County.............................................        132,495.00          9,909.00        122,586.00
Greenlee County...........................................          6,650.00          1,759.00          4,891.00
La Paz County.............................................  ................  ................  ................
Maricopa County...........................................     39,744,804.85      2,241,068.00     37,503,736.85
Mohave County.............................................        296,947.84         20,515.00        276,432.84
Navajo County.............................................        676,438.08         38,299.00        638,139.08
Pima County...............................................      5,417,730.00        429,695.00      4,988,035.00
Pinal County..............................................        898,178.40        115,075.00        783,103.40
Santa Cruz County.........................................        397,475.00         61,261.00        336,214.00
Yavapai County............................................      1,116,270.00        118,583.00        997,687.00
Yuma County...............................................      1,183,717.40         93,406.00      1,090,311.40
                                                           -----------------------------------------------------
      TOTALS..............................................    $51,154,872.24     $3,238,600.00    $47,916,272.24
----------------------------------------------------------------------------------------------------------------


                                                      SCAAP
----------------------------------------------------------------------------------------------------------------
                                                                                    2012
                                                           -----------------------------------------------------
                                                                Requested         Received           Deficit
----------------------------------------------------------------------------------------------------------------
Apache County.............................................        $59,565.00         $4,883.00        $54,682.00
Cochise County............................................  ................  ................  ................
Coconino County...........................................         99,825.00          6,936.00         92,889.00
Gila County...............................................         69,598.62          9,700.00         59,898.62
Graham County.............................................         62,755.00          3,458.00         59,297.00
Greenlee County...........................................  ................  ................  ................
La Paz County.............................................  ................  ................  ................
Maricopa County...........................................     26,997,649.55      1,281,403.00     25,716,246.55
Mohave County.............................................        163,268.00         10,077.00        153,191.00
Navajo County.............................................        410,254.77         16,230.00        394,024.77
Pima County...............................................      3,830,950.00        247,571.00      3,583,379.00
Pinal County..............................................        905,514.12        104,266.00        801,248.12
Santa Cruz County.........................................        271,895.00         40,000.00        231,895.00
Yavapai County............................................        537,279.00         41,853.00        495,426.00
Yuma County...............................................      1,314,780.22         84,202.00      1,230,578.22
                                                           -----------------------------------------------------
      TOTALS..............................................    $34,723,334.28     $1,850,579.00    $32,872,755.28
----------------------------------------------------------------------------------------------------------------


                                                      SCAAP
----------------------------------------------------------------------------------------------------------------
                                                                                    2013
                                                           -----------------------------------------------------
                                                                Requested         Received           Deficit
----------------------------------------------------------------------------------------------------------------
Apache County.............................................        $84,873.00         $6,820.00        $78,053.00
Cochise County............................................        443,832.79         31,423.00        412,409.79
Coconino County...........................................        132,300.00          9,008.00        123,292.00
Gila County...............................................         78,284.79          9,649.00         68,635.79
Graham County.............................................         58,630.00          3,800.00         54,830.00
Greenlee County...........................................  ................  ................  ................
La Paz County.............................................  ................  ................  ................
Maricopa County...........................................     24,116,693.25      1,127,899.00     22,988,794.25
Mohave County.............................................        175,729.68         11,226.00        164,503.68
Navajo County.............................................        395,957.08         17,375.00        378,582.08
Pima County...............................................      5,210,330.00        310,851.00      4,899,479.00
Pinal County..............................................        779,196.60         99,032.00        680,164.60
Santa Cruz County.........................................        278,525.00         16,426.00        262,099.00
Yavapai County............................................        679,558.00         51,113.00        628,445.00
Yuma County...............................................        991,706.06         73,752.00        917,954.06
                                                           -----------------------------------------------------
      TOTALS..............................................    $33,425,616.25     $1,768,374.00    $31,657,242.25
----------------------------------------------------------------------------------------------------------------


                                                      SCAAP
----------------------------------------------------------------------------------------------------------------
                                                                                    2014
                                                           -----------------------------------------------------
                                                                Requested         Received           Deficit
----------------------------------------------------------------------------------------------------------------
Apache County.............................................        $94,278.00         $4,959.00        $89,319.00
Cochise County............................................        282,990.61         18,759.00        264,231.61
Coconino County...........................................        252,450.00         14,321.00        238,129.00
Gila County...............................................         26,222.40          2,661.00         23,561.40
Graham County.............................................         51,480.00          3,586.00         47,894.00
Greenlee County...........................................         11,350.00          2,336.00          9,014.00
La Paz County.............................................  ................  ................  ................
Maricopa County...........................................     25,435,133.05        832,073.00     24,603,060.05
Mohave County.............................................        161,335.44          7,306.00        154,029.44
Navajo County.............................................        269,193.35         12,248.00        256,945.35
Pima County...............................................      4,752,265.00        227,337.00      4,524,928.00
Pinal County..............................................        534,374.40         50,354.00        484,020.40
Santa Cruz County.........................................        427,505.00         27,690.00        399,815.00
Yavapai County............................................        524,086.00         28,901.00        495,185.00
Yuma County...............................................        965,618.84         57,747.00        907,871.84
                                                           -----------------------------------------------------
      TOTALS..............................................    $33,788,282.09     $1,290,278.00    $32,498,004.09
----------------------------------------------------------------------------------------------------------------


                                                      SCAAP
----------------------------------------------------------------------------------------------------------------
                                                                                    2015
                                                           -----------------------------------------------------
                                                                Requested         Received           Deficit
----------------------------------------------------------------------------------------------------------------
Apache County.............................................        $53,979.00         $4,861.00        $49,118.00
Cochise County............................................        801,734.50         48,445.00        753,289.50
Coconino County...........................................        155,025.00          9,675.00        145,350.00
Gila County...............................................         72,767.16          6,093.00         66,674.16
Graham County.............................................          9,460.00            613.00          8,847.00
Greenlee County...........................................         29,950.00          6,800.00         23,150.00
La Paz County.............................................  ................  ................  ................
Maricopa County...........................................     21,772,509.25        792,124.00     20,980,385.25
Mohave County.............................................  ................  ................  ................
Navajo County.............................................        156,180.03          7,143.00        149,037.03
Pima County...............................................      4,394,585.00        203,949.00      4,190,636.00
Pinal County..............................................        707,211.12         64,543.00        642,668.12
Santa Cruz County.........................................        358,930.00         33,204.00        325,726.00
Yavapai County............................................        601,111.00         37,707.00        563,404.00
Yuma County...............................................      1,071,221.16         65,516.00      1,005,705.16
                                                           -----------------------------------------------------
      TOTALS..............................................    $30,184,663.22     $1,280,673.00    $28,903,990.22
----------------------------------------------------------------------------------------------------------------


                                                      SCAAP
----------------------------------------------------------------------------------------------------------------
                                                                                    2016
                                                           -----------------------------------------------------
                                                                Requested         Received           Deficit
----------------------------------------------------------------------------------------------------------------
Apache County.............................................        $78,432.00        $10,057.00        $68,375.00
Cochise County............................................        722,737.34         52,083.00        670,654.34
Coconino County...........................................         62,625.00          4,578.00         58,047.00
Gila County...............................................         84,785.76          9,308.00         75,477.76
Graham County.............................................         25,300.00          1,687.00         23,613.00
Greenlee County...........................................         25,250.00          6,128.00         19,122.00
La Paz County.............................................  ................  ................  ................
Maricopa County...........................................     17,734,766.90        737,649.00     16,997,117.90
Mohave County.............................................         48,580.56          2,783.00         45,797.56
Navajo County.............................................        160,010.99          6,870.00        153,140.99
Pima County...............................................      3,676,250.00        213,593.00      3,462,657.00
Pinal County..............................................        344,361.36         45,188.00        299,173.36
Santa Cruz County.........................................        418,080.00         38,003.00        380,077.00
Yavapai County............................................        702,073.00         49,576.00        652,497.00
Yuma County...............................................      1,076,078.24         72,570.00      1,003,508.24
                                                           -----------------------------------------------------
      TOTALS..............................................    $25,159,331.15     $1,250,073.00    $23,909,258.15
----------------------------------------------------------------------------------------------------------------

                              ATTACHMENT 2
                                      May 18, 2015.
The Honorable Loretta E. Lynch,
Attorney General, U.S. Department of Justice, 950 Pennsylvania Avenue, 
        NW, Washington, DC 20530.
RE: Operation Streamline and Smart on Crime Initiative

    Dear Attorney General Lynch: I would like to take this opportunity 
to introduce myself. My name is Leon Wilmot and I am the Sheriff of 
Yuma County in Arizona. As Sheriff of Yuma County, my primary duties 
are to serve and protect the citizens of my community, and to enforce 
the Constitution and the laws of the state of Arizona and our nation, 
As Sheriff, I follow the ``Rule of Law'' in my service to my community 
and my country, and expect the same from our federal administration, I 
firmly believe that the existing laws of our great nation should be 
fully enforced and that there should be no efforts to circumvent these 
laws. I also believe that it is the duty and responsibility of our 
federal government to ensure the safety and security of our nation. As 
such, the southern, northern and maritime borders should be effectively 
and efficiently secured.
    With that being said, it's no secret that the sheriffs serving in 
counties along the U.S./Mexico border are in the epicenter of the 
border crisis. As a member of the Southwestern Border Sheriffs' 
Coalition, I can assure you that every border sheriff is dealing with 
the negative impacts resulting from the smuggling of contraband and 
illegal d rugs; the exploitation of human beings; and the infiltration 
of criminals and subversives determined to cause harm to our counties, 
states and country. The quality of life normally enjoyed by our 
citizens is being jeopardized by an unsecure border that enables 
transnational criminals and their accomplices to prey on our citizens.
    Federal law mandates border security. However, due to an order 
issued by your predecessor reducing prosecutions under Operation 
Streamline and his ``Smart on Crime'' initiative, he in essence reduced 
the federal governments enforcement of our nation's laws regarding 
border security and the prosecution of undocumented aliens (UDAs) 
committing crimes against our citizens, our states and our nation. The 
USAG's lack of prosecuting this criminal element has left a significant 
burden on local governments not only to bear the costs associated with 
the apprehension, prosecution, and incarceration of this criminal 
element, but to also insure that this criminal element is not released 
back into society to continue to prey on our citizens. Working with 
limited budgets and staffing, border sheriffs struggle to find ways to 
enhance the quality of life and safety for those they serve and to 
deter those who cross our borders to promote their criminal activities. 
Unfortunately, without aggressive prosecution by your office of all 
those committing criminal acts as a result of breaching our border, the 
American people will continue to sec a border that is an open 
opportunity for this criminal element to exploit.
    Your predecessor's orders to U.S. Attorneys concerning Operation 
Streamline Prosecution Guidance, along with his Smart on Crime 
Initiative, only confirmed his lack of willingness to do his job. As a 
result of his policies, during fiscal year 2014, Arizona Sheriffs 
incurred over 30 million dollars in costs to house UDAs in our state. 
Of this total, the federal government only reimbursed Arizona Sheriffs 
approximately 1.5 million dollars. Yuma County alone requested 
reimbursement for over $965,000.00; however, we only received 
approximately $57,000.00.
    Due to the failure of the USAG's Office to prosecute UDAs who 
committed crimes in Yuma County as of October 2014, I have enclosed a 
bill and am requesting reimbursement of the costs incurred by Yuma 
County for housing these criminals who otherwise would have been 
released into society with no repercussions for the crimes they 
committed. This amount does not include the costs for medical expenses 
or the costs to the courts for their time or the costs to the Office of 
the Public Defender. Please remit payment at your earliest convenience.
    In closing, I would ask that you reconsider the directives from 
your office in regards to Operation Streamline and the Smart on Crime 
Initiative. I would like to thank you for your time and consideration 
of my request. If you have any questions or need further information, 
please feel free to contact me.
            Sincerely,
                                            Leon N, Wilmot,
                                              Sheriff, Yuma County.

    Chairman McCaul. Thank you, Sheriff. I agree on all 
accounts.
    Judge Trevino.

STATEMENT OF EDDIE TREVINO, JR., COUNTY JUDGE, CAMERON COUNTY, 
                             TEXAS

    Judge Trevino. Good afternoon, Chairman McCaul, Ranking 
Member Thompson, Congressman Vela, and distinguished Members of 
the committee.
    I want to thank Secretary Kelly for his distinguished 
service to our country and for his recent visit to South Texas 
and the border last week. I hope it was productive and the 
first of many more to come.
    My name is Eddie Trevino, Jr. and I am honored to serve as 
the county judge of Cameron County, Texas.
    Cameron County borders the Gulf of Mexico on the U.S.-
Mexico border and is part of the Rio Grande Valley, with 
approximately 1.5 million people living on the U.S. side and an 
additional 2.5 million on the Mexican side. We are also home to 
South Padre Island, the premier tourist destination for many 
throughout the United States and Mexico.
    Given all the attention over the past several weeks and 
months, this committee hearing could not have been timelier. 
Border security, immigration, and the facilitation of 
legitimate trade and travel on the U.S.-Mexico border is a 
reality that we live with every day.
    As a locally-elected official, I have an obligation to try 
and inform this panel and others involved to make cost-
effective decisions based upon common-sense solutions that will 
work long-term and be effective for all of us. On the border, 
we have had to endure many policies and programs put in place 
by the Federal and State governments over the years--many of 
them unfunded mandates. You just heard several of them by the 
sheriffs.
    After 9/11 we fully understood the reasoning for the sudden 
changes to life on the border. We are a community that believes 
in the rule of law and want our country to be safe and secure. 
Many of our residents answered the call to defend our country, 
and unfortunately, many of our local veterans were either 
wounded or killed in serving our country.
    Despite all the post-9/11 changes, businesses have thrived, 
our communities are safe, and the Rio Grande Valley continues 
to grow and prosper. The claims of lawlessness and rampant 
violence in our border communities is just wrong and nothing 
more than an attempt to paint it as something that it is not in 
order to support the misguided rhetoric against border 
communities, Mexico and its people, and the immigrant--both 
legal and undocumented.
    I come before you today to request that you seek other 
alternatives and opportunities other than the border wall 
proposal put forth by President Trump. Contrary to what has 
been proposed, the border wall concept is ineffective and 
creates a false sense of security that will do nothing to 
alleviate the problem with the criminal element, drug cartels, 
gangs, and other organizations looking to harm our country.
    Our Federal agents on the front lines do an unbelievable 
job with the resources that they have. We must do all that we 
can to continue to help them in their mission, but not at the 
expense of our relationship with our country's second-largest 
trading partner, and Texas' largest trading partner, Mexico.
    This will not work by developing a one-size-fits-all 
approach such as a border wall. Utilizing a 14th-Century 
solution to address a 21st-Century problem makes no sense, 
especially as it is the most expensive of all possible 
alternatives or solutions.
    If we provide a virtual wall of cameras, sensors, and other 
State-of-the-art technology, including UAVs, we arm our Federal 
agents with the resources that they need to perform their jobs. 
Improving road conditions along the border, removing barriers 
like the carrizo cane and salt cedar and other invasive non-
native plants that provide cover to smugglers and allow for 
more lateral mobility and use on Federal lands along the border 
will also give agents a better chance at controlling and 
surveilling the border.
    I recently learned that the technology investments in 
border security made 20 years go in the Brownsville sector have 
yet to be improved. Imagine investing the $15 billion to $20 
billion estimated to build a wall on equipment, training, 
technology, road infrastructure, and more boots on the ground.
    The natural barrier of the Rio Grande River can also work 
as an advantage for our National security. There have been 
extensive studies on the Weir Dam project by our local utility, 
BPUB, which would broaden the reach, width, and surface area of 
the river, making it that much more difficult to cross.
    Once illegal immigrants are detained, there needs to be a 
commitment of additional financial resources to the judiciary 
to address their processing. The judicial system is 
undermanned, underfunded, as there are just not enough 
immigration judges to handle the backlog of approximately half 
a million cases, which should be unacceptable to all of us.
    I must also touch on America's need for workers. Despite 
what many say or want to believe, low-skilled workers are 
desperately needed in our country. Estimates state that the 
United States will need between 600,000 to 650,000 workers 
annually to keep our economy growing. The lack of human capital 
for so-called basic jobs in this country is something we should 
all be concerned about if we want our country to continue to 
prosper and grow.
    On the issue of trade and a so-called border tax, I do hope 
that this issue is studied in a more objective and rational 
manner. Do we want to harm businesses in Texas and the rest of 
the Southwest just because of the negative impact that these 
policies will cause? An eye-for-an-eye policy will just leave 
all of us blind.
    Governor Abbott said last week while on the South Texas 
border tour with General Kelly, ``We want to achieve safety and 
security, but we also want to promote economic development.'' 
We have made great strides as a result of NAFTA, and the Trump 
administration wants to make changes to such agreements then 
there are diplomatic channels in which to get the job done.
    Any negotiations to improve NAFTA don't have to be 
difficult or adversarial, but they must and should be 
respectful and mutually beneficial. At a recent border summit 
of elected and business officials from all sides of the 
political spectrum the message was the same: How can we improve 
the ideas and suggestions coming from Washington for our 
border? How can we tell our story of the farmers, the 
restaurant owners, the construction companies, the hospitals, 
the waitresses, and countless others that will be affected by 
such harmful and consequential proposals?
    My Republican and Democratic friends back home are worried. 
This proposal to build a wall, to renegotiate NAFTA, to create 
a border tax, and not address immigration reform will have 
lasting effects across our country if we continue to kick this 
problem down the road without addressing it.
    History will judge us on our actions. We must build on our 
successes by continuing to build bridges and not tear down or 
divide what we have achieved together with expensive, 
unbudgeted, and outdated proposals such as a border wall.
    Thank you for having me this afternoon. I am happy to 
answer any questions that you may have.
    [The prepared statement of Judge Trevino follows:]
                Prepared Statement of Eddie Trevino, Jr.
    Good morning Chairman McCaul, Ranking Member Thompson, Congressman 
Vela, and distinguished Members of the committee.
    Thank you for the opportunity to come before each of you today.
    General Kelly, thank you for your distinguished service to our 
great country and thank you for your recent visit to South Texas and 
the border last week.
    I hope your visit was informative and productive and the first of 
many more to come, to better understand the issues facing our border 
communities and the rest of the country.
    My name is Eddie Trevino, Jr. and I am honored to serve as the 
county judge in Cameron County, Texas.
    Cameron County borders the Gulf of Mexico and the U.S.-Mexico 
border and is a part of what is referred to as the Rio Grande Valley, a 
growing part of the State with approximately 1.5 million people on the 
U.S. side and an additional 2.5 million across the border in Mexico.
    Our county owns and operates three international bridges. Trade and 
economic activity and commerce are critical to our area.
    Life on the border is unique. People, along with goods and services 
move back and forth on a daily basis.
    We are dependent on one another as families go back and forth via 
our bridges for dining and shopping, for medical visits, to work, to go 
to school, and to do many other social and economic activities.
    We are also home to South Padre Island, the premiere tourist 
destination for many throughout the United States and Northern Mexico.
    I am honored and humbled to be before you today. I know you have my 
full testimony, so today I wanted to try and cover as much as possible 
with the allotted time given.
    Given all the attention over the past several weeks and months on 
border security, trade, and immigration this committee hearing could 
not have been timelier.
    Border security, immigration, and the facilitation of legitimate 
trade and travel on the U.S.-Mexico border is a reality we live with 
every day.
    The decisions made at the Executive and Legislative branches of our 
Federal and State governments in the coming weeks, months, and years 
will have long-lasting and profound impacts on our communities on both 
sides of the border.
    I hope I can provide some information and context to this committee 
and this administration to first understand and realize how this region 
impacts the entire State of Texas and our country before making any 
rash and costly decisions.
    As a locally-elected official, I have an obligation to try and 
inform this panel and others involved in the decision-making process to 
make decisions based upon common-sense solutions that will work long-
term and be effective for all of us.
    From 2003 to 2007, almost 10 years before I became the county judge 
last year, I was the mayor of Brownsville, Texas and the largest city 
in the Rio Grande Valley.
    I was fortunate to become involved during that time frame on 
various issues including advocating for immigration reform and border 
security.
    I was first elected as a city commissioner in Brownsville 2 months 
after 9/11 and saw first-hand the impacts 9/11 had on border security 
and trade.
    On the border, we have had to endure many policies and programs put 
in place by the Federal and State government.
    And all of us fully understood the reasoning for the sudden changes 
to life on the border.
    We are a community that believes in the rule of law.
    We are a community that cherishes our flag and country.
    And we are a community that wants for our Nation and world to be 
safe and secure.
    Many of our residents have been on the front lines to answer the 
call to defend our country in times of war and peace. Unfortunately, we 
are well represented when it comes to Veterans killed or wounded in 
action.
    And their faith and determination to make this the greatest country 
on this God given earth cannot be questioned.
    But in recent years there has been an evolution and transformation 
of the border.
    During this time, the economies of our nations, the United States 
and Mexico, have gotten stronger and even more intertwined.
    And the coordination and communication dealing with intelligence 
issues has been beneficial and critical for local law enforcement on 
both sides of the border.
    Despite all the post-9/11 changes, Businesses have thrived, our 
communities are safe, and the Rio Grande Valley continues to grow and 
prosper.
    The claims of lawlessness and rampant violence in our border 
communities is just wrong and nothing more than an attempt to paint our 
community and region as something that it is not in order to support 
the misguided rhetoric against border communities, the country of 
Mexico and the immigrant, both legal and undocumented, Hispanics, and 
in particular, Mexicans.
    Data we have from our local police chiefs and county sheriff show 
that crime has gone down and our communities are safer than ever.
    Inner cities have more serious criminal activity than border 
cities. In Chicago, last year there were 762 murders. In Brownsville, 
Texas the murder rate was 4 last year and in Harlingen, Texas it was 
the same.
    In spite of the negative attacks, rhetoric, and commentary, there 
is a strong sense of optimism for our region.
    It is because of our people--our most valuable resource and trusted 
asset--that we continue to thrive and prosper.
    People in the business sector, our educational system, and our men 
and women in law enforcement have made the Rio Grande Valley a great 
and safe place to live, work, and play.
    Because of this and because of what we know we can accomplish, I 
come before you today to implore you to seek other alternatives and 
opportunities other than the Border Wall proposal put forth by 
President Trump.
    Contrary to what has been proposed, the border wall concept is 
ineffective and creates a false sense of security that will do nothing 
to alleviate the problem with the criminal element, drug cartels, gangs 
and other organizations looking to harm the country and our people.
    In fact, as a result of the Secure Fence Act of 2006, there is 
already border fencing in place in the Rio Grande Valley covering 54 
miles in Cameron and Hidalgo Counties.
    If you have lived and worked on the border, you have seen first-
hand the decline in crime, the increase in opportunity, and the 
understanding and commitment of both governments to work together.
    I for one can tell you that it is better. Our Federal partners have 
the tools necessary to do their jobs effectively and efficiently and 
because there are more boots on the ground, the detection and response 
time has improved.
    As a local elected official, our county sheriff and local law 
enforcement have a great working relationship with Customs and Border 
Protection and Border Patrol.
    The men and women on the front lines do an unbelievable job with 
the resources they have. We must do all that we can to continue to help 
them in their mission but not at the expense of our relationship with 
our country's second-largest trading partner and Texas's largest 
trading partner, Mexico.
    Because of what they do, our communities along the border have 
become safer. With this in mind, no one disputes the fact that we need 
to uphold the rules and laws of our Nation to continue keeping us safe.
    But understandably, we also have to continue growing our economy, 
ensuring this country's long-term sustainability with an ample and 
dedicated labor pool, and doing it in a way that embraces the ideals 
and principles of this great Nation.
    Collectively, there are still many things that can be done to 
improve border security and give our people the tools they need to be 
ahead of the game.
    This will not work by developing a one-size-fits-all approach such 
as a Border Wall. We need to be innovative and have a strategy to fix 
our problem.
    Utilizing a 14th-Century solution to address a 21st-Century problem 
makes no sense, especially as it is the most expensive of all possible 
alternatives or solutions.
    If we provide a wall of technology utilizing cameras, sensors, and 
other state-of-the-art technology, we arm our Federal law enforcement 
personnel with the necessary and proven resources they need to perform 
their jobs and duties.
    Operational control is paramount.
    Improving road conditions along the border, removing barriers like 
the Carrizo Cane and Salt Cedar and other invasive non-native plants 
that provide smugglers havens and cover, and allowing for more lateral 
mobility on Federal lands along the border, will give agents a better 
chance at controlling and surveilling the border.
    Just recently, I learned that the technology investments in border 
security made 20 years ago in the Brownsville Sector have not been 
improved or upgraded. The cameras and equipment bought and implemented 
in 1997, while still operational and beneficial, have not been replaced 
or updated.
    Why would we want to saddle our taxpayers with billions of dollars 
to build a wall?
    Doesn't it make more sense to use that money to deploy our most 
formidable technology and to upgrade our existing technology 
infrastructure?
    Not only would we save money, spending millions instead of 
billions, but we could utilize methods and technology that have already 
proven successful.
    We must invest in the latest and the greatest technology such as 
deploying Unmanned Aerial Vehicles to have eyes in the sky.
    We must take an approach that utilizes our most valuable resource, 
which is our people to operate and man the intelligence centers that 
can watch and detect illegal activity and then direct personnel to the 
trouble spots before, rather than after, an event or incident has 
occurred.
    Just imagine being able to invest the $15-40 billion estimated that 
it will take to build the Wall on equipment, training, technology, road 
infrastructure, and more boots on the ground.
    If you ask the experts in the field, they will tell you that this 
is where the money should go.
    The natural barrier of the Rio Grande River can also work as an 
advantage for our National security.
    In Brownsville, there have been extensive studies undertaken on a 
Weir Dam project by the Brownsville Public Utilities Board. The 
opportunity to construct a weir dam using Border Wall dollars or 
infrastructure fund dollars is a win-win.
    This project would broaden the reach, width, and surface area of 
the river making it much more difficult to cross.
    In addition, a weir dam could be coupled with sensors, cameras, and 
the eradication of non-native plant species along the river banks to 
add security layers to enhance the efforts of the border patrol.
    And once illegal immigrants are detained, there needs to be a 
commitment of additional financial resources to the judiciary to 
address their processing.
    The current backlog of half a million cases is unacceptable.
    The judicial system is undermanned and underfunded. There are not 
enough Immigration Judges to handle these cases.
    People should not be left in limbo in our judicial system for 
hundreds of days until there is some sort of resolution.
    That is not fair to them and it is not fair to our communities.
    I want to take a moment to also touch on the need for a policy that 
addresses America's need for workers.
    All nations are built on a foundation of growth. If a nation does 
not grow, our destiny and way of life will be beyond our control.
    Despite what many say or want to believe, low-skilled workers are 
desperately needed in our country.
    Some estimates I've seen, state that the United States will need 
between 600-650,000 workers annually to keep our economy growing.
    The U.S. birth rate has fallen to 1.9 births per female and it is 
established that a country, just to sustain itself must have a birth 
rate of 2.1 births per female.
    Today, the largest part of our workforce comes from the millennial 
generation and there are not many millennials interested or committed 
to low-skilled-type labor.
    The jobs that are needed are not the ones that middle- or upper-
middle-class workers will want anyway.
    The lack of human capital for so-called basic jobs in this country 
is something we should all be concerned about if we want our country to 
prosper and continue to grow.
    On the issue of trade and a so-called border tax, I do hope that 
this issue is studied in a more objective and rational manner.
    Do we want the price of foods and services to skyrocket?
    Do we want to put small businesses in Texas and the rest of the 
Southwest out of business because of the undue competitive 
disadvantages these policies will cause?
    An eye-for-an-eye policy will leave all of us blind!
    Bilateral discussions regarding the long-term economic viability of 
the border region are extremely important to our future, not only in 
Texas but throughout the entire country.
    As a local elected official, I know the importance of economic 
development and job opportunities for our citizens.
    And as Governor Abbott said last week while on a South Texas border 
tour with General Kelly, ``we want to achieve safety and security, but 
we also want to promote economic development.''
    He also noted that Mexico is Texas' largest trading partner adding 
that, ``we must ensure we are able to continue that very effective 
trade.''
    We know there are certain parts of the Nation that do need help and 
do need assistance to spur economic growth.
    But we cannot put forward ideas that strain our communities and 
push us back even further educationally and economically.
    Any proposal that is debated and approved by this Congress should 
improve our economic conditions throughout the entire Nation and not do 
anything to impact its success.
    Doing it on the backs of South Texas and U.S.-Mexico border 
communities is not a viable option.
    Historically, the Rio Grande Valley has been one of, if not the 
poorest areas in our country.
    We've made great strides as a result of NAFTA and the investments 
in our local school districts and institutions of higher learning such 
as the University of Texas Rio Grande Valley, Texas Southmost College, 
Texas State Technical College, and South Texas Community College.
    Conversely, along the border there have been sizeable investments 
made by local communities in partnership with the Federal and State 
government to modernize our Ports of Entry.
    Millions of dollars are being invested to build bridges, modernize 
technology, and man our ports. The goods and services moving through 
these ports make their way to all parts of the entire country.
    Again, investing in upgrading and updating our Ports of Entry 
infrastructure would better serve to enhance our Border Security.
    I believe that the President's Infrastructure plan can help play a 
role with many of our local projects along the border.
    Finally, we have come so far in the last 20 years since the passage 
of NAFTA. There have been many achievements and cooperative agreements 
to improve bilateral relations.
    Destroying the groundwork of so many who had the vision for Free 
and Secure Trade and taking us back in time and reversing these 
economic accomplishments is a recipe for disaster.
    If the Trump administration wants to make changes to trade 
agreements, border security, and immigration policy, there are 
diplomatic channels to get the job done.
    Any negotiations to improve NAFTA don't have to be difficult or 
adversarial; but they must and should be respectful and mutually 
beneficial.
    It appears that President Trump is unlike other past Presidents and 
tends to draw upon unconventional wisdom and his hard-charging manner. 
Sometimes that works and sometimes it doesn't.
    Recently, I was at a border summit of elected and business 
officials from all sides of the political spectrum and the theme and 
message was the same.
    What can we do to better the border? How can we improve the ideas 
and suggestions coming from Washington? How can we tell our story of 
the farmer, the restaurant owner, the construction company, the 
professor, the hospital, and countless others that will be affected 
with such stringent and consequential proposals?
    I can tell you that many of my Republican friends are worried. This 
proposal to build the wall, to renegotiate NAFTA and not address 
immigration reform will have lasting effects across our country and it 
will take every bit of effort to fix it.
    I ask that you stay apprised of the bilateral negotiations and do 
all that you can to keep our neighbor and ally on our side, working 
with us to improve conditions both for the United States and Mexico.
    History will judge us on our actions. We must build on our 
successes by continuing to build bridges and not tear down or divide 
what we have achieved together with expensive and outdated proposals.
    Thank you.

    Chairman McCaul. Thank you, Judge.
    I recognize myself for questioning.
    I got elected--it is hard to believe--over 12 years ago as 
a Federal prosecutor stating I was going to get the border 
secure. Here I am going into my seventh term in Congress. It is 
still not done.
    I think for the first time--and I know there are differing 
issues as to how to accomplish this--but we have the political 
will in Washington to finally possibly get this done.
    It is a Federal responsibility, Steve, not a State.
    I believe the State of Texas, and my home State, has 
stepped up to the plate and taken on this responsibility 
instead of the Federal Government.
    My first question is to Director McCraw. As you prepare for 
your testimony before senate finance in Austin, knowing that we 
will have a defense border supplemental bill coming down the 
pike in the springtime, what do you--what would be the ask, if 
you will, from the State of Texas?
    Mr. McCraw. Certainly. We have had Representative Chairman 
Boddom speaker pro tem an ask of $2.3 billion, based on what 
the State has already spent. But obviously going forward, and 
then we would have to coordinate with the Governor what he 
wants, but bottom line is how do you leverage existing 
capabilities at the State level, at the local level, so that 
Border Patrol can get--can gain control and continue to augment 
level of border security every day.
    Our concern just sitting here after listening to Secretary 
Kelly, who is very realistic that it takes time to build that 
infrastructure up, it takes time to put those roads, it takes 
time to build any types of obstacles as opposed to barriers or 
technology. Particularly, hiring 5,000 to 10,000 Border Patrol 
agents takes time.
    So what does the State need to do to be able to stave off 
any kind of incursions or influx or any problems that we have 
already gained to this point in time? That is the challenge 
that we have.
    I can tell you that, you know, going forward ideally it 
would be in a--we would be in a far better position if we can 
look and say, ``Hey, Border Patrol needs three sheriff's 
deputies; it needs two game wardens; it needs four troopers; 
needs two DPS aircraft; needs three tactical boats; needs a 
SWAT team,'' and be able to leverage that like we do under the 
Stafford Act. That would allow us to be able to capture not 
just the cost but also some of the operating cost that goes 
into it because it is clear that the--the Secretary made it 
clear, they are serious about border security and doing it.
    Our concern is how fast can we do it, because every day 
matters. If you get involved in these sex trafficking 
investigations, you get involved in some of the sexual assault 
and some of the things that we have seen the Mexican cartels be 
engaged in, you know, every day matters and--but every level of 
security that increases, the better off we are.
    I guess one thing I would like to add, Chairman, while I 
have got the microphone here is that the great thing about 
technology, it gets smaller, it gets cheaper. Also it provides 
us a new way of metrics that we didn't have before, as 
Congressman McSally was concerned about, that how do you 
measure success. We don't have to use formulas; we can actually 
prove what our collection posture is, what our detection 
posture is, and what our interdiction posture is.
    Every troop or every Texas ranger, every special agent in 
their vehicle and on their phone has a GPS-locating device, and 
we are doing operations. I can prove any time any day of the 
week what is our coverage posture right then and there.
    One of the challenges I know that Secretary Kelly is going 
to address is that Border Patrol needs that same capability, 
blue force tracking. You would expect that they would know if 
not just for a security standpoint and being able to defend in 
terms of exactly what their security posture is; it is officer 
safety issue. Because as you know, every day Border Patrol 
agents are threatened along that Rio Grande River.
    To that end, I would like to include the fact that it is 
absolutely disgraceful that the Federal Government has not 
prosecuted those that have assaulted Federal agents in the 
performance of their duties. I am confident that will change, 
but until that time the Texas border prosecutors have stepped 
up to the plate, as well as we have had our Texas rangers will 
investigate every one of those and will prosecute them at the 
State level until the Federal Government prosecutes those 
cases.
    Chairman McCaul. So we are trying to build a record here on 
the committee as to how to move forward with all this. Texas 
has a very unique challenge with the Rio Grande. You can't 
build a wall in the river. You can build levies, but a--I don't 
see--I think it is actually symbolic, saying ``the wall,'' 
symbolic for a physical barrier, but a multi-layered defense 
using all available assets, including technology and aviation 
and fencing.
    So I throw this out to all four of you: How would you 
best--and I asked this of the Secretary and we heard his 
response--how would you best describe ``the wall'' to finally 
achieve operational control?
    Mr. McCraw. You have got a chart that Texas did because our 
legislators demanded that we do have a way to measure success 
beyond numbers. So you have seen what we have come up with: 
Unsecured, minimal control, operational control, and 
substantial control. There are different things that have to be 
in place before you can go up to the next level. So those 
things are measurable, and if you can measure it--if you can 
discern it then you can measure it.
    From a Texas standpoint, a wall, a strategic defense, all 
those things are obstacles and they work for us and against the 
cartels. But as I have said before, absent, you know, the 
personnel, the technology, the things that the judge talked 
about--maybe the removal of salt cedar and carrizo cane--it is 
simply, you know, an obstacle to the cartels, not a barrier, 
because the cartels will, you know, clearly go under, through, 
and around it, and then certainly over it to be able to meet 
the unending demand for drugs and commercial sex in the United 
States. That is clear and compelling.
    Chairman McCaul. So an obstacle, not a barrier.
    Mr. McCraw. Yes, sir. But it can be--it becomes a barrier 
when you have enough border patrol agents and detection 
technology. When they step over that fence or they step on that 
fence you can immediately see it and you can work.
    Today you get to see a picture of it. You don't have to 
guess that it is a sensor, that it is a four-legged, you know, 
creature or if it is two--it has two legs and carrying a bundle 
of marijuana. You know that by looking at it, so there is no 
reason not to leverage this technology that is out there and 
available.
    I totally agree.
    Sheriff Martinez.
    Sheriff Martinez. I agree with Colonel McCraw. A fence is 
just a barrier, but I think more importantly is the manpower 
initially, to get the manpower.
    Let me give you an example. In my county there is 84 miles 
from Lake Amistad to the county line. I have one deputy for 
that--to cover that country.
    On a good day we will have anywhere from 12 to 15 Border 
Patrol agents to cover that same area, which will consist of 
8,000 square miles, which will go all the way into Crockett and 
Sutton Counties. So that is like a needle in a haystack trying 
to find a needle in a haystack--manpower in that rugged area, 
geographical area of the State of Texas.
    So manpower in combination with, you know, a physical 
barrier in some strategic locations, along with technology, 
will go a long way.
    Chairman McCaul. Sheriff Wilmot.
    Sheriff Wilmot. Yes, sir. I would tell you that in Yuma 
County we had to do a conglomeration of all of that.
    You have to look at your geographic location and what are 
your natural and man-made boundaries that you already have. I 
have the Colorado River that is flowing through Yuma that goes 
right into Mexico. I have two Tribal reservations, which is 
sovereign land. I have the Barry M. Goldwater Range, which is 
our military WTI premier training center for our military 
forces that are being shipped overseas. I also have a U.S. Fish 
and Wildlife Refuge, Cabeza Prieta.
    So I think in each and every location, much like the 
general talked about today, the Secretary, is he needs to go 
down, ascertain from those different geographic locations what 
is needed best. It could be a fence; it could be vehicle 
barriers; it could be just electronic infrastructure such as 
radar-operated camera systems or detection radars or lasers.
    But I think they need to approach that from the perspective 
on the boots-on-the-ground level, like I mentioned earlier, in 
order to address that.
    Chairman McCaul. Would access to Federal lands help? That 
would be a law that we would have to change.
    Sheriff Wilmot. Absolutely, sir. We encountered that same 
situation down there in Yuma County back in 2005, 2006 when 
they were actually install--putting in the fence utilizing our 
National Guard.
    We worked with our Tribal partners and were able to do the 
brush-clearing, much like was asked about before, because it 
was along the Colorado River corridor. It opened up 
recreational areas for the Yuma citizens to be able to enjoy 
again, versus the criminal element that was so often exploiting 
that for getting their illegal contraband across the river.
    Chairman McCaul. Judge Trevino.
    Judge Trevino. Mr. Chairman, just like everybody else on 
this committee, I am more in the listening phase because of the 
fact that I rely on what law enforcement has to tell us. I have 
had the opportunity to meet with, obviously, our local 
sheriff's department and also our Border Patrol sector chiefs. 
The thing that was surprising to me was when I learned that 
they were not able to utilize and be on Federal park land--
National park lands in order to do their surveillance and 
investigation.
    The other part of the equation was the fact that much of 
the technology is already several decades old, and while it is 
still operational it is nowhere near as effective as the 
advance of the technology as provided to law enforcement. So we 
need to upgrade.
    The other part of this that they wanted to utilize in 
conjunction with the technology upgrade is that allows the 
boots on the ground a much more direct and a quicker response 
because the people operating the technology or the UAVs, 
whatever it may be that is entailed, will be in a better 
position to direct our boots on the ground to wherever the 
incident or impact is going to be.
    So I think we are all in agreement that the resources to 
upgrade the technology and provide the resources to the boots 
on the ground is something that is absolutely needed.
    If I may quickly say, you mentioned that 10 years ago when 
you first started and you were a former prosecutor you thought 
you would have the border secure. I think part of the problem, 
Mr. Chairman, is that if we really, really utilize a clear 
definition for a secure border I don't know if we can ever 
achieve that. The reality is as long as there is a criminal 
element, as long as there is human activity they are going to 
do everything they can to either provide the product, whether 
it is drugs or human trafficking or whatever the case might be.
    But I think it is safe to say that the border is definitely 
much more secure today than it was a decade ago or 20 years 
ago, and I think that is important for the rest of the country 
to understand that because we are able to live our lives, have 
a good quality of life on the border, as a result of these 
gentlemen to my right and all the law enforcement officials 
that are still operating back home on the border.
    Chairman McCaul. Well, thank you. You have given us an 
excellent record, testimonial as we move forward with our 
border supplemental bill as to what is effective, what is not, 
what needs to be appropriated, and what shouldn't be.
    So, with that I now recognize the Ranking Member.
    Mr. Thompson. Thank you, Mr. Chairman.
    I thank the witnesses for their testimony. It has been a 
long time since we have had a panel of people who live it every 
day, in terms of this issue before us, and I think it has been 
quite enlightening.
    The question that a lot of us have is why not come up with 
a sound policy that addresses border security rather than 
coming up with a product, in terms of a fence? I think, as just 
about everyone has said, there are ways that fencing might be 
good; there are other ways that technology; there are other 
ways of using other things might be good.
    But when you come with a one-size-fit-all model, that 
creates some real challenges: The Rio Grande River, the lakes 
and some other areas, Tribal lands. So I guess the question is 
what I am hearing from the witnesses--and I heard it from the 
Secretary in his testimony--that you will be involved in the 
process so that rather than Washington coming to your 
communities and say, ``Well, Big Brother is here; we have the 
solution,'' we would say, ``What do you think? You do this 
every day. You live it. What suggestions or recommendations 
that you might have?''
    I think that is a very good model for us to adopt, because 
in Washington we can just see one part.
    So for the record, we are 1,500 persons short in the 
approved CBP allotment for boots on the ground. I think we have 
been 2 years, 3 years--about 2 years trying to complete that. 
So if we get 5,000 more that means we have 6,500 vacancies that 
we can't fill.
    So part of what we are going to have to do is try to work 
with State and locals to figure out, since we can't put all 
these boots on the ground, are having trouble filling it, how 
do we backfill it? Technology.
    You know, if we can see somebody 5, 10, 20 miles away 
approaching an area then if we had ability to communicate with 
local law enforcement or whomever, we can perhaps move assets 
to that area from an interdiction standpoint. I would--for the 
sheriffs, especially.
    Are you allowed to train with CBP and other Federal 
officials in a manner that gives you comfort, or are there some 
things that you would like to see being done that is not being 
done?
    Sheriff Martinez.
    Sheriff Martinez. Yes, sir. Thank you for the question.
    We work very well with our Federal partners. We don't train 
with them. Basically, if we come across a crime that has an OTM 
or a Mexican national we refer those individuals to Border 
Patrol and we are--we work through Stonegarden. In the last 
week we had eight referrals in our sector, so I take it that 
that is from the locals referring someone over to our Federal 
partners and they take over from there.
    But going on to some of your question, I would like, you 
know--you say you are miles away, but I would like to invite 
each and every one of you to our communities where we live 
every day. No to--don't show up when they have all the manpower 
and resources. Visit us in our natural State, and you can see 
all the deficiencies that we have. That will be a big impact on 
what happens up here, on your votes up here.
    Mr. Thompson. Sheriff.
    Sheriff Wilmot. Thank you, sir.
    I will tell you that there are--our agency trains quite a 
bit with the U.S. Border Patrol Yuma Sector under Chief 
Provaznik. We have awesome lines of communication. Most of our 
training has to do with search-and-rescue type or narcotics 
interdiction, working side-by-side with their personnel. Most 
of that occurs under Operation Stonegarden, which I mentioned 
before.
    The other hamper that we are running into with the sheriffs 
all across the United States right now is actually getting some 
sort of legal opinion in regards to 287 JM, the honoring of 
detainers in our jails, because some sheriffs in some places 
along the United States are being sued for violation of 4th 
Amendment rights. We are being told on one side that we have to 
honor them by Federal law, but we are also being told by State 
that you cannot honor that because you are violating this law 
or that law, whether it is Arizona, Texas, New York, Illinois, 
Idaho.
    So the sheriffs as a whole, the one thing that we need is 
some sort of legal opinion in regards to honoring detainers for 
the jails. That is one of the things that has a significant 
impact for us when an individual is in our jails.
    Typically for us they are booked into the jail, they go 
through the State process, they get sentenced to prison, and 
then they are turned over to the State for DOC. That is 
something that all the sheriffs across the United States--and 
we articulated that to the Secretary yesterday.
    Mr. Thompson. So thank you.
    Judge, in your everyday duties what security issues would 
you be concerned about, and do you see the wall as an answer to 
those security issues, from your standpoint?
    Judge Trevino. Thanks for the question, Congressman. Let me 
point out that with regard to Cameron and Hidalgo County, our 
neighboring county, which is approximately 70 miles, we already 
have 54 miles of fencing already in place.
    You alluded to it right now when you said we have got 1,500 
vacancies and we are looking at another 5,000, and looking at 
6,500. Let me tell you how that impacts us locally. These 
gentlemen to my right, their responsibility is to provide local 
law enforcement to the community that they serve. Because of 
the change in dynamics in our country, they have also had to 
become quasi-Federal agents because of the demands that have 
been placed on them with regards to border security.
    The concern that I have--and just for the record, the 
county judge in Texas is not a judicial position; it is an 
administrative position. I don't want anybody to think that I 
am holding court back home. It is basically the mayor of the 
county, so I work with all of the agencies in that endeavor.
    The concern that I would have, and I would venture to guess 
that they have also, is I can tell you that in the valley many 
of our local law enforcement agencies, whether it is local 
police departments or the sheriff's department, the jailers, we 
have lost a lot of those individuals to the Federal Government 
because of the demand for Federal agents, whether it be Border 
Patrol, Customs, or what have you, because they pay, obviously, 
better than our local law enforcement entities.
    We rely on, unfortunately, usually very low property tax 
bases to fund our budgets. As a result of that, in addition to 
the jail costs associated that the sheriff alluded to, we also 
have the medical costs associated to take care of them in the--
while they are in our custody.
    So all of these what I referred to earlier as ``unfunded 
mandates'' are concerns because we don't have an immense 
backload or a rainy day fund that can help us get through these 
days, but we are doing the best that we can. I think that is 
something, as the--as Congress takes this into account they 
have to understand that the demands placed upon our local 
entities and jurisdiction on the Texas-Mexico border are so 
different than the demands placed elsewhere in the country.
    So when we are asking for those funds and resources we are 
not doing it because we want them; we are asking because we 
need them because we are already performing the job. And 
obviously if there is a big increase in--on boots on the 
ground, which I think we all agree is necessary, the concern we 
are going to have is we are going to need those additional 
funds ourselves to make sure that our local law enforcement 
positions are also well met.
    I don't like hearing the fact--and I know about situations 
like that, where you got one officer patrolling a square--84 
square miles. You know what that means. He can't be everywhere 
all the time.
    So thank you.
    Mr. Thompson. I yield back.
    Chairman McCaul. Let me just say, Sheriff Martinez, I agree 
with your point, go down to see it, because you can't 
understand it unless you go down and see it. I always, you 
know, advocate for Members to do that. There is no real 
simplistic answer to this, and it is multifaceted.
    Scott Perry, Pennsylvania.
    Mr. Perry. Thanks, Mr. Chairman.
    Gentlemen.
    Is it Mr. McCraw?
    Very briefly, you know, some people don't like the 
terminology ``the wall,'' so whether it is a wall, whether it 
is a fence, whether it is unmanned vehicles or sensors or 
cameras or whatever, some protection, security belt along the 
border that keeps incursions from happening, I think we need 
that, but I think it begins with an attitude that you want to 
uphold the law and defend the border of your country and the 
sovereign Nation.
    So with that, you mentioned that one of the things that you 
saw a problem with is the Federal Government is not prosecuting 
people here illegally that assault Border Patrol agents. Can 
you talk about that a--very quickly, but with a little more 
depth to it?
    Mr. McCraw. Well, I am going to actually give you the 
examples, the cases. I will get back to you on what they are, 
but there have been instances where Border Patrol agents have 
been assaulted when they are trying to make an arrest.
    The normal process when I was in the FBI we used to work 
Federal--assault on Federal officers in those cases. When I was 
in Tucson that is what we did. Alexander Kirpnick was killed by 
two drug traffickers from Mexico. That is what we did. We 
worked assault on a Federal officer, and the prosecutor, the 
United States attorney, would prosecute those things.
    Over the last several months that hasn't been the case. 
There has been no prosecution. They have been turned down.
    All we have done is basically we got the advantage because 
the State legislature has funded these border prosecutor units. 
We just go into the district attorney's offices, ``Hey, look 
Border Patrol agents are being assaulted, not prosecuted. In 
Texas we are a law-and-order State. You assault a police 
officer there has gotta be consequences.'' They get it. They 
immediately take the cases, and what we are doing is using 
State resources to investigate those cases, turn it over to the 
border prosecutors to prosecute.
    Mr. Perry. So you said over the last couple months. Is it--
  --
    Mr. McCraw. Several months. It could be 6 months; it could 
be 8 months. I will give you the exact time and I will give you 
the exact cases that we have worked for them, as well.
    Mr. Perry. So what do you think the impetus for failure to 
follow through from the Federal Government standpoint is? Why 
would they not do that?
    Mr. McCraw. I don't know. It is inexplicable.
    Mr. Perry. OK. We will have to look into that. I appreciate 
that information, if you can get it to me.
    Also, Federal park----
    Mr. McCraw. I do need to mention, though, that was 
brought--Governor brought that to Secretary Kelly's point. When 
he took the time--he is the first Secretary out of all the 
secretaries I have met--and I have met some great ones in 
Secretary Johnson, Secretary Napolitano, Secretary Chertoff, 
Secretary Ridge. You know, he has taken the time to went down 
there. He has already been down there, asked questions, very 
specific, listened to briefs. So we are very encouraged that he 
did that.
    The Governor brought that to his attention, so I have got 
no doubt--and he took it back with him--that he is going to 
talk to the attorney general about that, that that will be 
fixed. I am very confident that will be addressed.
    Mr. Perry. I would think that has to be a minimum standard 
so that the Border Patrol agents know that when they are 
putting their lives on the line that there is going to be a 
penalty for assaulting, and as there should be for any law 
enforcement officers anywhere in the United States.
    Turning quickly to Federal park lands, can you give us an 
indication of--you know, the--I don't think a lot of people 
realize that there is a restriction for Border Patrol agents in 
those circumstances. Can you give us some information from your 
viewpoint on how that affects the ability of the Federal 
Government to safeguard the border?
    Mr. McCraw. Yes. There are several pockets of refuges along 
the Rio Grande River that--to protect wildlife, and what they 
end up doing is often protect the cartels or smugglers because 
they are havens for hiding. Plus, because Border Patrol, they 
are allowed access; they are just not allowed to build 
infrastructure or use some of their tools to use to be able to 
pursue smugglers and traffickers within those areas.
    Hence, they may take an hour to get to a location that 
could take 10 minutes. So they are not allowed to build the 
type of infrastructure you would expect other parts of the 
border. So we are hopeful that that will be addressed at some 
point.
    Mr. Perry. So it sounds like if we are serious about 
securing the border something has gotta change there, right?
    Mr. McCraw. Change, and Judge had a very good point. Salt 
cedar and carrizo cane, it is a drought weed and it sucks the 
water out but it also is a security risk to Border Patrol 
agents and those trying to defend that, and also it works for 
the cartels.
    Mr. Perry. Right.
    OK, Sheriff Wilmot, very quickly, the Operation Stonegarden 
program and your trouble getting money through FEMA is 
something I would like to--you to elaborate on, and also the 
reimbursement of your SCAAP funding, and as you put--to non-
sanctuary cities, which I think it is important to note, at 
least I get from this, is that sanctuary cities are receiving 
SCAAP money, so they are inviting, essentially, people to be in 
their city illegally, but also getting Federal funds in that 
regard. Is that correct, or--if you can elaborate?
    Sheriff Wilmot. What we wanted to get across is if you do 
have an entity that runs a jail, that supports that, then that 
funding should be given to those other entities that run the 
jail that are actually doing the job for SCAAP.
    I will tell you that we still need to get 100 percent 
reimbursement on that, as well as the medical costs associated 
with it, because I can't put in for an individual who I have to 
take to dialysis three times a week. That is impacting my 
budget at over $100,000 just for one person. I have got 117 
backpackers that went through my jail, of which I still have 
        19.
    I sent a bill to the attorney general of the United States 
last year because of the policies that went into effect on not 
prosecuting these individuals. I cross-deputized Border Patrol 
agents in DEA so they would be able to get these cases taken 
where normally anybody would get charged.
    So I am eating the housing, I am eating the cost of that. 
To this point attorney general owes me $1.8 million just for 
housing those.
    Mr. Perry. Sheriff, does the government south of you, the 
national government south of you, do they spend as--anywhere 
near the resources or have the same diligence that you have in 
patrolling the border from their people going northward?
    Sheriff Wilmot. To answer your question in regards to Yuma 
County, I will tell you that we have great cross-border 
communication with our law enforcement counterparts. We work 
together a lot in regards to promoting the quality of life and 
safety of our communities on both sides of the border, and that 
is why we were able to do what we did to curb that criminal 
enterprise from doing what they were doing in 2005, 2006, so--
--
    Mr. Perry. I mean, I get the perception that the Mexican 
government doesn't feel as strongly about Border Patrol, at 
least, or controlling the border north of the border, that--as 
we do. I don't know if that is accurate or not, but I get that 
perception.
    My concern is all the American taxpayers are paying for 
this, and you are out the money because you are providing the 
service and the American taxpayers really can't afford to pay 
for it. But what is the government to the south doing to help, 
from a financial standpoint or from a tactical standpoint?
    Mr. Chairman, my time has expired.
    But that is something if you could elaborate throughout 
your conversation I would love to hear it. Thank you.
    Chairman McCaul. Would you like to respond to that, sir? 
Would you like to respond, or no?
    Sheriff Wilmot. Whatever you are comfortable with, sir.
    Chairman McCaul. If you would like to respond I would give 
you that time.
    Sheriff Wilmot. I will tell you that we in Arizona have a 
great cross-border communication with our law enforcement 
counterparts to--even through the PISA program, Policia 
Internacional Sonora and America law enforcement, where those 
entities come across the border, we do training together, we 
cover the problems that we are encountering in our geographic 
locations.
    To a certain extent they are doing what they can with what 
they have.
    Chairman McCaul. Chair recognizes Mr. Vela.
    Mr. Vela. To follow up on that, Sheriff Wilmot, that kind 
of cooperative arrangement that you have with your counterparts 
on the Mexican side of the border, that is why it is important 
to have a positive and productive relationship with our 
neighbors to the south, right?
    Sheriff Wilmot. I would agree with you 100 percent. You 
have to have that open line of communication.
    Mr. Vela. Thank you.
    Colonel McCraw, you made some reference to the expenditure 
of State funds along the border and how it might have impacted, 
for example, traffic deaths in other parts of the State and 
maybe--and perhaps affected other areas of responsibility that 
the Department of Public Safety would have had. Can you 
elaborate or tell us specifically how you think the diversion 
of funds to the border has affected those other 
responsibilities?
    Mr. McCraw. Well, to begin with, we weren't over-staffing. 
We are understaffed for the number of troopers that we need, 
based upon the State's growth. Over the last 10 years we have 
nearly 28 million people and we have over 313,000 miles of 
roadway. For us to be able to do proactive, high-visibility 
patrols we need a certain amount of troopers in each sergeant 
area.
    What we had to do, because of the influx and because of the 
mission we have been given, is to surge troopers from around 
the State--doesn't matter whether it is from Perryton--and that 
is, by the way, that is 14 hours away from the border, OK--
Texas, or from Dallas, move them down there on a day, work 7 
days straight, 12- to 14-hour days, go back home, and continue 
that cycle month after month and wave after wave. We have been 
doing that for 2.5 years.
    So any time you move a trooper or a Texas ranger, as we 
have, or a special agent who was engaged in these enterprise 
investigations targeting gangs, to the border to be able to 
support Border Patrol there are consequences to it.
    Now, the advantages are--because at the end of the day most 
of the trafficking is coming right at the border, so there is 
some positive impact in terms of the rest of the State. But it 
still makes it less safe in other parts where we take those 
resources from.
    Mr. Vela. So have you seen a direct correlation to this 
diversion of State funds to the border with respect to traffic 
deaths, or----
    Mr. McCraw. I can't say it is causal right now. I can see 
correlations, but I just can't say that it is enough right now 
we could make that causal determination.
    I know just from the--talking to sheriffs in other parts of 
the State, when there are less troopers in that area, you know, 
they believe that it is less safe in that area. I don't 
disagree.
    Mr. Vela. So I am just curious. Have we seen an increase or 
a decrease in highway traffic deaths?
    Mr. McCraw. Increase in highway deaths across Texas. It is 
not just in terms of the rural area, but urban areas, as well, 
we have had increased fatalities.
    Mr. Vela. Thank you, Colonel.
    Judge Trevino, I have got two questions and about 3 
minutes. The first question: With respect to the Weir Dam, how 
would that environmentally impact, from either a flood control 
standpoint, you know, the area that we live in, and what would 
be the impact from a security standpoint?
    Judge Trevino. Well, my understanding, Congressman, is that 
after decades of studying, the environmental impact would be 
minimal at best. As you know, Brownsville is the last stop on 
the Rio Grande before it empties out into the Gulf of Mexico, 
and because of the rapid growth that we have had on both sides 
of the border from El Paso south, everybody on the border 
utilizes the Rio Grande as their source for water.
    Since we are the last stop it was a concern years ago that 
if the river was to ever run dry--and in certain areas of the 
State there are trickles--we would be in a bad, bad situation. 
Brownsville was very progressive in developing a reverse 
osmosis by the utilization of brackish groundwater so that the 
Brownsville community is no longer completely reliant on the 
river.
    The Weir proposal would obviously raise the water level. It 
would not impact the water table, which was a--which was 
initially a concern, and it would allow the flood control 
situation to be utilized in the event of we ever had a 
shortage.
    Lake Amistad and Lake Falcon, which is where we basically--
that is our reserve system, it was developed back, I believe, 
in the 1950's, and the long-term goal was it would get 
replenished by Mother Nature any time we ever had a natural 
disaster. As for growth, no one foresaw the growth on both 
sides of the border and its impact, so we have had to be more 
progressive as far as that goes.
    Mr. Vela. One last question: So what is life like for the 
96,000 winter Texans mostly from the Midwest that are living in 
the Rio Grande Valley right now?
    Judge Trevino. It is safe to say that those winter visitors 
are our lifeblood during the winter months. They bring, first 
of all, a lot of resources. They spend their money in the 
valley.
    But more than anything, they are a complete asset to our 
area. Many of them are from the Midwest--Minnesota, Iowa, all 
those States--and they have been a huge, huge asset. They spend 
their money, they go to Mexico on a daily basis to shop and to 
receive medical care and eat. They spend their money buying 
refrigerators and cars and the consumable goods that we all 
rely on.
    Their impact, on an economic basis, is huge, and not just 
on the United States side but obviously on the Mexican side. If 
it was--if there was any chaos or danger down there they 
wouldn't keep coming in those numbers that continue to grow 
every--each and every year.
    Mr. Vela. Well, thank all four of you for being with us 
today.
    Chairman McCaul. Chair recognizes Mr. Hurd, from Texas.
    Mr. Hurd. Thank you, Mr. Chairman.
    Gentlemen, appreciate you all being here today.
    You know, Director McCraw, Sheriff Martinez, and Judge 
Trevino, you have helped educate me on this issue.
    Sheriff Wilmot, your testimony today has given me three or 
four things that I didn't know about before, so thank all of 
y'all.
    My first question is to the two sheriffs.
    Maybe, Sheriff Martinez, you first. We talked about 
Stonegarden, and Sheriff Wilmot, in his remarks, talked about 
moving those funds back to DHS from FEMA. Is there other uses 
of--Stonegarden is restrictive in how you can use those funds. 
Are there other areas where you--where currently right now you 
can't use Stonegarden funds that you wish you could?
    Sheriff Martinez, let's start with you, and then Wilmot.
    Director, I am sure you have some opinions, too.
    Sheriff Martinez. I think on the Stonegarden funds there 
has to be a little bit of flexibility. Border Patrol, DPS, 
every sheriff is short on manpower. We are talking about hiring 
all kinds of people, so I would like to see that same 
opportunity extended to the sheriffs to be able to hire 
manpower to support securing our border.
    Mr. Hurd. Sheriff, that is because right now you can only 
use Stonegarden funds to pay overtime, is that correct? You 
would like to be able to use those initial funds for the first-
year salary or something like that?
    Sheriff Martinez. Yes, sir. Correct.
    Mr. Hurd. Excellent.
    Mr. McCraw. Congressman, I have been listening to the 
sheriffs talk about this for a good 7 years. I mean, what is 
frustrating, they can only eat so much overtime. We can give 
them all the overtime in the world; they have got only so many 
deputies.
    For them to be--to use that money, if you would allow them 
to use it, OK, as an agreement up front that this is only as 
long as the money is there, a deputy--now they--now all of a 
sudden they have got an increase of resources in the area, and 
that is better for Border Patrol, that is certainly better for 
the State, as well. There is value in that investment.
    So there are other funding streams that are far more 
flexible that Stonegarden funds, although we like what DHS did 
with that, you know, being allowed to at least let them use. Of 
course, the State doesn't benefit at all. We don't get any use 
of it. The Stonegarden funds aren't allocated for State police 
agencies.
    Mr. Hurd. Sheriff Wilmot, you have some opinions?
    Sheriff Wilmot. Yes, sir, I do, and I will be more than 
happy to throw those in there.
    In regards to Operation Stonegarden, obviously it is labor-
intensive just doing the reporting requirements as well as the 
purchasing of the equipment that we need. It also restricts the 
type of equipment that you need going through FEMA.
    Another thing is in regards to Stonegarden is that you can 
only use so much for overtime and then you have to use so much 
for equipment and then so much for mileage on your vehicles. So 
it is broken down then you can't change the percentage at all. 
So it is something that--and this is the one true grant that 
actually comes to the sheriffs to actually allocate out to 
local law enforcement as--at least in Arizona--as well as share 
with other counties along our borders, and the State as well, 
if they can help complement our operations.
    So that is where we need to keep it. DHS is more qualified 
to say, ``Yes, this type of equipment is what we need for this 
location,'' because again, we can't paint that broad brush 
across the whole border, so----
    Mr. Hurd. Good. Thank you.
    Director McCraw, my next question is for you. When I got 
elected and came in last Congress we had a lengthy debate about 
what operational control of the border actually means. You 
know, in your materials you provided the Texas border security 
levels, and I have always fought to use DPS' perspective on 
what operational control means because of all the arguments and 
conversation I have had on this it seems to be the most 
thoughtful.
    So first question is, you know, have you seen reticence in 
some of our--your Federal partners in adopting a similar 
framework? Do your partner States have a similar--do your peer 
organizations have a similar perspective on what operational 
control of the border means?
    Mr. McCraw. I don't believe that is the case right now, but 
we have been working with our legislature and the Governor's 
office to be able to do this, to be able to have some 
standards, so--and I have, you know, frankly, have not looked 
at some of our peers.
    We have looked at our Federal partners. You go back with a 
GAO study back to the 1990's and it is the same thing all over 
again. You can't use the number of illegal aliens to predict 
success and failure. You have to come up with something more 
substantive.
    Technology has allowed us to do that. Now we can actually 
identify and track out and map the level of security. So the 
focus that we have come up with is just simply figure out what 
those levels of security are, agree upon what those variables 
are, county those variables, crack them.
    The point with evidence is that unless you can prove it 
then there is no way to be able to justify that--saying that we 
are at this point or that point. So you have got to be able to 
prove it, too. You can't just say--declare, ``I am 
operationally in control.''
    The only way to do--an advantage we have right now is, like 
I said before, GPS will allow you to do that--both the 
infrastructure, both in terms of technology, the coverage 
level, and your interdiction capacity.
    Mr. Hurd. Excellent. Well, thank you for your leadership on 
this topic, and we need you to keep talking about this because, 
again, as we get into those debates again up here we need to 
have a common--we need to be speaking the same language.
    I have run out of time, but one thing that I will be 
following up with all of y'all about is intelligence sharing 
and how do we improve that, how do we make sure that we are 
able to extend our defenses? Because let's stop the problem 
before they get to our borders, or if we know something is 
imminent and, you know, y'all are going to be the ones that get 
called first, not Border Patrol, whenever there is a problem. 
So making sure y'all have access to information and how we can 
improve that is something I would look forward to talking with 
y'all about in the future.
    So, Mr. Chairman, I yield back.
    Chairman McCaul. Chair recognizes Mrs. Watson Coleman.
    Mrs. Watson Coleman. Thank you. Thank you, Mr. Chairman.
    Judge Trevino.
    Judge Trevino. Yes, ma'am?
    Mrs. Watson Coleman. Did I say that properly?
    Judge Trevino. You sure did.
    Mrs. Watson Coleman. Good. Thank you. I have a couple of 
questions for you first.
    You have been pointed out that--you have pointed out that 
Cameron County owns three international bridges and you have 
described how critical cross-border trade is to your economy 
and how important that cross-border travel is to your 
constituents as they go about their daily lives.
    How have CBP staffing shortages at ports of entry affected 
bridges in your county? Have they--these shortages resulted in 
increased wait times at the bridges? What more should the 
Federal Government do to support cross-border commerce and 
trade?
    Judge Trevino. I would love to be able to tell you, 
Congresswoman, that there has been no impact, but that wouldn't 
be accurate. The reality that is you just hit the nail on the 
head.
    Because of the shortages of CBP personnel the lines can be 
much longer. It is not unusual for many people to live in 
Brownsville and work in Matamoros or live in Matamoros and work 
in Brownsville. There are numerous cross-border businesses and 
industries that rely on each other, so the fact that if 
somebody is going over there for work, well, they are 
probably--they are--they kind-of have to do it. But for those 
that are looking to either more of a recreational, whether it 
is to eat, shop, dine, or receive health care on either side, 
the reality is we will have less and less of those cross--we 
have had that in the impact.
    I am not going to sit here and tell you that the cartel 
violence in Mexico didn't have an impact, but the reality is 
things have calmed down, and I think that is exactly why the 
cooperation between our two countries at the National level is 
critical because at the local level that is what needs to be 
done, and that is what the local law enforcement--they rely on 
their counterparts on the Mexican side and vice versa, whether 
it is locating an individual who wants to be--or is under 
indictment or charged with a particular serious crime, whatever 
it may be.
    But obviously staffing levels need to be at a--at the rate 
where the wait times are as minimal as possible without 
sacrificing security and surveillance. But it would also allow 
more opportunity to catch those individuals that are crossing 
at our ports of entry that are either crossing illicit drugs or 
merchandise or whatever the case may be.
    Mrs. Watson Coleman. So what is that you would tell the 
Federal Government that you think that it should support or do 
in order to support and sustain and ensure that there is this 
sort of cross-border trade and travel that is both sufficient 
for the economy and safe for the communities?
    Judge Trevino. In addition to increasing the staffing----
    Mrs. Watson Coleman. Yes.
    Judge Trevino [continuing]. As we alluded to earlier, we 
would also heavily request a reinvestment in our 
infrastructure. While the county owns the bridge, all the 
facilities on there are owned by the Federal Government. The 
Gateway Bridge, for in particular, was opened in 1960. There 
has been literally no reinvestment or upgrade since that time 
frame to the present.
    We moved all the truck traffic from the Gateway Bridge over 
to another bridge, Veterans Bridge, and because of that some of 
the facilities at the Gateway are basically just sitting there. 
If we were to open up additional lanes of travel--I did a--we 
did a recent trip to El Paso. We have one pedestrian lane at 
Gateway for the entire--for all three bridges. Last year we had 
over 2 million people crossing with that one particular lane.
    In El Paso, which at one bridge has 14 lanes--it looked 
like an airport to me--they have 5 million. They have got 14 
lanes just at one bridge, and I believe they have seven ports 
of--seven bridges.
    So I know that it would generate a lot more revenue at the 
local basis, and also allow us to enhance the relationship 
between our border communities.
    Mrs. Watson Coleman. Thank you.
    A very quick question, if you might answer, to the three 
gentlemen, Mr. McCraw, Mr.--Sheriff Martinez, and Mr. Wilmot. 
My question has to do with the proposed wall. Do you believe 
that the proposed wall is the best utilization of resources to 
keep our borders protected in the areas that you represent and 
are concerned with?
    I will start with you, Mr. McCraw.
    Mr. McCraw. Yes, ma'am. As I indicated before, a wall----
    Mrs. Watson Coleman. I apologize for not being here.
    Mr. McCraw. No, not at all. But a wall in itself is an 
obstacle, not a barrier. It takes a combination of things.
    I will go along with--I think Secretary Kelly did a very 
good job today explaining that, you know, in some places he 
noted--and you get out to Big Bend Country, you have, in 
effect, a barrier out there already, a natural barrier. How do 
you exploit technology, how do you exploit resources on top of 
that?
    So it is not one thing for one area. It changes. As the 
Judge Trevino notes very well, in Cameron County, you get out 
to Boca Chica, you build a wall, doesn't make sense. There is 
Lake Amistad--very good point today by one of the Congressman--
doesn't make sense.
    Every place is different. But one thing is in mind: You 
need a barrier between the ports of entry.
    Mrs. Watson Coleman. Thank you.
    I have exceeded my time, if I could simply get my questions 
answered from Mr. Martinez and----
    Mr. Duncan [presiding]. Gentlelady's time is expired.
    We will now go to Mr. Rutherford, from Florida.
    Mrs. Watson Coleman. So you are not extending that very 
short request and indulgence? I just want to make sure I 
understand that.
    Mr. Duncan. I will allow them to answer your question.
    Mrs. Watson Coleman. Thank you. Thank you.
    Sheriff Martinez. A fence in and of itself is not the only 
answer. Del Rio and Ciudad Acuna are separated by a fence, a 2-
mile fence, that has made our side of the border a little bit 
safer when it comes to property crimes. It has rerouted 
everything to the outside of that fence. But in and of itself 
it is not the answer.
    Thank you.
    Sheriff Wilmot. Ms. Congresswoman, in regards to that 
question Yuma County has 110.5 miles of border with Mexico. 
Most of it is fenced. Other areas that cannot be fenced already 
have vehicle barriers.
    I will tell you that once that was put into place the 
humanitarian side of that, preventing the deaths in the desert, 
has stopped. We are very minimal on that.
    I have had to go out there and process 14 victims that were 
left for dead on one occasion when it was 115 degrees out. I 
don't think anybody wants to experience what we have had to see 
as law enforcement when we have to go out there and process 
those victims that have been abandoned and died. But 14 all at 
once, just a travesty. To see them and what they went through, 
and to see a fence go up and prevent that, to me what is the 
cost of a life?
    Mr. Duncan. Thank the gentlelady.
    Chair will now recognize Mr. Rutherford, from Florida.
    Mr. Rutherford. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your testimony today. I want to 
ask something a little more away from the border and back into, 
I think, the interior of the country.
    The 287(g) program, can you give me your experience and 
position on how effective 287(g) has been at the border and 
then further away from the border? Is it well utilized within 
law enforcement? Is that your experience?
    Mr. McCraw. Congressman, it depends on the agency. It 
depends on the locale. It certainly works very well in jails--
in large jails where there is a criminal alien population and 
they train individuals to look and identify and be able to 
curry some of the Federal databases to identify that, and that 
is always helpful when they get the hit on the secure 
committees or a priority hit through fingerprints.
    Certainly from an investigative standpoint when we used to 
work terrorists it was an advantage--or drug traffickers--it 
was an advantage having a legacy INS expert, you know, on the 
team that would help you in many ways or shape or form. But it 
is each individual jurisdiction needs to make that decision.
    Sheriff Martinez. I know that in Val Verde County we have a 
jail population 1,200-plus, ICE is in our jails every day, so 
detainers are honored in our facility.
    Sheriff Wilmot. In regards to your question, Congressman, 
the--in regards to the 287(g), we participated in it at one 
time, but I can't use taxpayer funding to do the Federal job. 
So it was only on a overtime basis if they had the moneys to be 
able to pay our officer on overtime to perform that function.
    What we have done in Yuma, because they are right there 
working with us, is they have access to our facility and they 
can screen through all those documents, and they placed a hold 
on--the question for the sheriffs throughout the United States 
that do not have that ability to have a 2-hour response or a 
hour response for someone to come pick them up is by what legal 
ability are they able to honor the detainers. That is our 
biggest concern, as far as sheriffs across the whole United 
States who are impacted with--they don't have that privilege of 
ICE ERO being in our counties.
    So we release them into them, but it is very seldom because 
most of them leave our jails and go to prison.
    Judge Trevino. Congressman, I wish I had a better answer 
for you but I don't believe our local sheriff's department is 
still involved in that. But I would have to get a better answer 
for you. I wish I could tell you that right now.
    Mr. Rutherford. Thank you, gentleman.
    Mr. Chairman, I yield back.
    Mr. Duncan. Chair thanks the gentleman and now recognize I 
think the last Member, the gentlelady from California, Ms. 
Barragan, 5 minutes.
    Ms. Barragan. Thank you. Mr. Chairman, I would like to ask 
for unanimous consent that a statement prepared by the American 
Immigration Council be submitted for the record.
    Mr. Duncan. Without objection, so ordered.
    [The information follows:]
             Statement of the American Immigration Council
                            February 7, 2017
    The American Immigration Council (Immigration Council) is a non-
profit organization which for over 25 years has been dedicated to 
increasing public understanding of immigration law and policy and the 
role of immigration in American society. We write to share our analysis 
and research regarding an unnecessary border wall and the already 
massive investment that has already been made along the Southwest 
Border.
                           what have we spent
    Since the last major overhaul of the U.S. immigration system in 
1986, the Federal Government has spent an estimated $263 billion on 
immigration enforcement.\1\ As discussions with a new President and 
Congress start to focus on what immigration enforcement and border 
security should look like it is important to review how much money has 
already been spent on these initiatives and what outcomes have been 
produced.
---------------------------------------------------------------------------
    \1\ See American Immigration Council, Giving the Facts a Fighting 
Chance: Addressing Common Questions on Immigration (Washington, DC: 
December 2015), 16, https://www.americanimmigrationcouncil.org/
research/addressing-common-questions-immigration; U.S. Department of 
Homeland Security, Budget-in-Brief, FY 2017, 17, https://www.dhs.gov/
publication/fy-2017-budget-brief.
---------------------------------------------------------------------------
    Immigration enforcement spending (further detailed in Attachment A) 
largely falls into two issue areas: Border security and interior 
enforcement. Border spending includes staffing and resources needed for 
U.S. Customs and Border Protection (CBP), an agency of the Department 
of Homeland Security (DHS) working at and between United States ports 
of entry. Interior enforcement is primarily focused on staffing and 
resources for U.S. Immigration and Customs Enforcement (ICE), also part 
of DHS, to apprehend noncitizens in the interior of the country, 
detention for those undergoing removal proceedings, and the deportation 
of those ordered removed.
    Currently, the number of border and interior enforcement personnel 
stands at more than 49,000.\2\ The number of U.S. Border Patrol agents 
nearly doubled from fiscal year 2003 to fiscal year 2016.\3\ 
Additionally, the number of ICE agents devoted to its office of 
Enforcement and Removal Operations (ERO) nearly tripled from fiscal 
year 2003 to fiscal year 2016.\4\
---------------------------------------------------------------------------
    \2\ See American Immigration Council, Giving the Facts a Fighting 
Chance: Addressing Common Questions on Immigration (Washington, DC: 
December 2015), 18, https://www.americanimmigrationcouncil.org/
research/addressing-common-questions-immigration.
    \3\ U.S. Government Accountability Office, ``U.S. Customs and 
Border Protection: Review of the Staffing Analysis Report under the 
Border Patrol Agent Reform Act of 2014,'' May 2016, http://www.gao.gov/
assets/680/677475.pdf.
    \4\ U.S. Department of Homeland Security, ``Congressional Budget 
Justification'', Fiscal Year 2016, https://www.dhs.gov/sites/default/
files/publications/FY%202017%20Congress- 
ional%20Budget%20Justification%20-%20Volume%202_1.pdf.
---------------------------------------------------------------------------
    What has this spending bought? The United States currently has over 
650 miles of fencing along the Southern Border, record levels of staff 
for ICE and CBP, as well as a fleet of drones--among other resources. 
Some of these resources have been spent on ill-conceived projects, such 
as the $1 billion attempt to construct a ``virtual fence'' along the 
Southwest Border, a project initiated in 2005 that was later scrapped 
for being ineffective and too costly.\5\
---------------------------------------------------------------------------
    \5\ Julia Preston, ``Homeland Security Cancels `Virtual Fence' 
After $1 Billion is Spent,'' New York Times, January 2011, http://
www.nytimes.com/2011/01/15/us/politics/15fence.html.
---------------------------------------------------------------------------
    All of these efforts that have accumulated in the name of security, 
however, do not necessarily measure border security.\6\ It is past time 
for the United States to focus on metrics that actually assess 
achievements and progress on security.\7\ DHS lacks transparent, 
consistent, and stable metrics for evaluating border enforcement. 
Before deciding how to address border security, Congress should require 
clear reporting on metrics from DHS.\8\ Such metrics would better allow 
Congress and the public to hold the immigration agencies accountable 
and assess whether and what additional resources are needed (or not 
needed) to secure our border.
---------------------------------------------------------------------------
    \6\ Bipartisan Policy Center, ``Measuring the Metrics: Grading the 
Government on Immigration Enforcement,'' February 2015, http://
bipartisanpolicy.org/library/measuring-the-metrics-grading-the-
government-on-immigration-enforcement/.
    \7\ Ibid.
    \8\ Ibid.
---------------------------------------------------------------------------
                 what have we built and what do we need
    For generations, politicians have talked about constructing a 
border wall. The fact is that (as further detailed in Attachment B) 
building a fortified and impenetrable wall between the United States 
and Mexico might make for pithy sound bites, but in reality it is 
unnecessary, complicated, ineffective, expensive, and would create a 
host of additional problems.
    The Government Accountability Office found that single-layer 
pedestrian fencing could cost approximately $6.5 million per mile. In 
addition, millions would have to be spent on roads and maintenance.\9\ 
The easiest parts of the border fence have been built, according to 
Marc Rosenblum, formerly of the Migration Policy Institute and the 
current DHS Deputy Secretary of the Office of Immigration 
Statistics.\10\ The estimated cost of the remaining border wall 
segments are between $15 and $25 billion, with each mile of fencing 
costing $16 million.\11\
---------------------------------------------------------------------------
    \9\ Government Accountability Office, ``Secure Border Initiative 
Fence Construction Costs,'' January 2009, available at, http://
www.gao.gov/new.items/d09244r.pdf.
    \10\ Kate Drew, ``This is What Trump's Border Wall Could Cost,'' 
CNBC, available at, http://www.cnbc.com/2015/10/09/this-is-what-trumps-
border-wall-could-cost-us.html.
    \11\ Id.
---------------------------------------------------------------------------
    According to the fiscal year 2017 DHS budget, $274 million was 
spent on border fence maintenance.\12\ Based on that expense, one can 
extrapolate that if fencing is built on the final two-thirds of the 
Southern Border, the maintenance costs will triple to more than $750 
million annually. In fiscal year 2006, appropriations for building and 
maintaining border infrastructure was $298 million, and then jumped to 
$1.5 billion in fiscal year 2007 to pay for the fencing mandated in the 
Secure Fence Act.\13\ Fiscal year 2016 appropriations were $447 
million.\14\
---------------------------------------------------------------------------
    \12\ Department of Homeland Security, ``Fiscal Year 2017 
Congressional Budget Justification, Volume 1,'' February 2016, 
available at, https://www.dhs.gov/sites/default/files/publications/
FY%202017%20Congressional%20Budget%20Justification%20%20Volume%201_1.pdf

    \13\ Carla Argueta, ``Border Security: Immigration Enforcement 
Between Ports of Entry,'' Congressional Research Service, April 2016, 
available at, https://fas.org/sgp/crs/homesec/R42138.pdf.
    \14\ Id.
---------------------------------------------------------------------------
    Outgoing Commissioner of U.S. Customs and Border Protection (CBP) 
Gil Kerlikowske said in January 2017, ``I think that anyone who's been 
familiar with the southwest border and the terrain . . . kind of 
recognizes that building a wall along the entire southwest border is 
probably not going to work,'' adding that he does not ``think it is 
feasible'' or the ``smartest way to use taxpayer money on 
infrastructure.''\15\
---------------------------------------------------------------------------
    \15\ Brian Ross, Brian Epstein, and Paul Blake, ``Retiring Border 
Chief Calls Trump's Wall a Waste of Time, Money,'' ABC News, January 
2017, available at, http://abcnews.go.com/Politics/trumps-border-wall-
waste-time-money-retiring-border/story?id=44978156.
---------------------------------------------------------------------------
    The head of the National Border Patrol Council, a union 
representing 16,000 Border Patrol agents which endorsed President Trump 
during his campaign, said, ``We do not need a wall along the entire 
2,000 miles of border.''\16\ He went on to say, ``If I were to quantify 
an actual number, I would say that we need about 30 percent. Thirty 
percent of our border has to have an actual fence [or] wall.''\17\ The 
existing 650 miles make up more than 30 percent of the 2,000-mile 
border.
---------------------------------------------------------------------------
    \16\ Morning Edition, Border Patrol Agents' Union Confers with 
Trump on Securing the Border, National Public Radio, November 2016, 
available at, http://www.npr.org/2016/11/17/502402360/border-patrol-
agents-union-confers-with-trump-on-securing-the-border.
    \17\ Id.
---------------------------------------------------------------------------
    According to an internal U.S. Government study obtained by Reuters 
in April 2016, CBP believes that more technology is needed along the 
border to create a ``virtual wall.'' The agency requested better radios 
and more aerial drones, but only 23 more miles of fences.\18\
---------------------------------------------------------------------------
    \18\ Julia Harte, ``No Wall, But More High-Tech Gear, Fencing 
Sought by U.S. Border Agents, Reuters, January 2017, available at, 
http://www.reuters.com/article/us-usa-immigration-fence-exclusive-
idUSKCN0XP28J.
---------------------------------------------------------------------------
             border security is about more than enforcement
    While today's hearing is focused on enforcement along our Southern 
Border, the Immigration Council concerns about the border go far beyond 
concerns related to further militarization of our Nation's borders. The 
Immigration Council promotes the development of immigration policies 
that reflect our proud history as a nation of immigrants that respects 
fundamental principles of fairness and due process. To that end, our 
report, A Guide to Children Arriving at the Border: Laws, Policies and 
Responses, provides information about the tens of thousands of 
children--some traveling with their parents and others alone--who have 
fled their homes in Central America and arrived at our Southern Border 
and why the current enforcement only response to their arrival is the 
wrong approach.\19\ As described in the Guide, unaccompanied children 
and families are still fleeing Central American violence in large 
numbers. Organized crime, gangs, and violence are driving children, 
families, women, and men out of their home towns and countries, a 
situation detailed in the report, Understanding the Central American 
Refugee Crisis: Why They are Fleeing,\20\ and the paper, No Childhood 
Here: Why Central American Children Are Fleeing Their Homes.\21\ These 
arriving children, families, and others from the region have been 
apprehended, detained in poor conditions, and rushed through removal 
proceedings with little due process.\22\ As noted in our report, 
Detained Deceived and Deported: Experiences of Recently Deported 
Central American Families many have been deported back to the dangerous 
circumstances from which they originally fled.\23\
---------------------------------------------------------------------------
    \19\ ``A Guide to Children Arriving At the Border: Laws, Policies 
and Responses,'' American Immigration Council, June 2015, available at, 
https://www.americanimmigrationcouncil.org/research/guide-children-
arriving-border-laws-policies-and-responses.
    \20\ Jonathan T. Hiskey, Ph.D., Abby Cordova, Ph.D., Diana Orces, 
Ph.D. and Mary Fran Malone, Ph.D., ``Understanding the Central American 
Refugee Crisis: Why They are Fleeing and How U.S. Policies are Failing 
to Deter Them, American Immigration Council, February 2016, available 
at, https://www.americanimmigrationcouncil.org/research/understanding-
central-american-refugee-crisis.
    \21\ Elizabeth Kennedy, ``No Childhood Here: Why Central American 
Children are Fleeing Their Homes,'' American Immigration Council, July 
2014, available at, https://www.americanimmigrationcouncil.org/
research/no-childhood-here-why-central-american-children-are-fleeing-
their-homes.
    \22\ Deplorable Medical Treatment at Family Detention Centers, 
American Immigration Council, July 20, 2016, available at, https://
www.americanimmigrationcouncil.org/news/deplorable-medical-treatment-
family-detention-centers.
    \23\ Guillermo Cantor, Ph.D. and Tory Johnson, ``Detained Deceived, 
and Deported: Experiences of Recently Deported Central American 
Families, American Immigration Council, May 2016, available at, https:/
/www.americanimmigrationcouncil.org/special-reports/deported-central-
american-families.
---------------------------------------------------------------------------
    Further, CBP and ICE have a serious and long-standing problem with 
handling the personal belongings of detained migrants in their custody. 
Too often, some or all of a detainee's belongings are lost, destroyed, 
or stolen by the immigration-enforcement agents entrusted with their 
care. DHS has attempted to correct this problem through two policy 
changes, however, these policy shifts have yet to bear fruit. As our 
report, Deported with No Possessions: The Mishandling of Migrants' 
Personal Belongings by CBP and ICE, shows detainees from Mexico are 
still just as likely to have their property retained and not returned 
as they were before DHS implemented the new policies.\24\ CBP has also 
been in the spotlight for its questionable practices regarding the 
treatment of migrants in its holding facilities near the U.S.' Southern 
Border. Each year, hundreds of thousands of individuals are held in 
these facilities, which are meant to hold individuals for a short time 
and are not designed for overnight custody, and yet they are routinely 
used in this way. Government records analyzed in the report, Detained 
Beyond the Limit: Prolonged Confinement by U.S. Customs and Border 
Protection Along the Southwest Border, contain information on length of 
detention for all Border Patrol sectors along the U.S.' Southwest 
Border, reveal that individuals are frequently held for days and 
sometimes even months in such facilities.\25\ The American Immigration 
Council hopes that the committee will not just look at enforcement 
along our Southern Border but look to address these issues as well.
---------------------------------------------------------------------------
    \24\ Walter Ewing, Ph.D. and Guillermo Cantor, Ph.D., ``Deported 
with No Possessions: The Mishandling of Migrants Personal Belongings by 
CBP and ICE,'' American Immigration Council, December 2016, available 
at, https://www.americanimmigrationcouncil.org/research/deported-no-
possessions.
    \25\ Guillermo Cantor, Ph.D., ``Detained Beyond the Limit: 
Prolonged Confinement by U.S. Customs and Border Protection along the 
Southwest Border,'' August 2016, available at, https://
www.americanimmigrationcouncil.org/research/prolonged-detention-us-
customs-border-protection.
---------------------------------------------------------------------------
    Border security depends on the smart and efficient use of available 
resources. At the same time, border enforcement cannot and should not 
be done in isolation. Instead, it must be examined in the larger 
context of reforms needed for the entire immigration system.
                              ATTACHMENT A
        the cost of immigration enforcement and border security
    Since the last major overhaul of the U.S. immigration system in 
1986, the Federal Government has spent an estimated $263 billion on 
immigration enforcement.\26\ As discussions with a new President and 
Congress start to focus on what immigration enforcement and border 
security should look like it is important to review how much money has 
already been spent on these initiatives and what outcomes have been 
produced.
---------------------------------------------------------------------------
    \26\ See American Immigration Council, Giving the Facts a Fighting 
Chance: Addressing Common Questions on Immigration (Washington, DC: 
December 2015), 16, https://www.americanimmigrationcouncil.org/
research/addressing-common-questions-immigration; U.S. Department of 
Homeland Security, Budget-in-Brief, Fiscal Year 2017, 17, https://
www.dhs.gov/publication/fy-2017-budget-brief.
---------------------------------------------------------------------------
    Immigration enforcement spending largely falls into two issue 
areas: Border security and interior enforcement. Border spending 
includes staffing and resources needed for U.S. Customs and Border 
Protection (CBP), an agency of the Department of Homeland Security 
(DHS) working at and between United States ports of entry. Interior 
enforcement is primarily focused on staffing and resources for U.S. 
Immigration and Customs Enforcement (ICE), also part of DHS, to 
apprehend noncitizens in the interior of the country, detention for 
those undergoing removal proceedings, and the deportation of those 
ordered removed.
    Currently, the number of border and interior enforcement personnel 
stands at more than 49,000.\27\ The number of U.S. Border Patrol agents 
nearly doubled from fiscal year 2003 to fiscal year 2016.\28\ 
Additionally, the number of ICE agents devoted to its office of 
Enforcement and Removal Operations (ERO) nearly tripled from fiscal 
year 2003 to fiscal year 2016.\29\
---------------------------------------------------------------------------
    \27\ See American Immigration Council, Giving the Facts a Fighting 
Chance: Addressing Common Questions on Immigration (Washington, DC: 
December 2015), 18, https://www.americanimmigrationcouncil.org/
research/addressing-common-questions-immigration.
    \28\ U.S. Government Accountability Office, ``U.S. Customs and 
Border Protection: Review of the Staffing Analysis Report under the 
Border Patrol Agent Reform Act of 2014,'' May 2016, http://www.gao.gov/
assets/680/677475.pdf.
    \29\ U.S. Department of Homeland Security, ``Congressional Budget 
Justification'', Fiscal Year 2016, https://www.dhs.gov/sites/default/
files/publications/FY%202017%20Congressional%20- 
Budget%20Justification%20%20Volume%202_1.pdf.
---------------------------------------------------------------------------
    What has this spending bought? The United States currently has over 
650 miles of fencing along the Southern Border, record levels of staff 
for ICE and CBP, as well as a fleet of drones--among other resources. 
Some of these resources have been spent on ill-conceived projects, such 
as the $1 billion attempt to construct a ``virtual fence'' along the 
Southwest Border, a project initiated in 2005 that was later scrapped 
for being ineffective and too costly.\30\ Even with record level 
spending on enforcement, enforcement alone is not sufficient to address 
the challenges of undocumented migration.\31\ It also has significant 
unintended consequences, according to United States.\32\ All of these 
efforts that have accumulated in the name of security, however, do not 
necessarily measure border security.\33\ It is past time for the United 
States to focus on metrics that actually assess achievements and 
progress on security.\34\ DHS lacks transparent, consistent, and stable 
metrics for evaluating border enforcement. Before deciding how to 
address border security, Congress should require clear reporting on 
metrics from DHS.\35\ Such metrics would better allow Congress and the 
public to hold the immigration agencies accountable and assess whether 
and what additional resources are needed (or not needed) to secure our 
border.
---------------------------------------------------------------------------
    \30\ Julia Preston, ``Homeland Security Cancels `Virtual Fence' 
After $1 Billion is Spent,'' New York Times, January 2011, http://
www.nytimes.com/2011/01/15/us/politics/15fence.html.
    \31\ Doris Meissner, Donald M. Kerwin, Muzaffar Chishti, and Claire 
Bergeron, Immigration Enforcement in the United States: The Rise of 
Formiddable Machinery, Migration Policy Institute, January 2013, http:/
/www.migrationpolicy.org/research/immigration-enforcement-united-
states-rise-formidable-machinery.
    \32\ United States Border Patrol, Southwest Border Sectors, https:/
/www.cbp.gov/sites/default/files/assets/documents/2016-Oct/
BP%20Southwest%20Border%20Sector%20Deaths%-20FY1998%20%20FY2016.pdf.
    \33\ Bipartisan Policy Center, ``Measuring the Metrics: Grading the 
Government on Immigration Enforcement,'' February 2015, http://
bipartisanpolicy.org/library/measuring-the-metrics-grading-the-
government-on-immigration-enforcement/.
    \34\ Ibid.
    \35\ Ibid.
---------------------------------------------------------------------------
The Cost in Dollars
    The immigration enforcement budget has increased massively since 
the early 1990s, but Congress continues to call for more taxpayer 
dollars to be spent at the border.
  <bullet> Since 1993, when the current strategy of concentrated border 
        enforcement was first rolled out along the U.S.-Mexico border, 
        the annual budget of the U.S. Border Patrol has increased more 
        than ten-fold, from $363 million to more than $3.8 billion 
        (Figure 1).\36\
---------------------------------------------------------------------------
    \36\ U.S. Department of Homeland Security, ``Department Management 
and Operations, Analysis and Operations, Office of the Inspector 
General, U.S. Customs and Border Protection,'' Congressional Budget 
Justification Fiscal Year 2017-Volume I, 880, https://www.dhs.gov/
sites/default/files/publications/
FY2017CongressionalBudgetJustification-Volume_1.pdf.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  <bullet> Since the creation of DHS in 2003, the budget of CBP has 
        more than doubled from $5.9 billion to $13.2 billion per year 
        (Figure 2).\37\
---------------------------------------------------------------------------
    \37\ U.S. Department of Homeland Security, Budget-in-Brief, Fiscal 
Year 2005-2017, https://www.dhs.gov/dhs-budget.
---------------------------------------------------------------------------
  <bullet> On top of that, ICE spending has grown 85 percent, from $3.3 
        billion since its inception to $6.1 billion today (Figure 
        2).\38\
---------------------------------------------------------------------------
    \38\ Ibid.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Increases in Personnel
  <bullet> Since 1993, the number of U.S. Border Patrol agents nearly 
        doubled from 10,717 to a Congressionally-mandated 21,370 in 
        fiscal year 2016 (Figure 3).\39\
---------------------------------------------------------------------------
    \39\ U.S. Government Accountability Office, ``U.S. Customs and 
Border Protection: Review of the Staffing Analysis Report under the 
Border Patrol Agent Reform Act of 2014,'' May 2016, http://www.gao.gov/
assets/680/677475.pdf.
---------------------------------------------------------------------------
  <bullet> The number of CBP officers staffing ports of entry (POEs) 
        grew from 17,279 in fiscal year 2003 to 21,423 in fiscal year 
        2012 (Figure 3).\40\
---------------------------------------------------------------------------
    \40\ U.S. Department of Homeland Security, Congressional Budget 
Justification, fiscal year 2003 and 2012, https://www.dhs.gov/dhs-
budget.
---------------------------------------------------------------------------
  <bullet> The number of ICE agents devoted to Enforcement and Removal 
        Operations increased from 2,710 in fiscal year 2003 to 7,995 in 
        fiscal year 2016 (Figure 3).\41\
---------------------------------------------------------------------------
    \41\ U.S. Department of Homeland Security, Congressional Budget 
Justification, fiscal year 2003-2016, https://www.dhs.gov/dhs-budget.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Federal Government has already met the border security 
benchmarks laid down in earlier Senate immigration reform bills.
  <bullet> As the American Immigration Lawyers Association pointed out 
        in a January 2013 analysis, the ``benchmarks'' for border 
        security specified in the bipartisan 2006, 2007, and 2010 
        immigration-reform legislative packages in the Senate have been 
        largely met.\42\
---------------------------------------------------------------------------
    \42\ Greg Chen and Su Kim, Border Security: Moving Beyond Past 
Benchmarks (Washington, DC: American Immigration Lawyers Association, 
January 2013), http://www.aila.org/content/default.aspx?bc=25667 43061.
---------------------------------------------------------------------------
  <bullet> The requirements in those Senate bills for more border 
        enforcement personnel, border fencing, surveillance technology, 
        unmanned aerial vehicles, and detention beds have been 
        fulfilled and in many ways surpassed--an all-time high.\43\ As 
        the Homeland Security Advisory Panel noted in 2016, ICE 
        detention rose from the normal 34,000 beds to 41,000 an all-
        time high.\44\
---------------------------------------------------------------------------
    \43\ Ibid.
    \44\ Homeland Security Advisory Council, ``Report of the 
Subcommittee on Privatized Immigration Detention Facilities,'' 
Department of Homeland Security, December 1, 2016, https://www.dhs.gov/
sites/default/files/publications/
DHS%20HSAC%20PIDF%20Final%20Report.pdf; National Immigrant Justice 
Center, ``Immigration Detention Bed Quota Timeline,'' January 2017, 
https://immigrantjustice.org/sites/default/files/content-type/
commentary-item/docu- ments/2017-01/
Immigration%20Detention%20Bed%20Quota%20Timeline%202017_01_05.- pdf.
---------------------------------------------------------------------------
    Border security depends on the smart and efficient use of available 
resources. At the same, border enforcement cannot and should not be 
done in isolation. Instead, it must be examined in the larger context 
of reforms needed for the entire immigration system.
                              ATTACHMENT B
         the high cost and diminishing returns of a border wall
    For generations, politicians have talked about constructing a 
border wall. The fact is that building a fortified and impenetrable 
wall between the United States and Mexico might make for pithy sound 
bites, but in reality it is unnecessary, complicated, ineffective, 
expensive, and would create a host of additional problems.
Extensive physical barriers already exist along the U.S.-Mexico border.
  <bullet> The U.S.-Mexico border is 1,954 miles long. Border security 
        involves managing the flow of people and goods across the 
        border and preventing the illegal entry of people and goods. 
        The existing border security infrastructure includes physical 
        barriers, aerial surveillance, and technology. More than 21,000 
        Border Patrol agents--as well as other Department of Homeland 
        Security (DHS) and Department of Justice (DOJ) personnel--staff 
        ports of entry, Border Patrol stations, forward operating 
        bases, and checkpoints.
  <bullet> Current physical barriers along the U.S.-Mexico border 
        include those intended to prevent illegal border crossings by 
        foot (pedestrian fencing) and impede vehicles from smuggling 
        persons or contraband (vehicle fencing). Secondary and tertiary 
        layers of fencing further impede illegal crossings.
  <bullet> As of early 2017, approximately 650 miles of border fence 
        already exists: 350 miles of primary pedestrian fencing, 300 
        miles of vehicle fencing, 36 miles of secondary fencing behind 
        the primary fencing, and 14 miles of tertiary pedestrian 
        fencing behind the secondary fence.
  <bullet> The existing barriers include tall metal or concrete posts, 
        solid corrugated steel walls, metal fencing, and combinations 
        of these designs.
  <bullet> In addition to physical barriers, surveillance tools, 
        towers, cameras, motion detectors, thermal imaging sensors, 
        stadium lighting, ground sensors, and drones are part of the 
        vast existing infrastructure aimed at stopping the unauthorized 
        entry of people, drugs, arms, and other illicit items.
Congress acknowledged that additional physical barriers are not 
        necessary.
  <bullet> The Secure Fence Act of 2006 (Pub. L. 109-367), a law that 
        passed with bipartisan support in both the House and Senate, 
        required the construction of about 850 miles of double-layer 
        fencing along five segments of the border.
  <bullet> A few years after passage, Congress recognized that 850 
        miles of additional border fencing was not feasible or 
        necessary. In 2008, the Consolidated Appropriations Act of 2008 
        amended the 2006 law to reduce the required mileage of 
        reinforced fencing to ``not less than 700 miles of the 
        Southwest Border where fencing would be most practical and 
        effective . . . ''. In addition, DHS is not required to install 
        fencing ``in a particular location along the international 
        border of the United States if the Secretary determines that 
        the use or placement of such resources is not the most 
        appropriate means to achieve and maintain operational control 
        over the international border at such location.''
  <bullet> Even Senator Chuck Grassley (R-IA), a long-time opponent of 
        immigration reform, said in early January 2017, ``We've already 
        appropriated money for walls. We've got walls right now.''
The wall is expensive.
  <bullet> The Government Accountability Office found that single-layer 
        pedestrian fencing could cost approximately $6.5 million per 
        mile. In addition, millions would have to be spent on roads and 
        maintenance.
  <bullet> The easiest parts of the border fence have been built, 
        according to Marc Rosenblum, formerly of the Migration Policy 
        Institute and the current DHS Deputy Secretary of the Office of 
        Immigration Statistics. The estimated cost of the remaining 
        border wall segments are between $15 and $25 billion, with each 
        mile of fencing costing $16 million.
  <bullet> According to the fiscal year 2017 DHS budget, $274 million 
        was spent on border fence maintenance. Based on that expense, 
        one can extrapolate that if fencing is built on the final two-
        thirds of the Southern Border, the maintenance costs will 
        triple to more than $750 million annually.
  <bullet> In fiscal year 2006, appropriations for building and 
        maintaining border infrastructure was $298 million, and then 
        jumped to $1.5 billion in fiscal year 2007 to pay for the 
        fencing mandated in the Secure Fence Act. Fiscal Year 2016 
        appropriations were $447 million.
The Federal border agencies have not asked for a wall.
  <bullet> Outgoing Commissioner of U.S. Customs and Border Protection 
        (CBP) Gil Kerlikowske said in January 2017, ``I think that 
        anyone who's been familiar with the Southwest Border and the 
        terrain . . . kind-of recognizes that building a wall along the 
        entire Southwest Border is probably not going to work,'' adding 
        that he does not ``think it is feasible'' or the ``smartest way 
        to use taxpayer money on infrastructure.''
  <bullet> The head of the National Border Patrol Council, a union 
        representing 16,000 Border Patrol agents which endorsed 
        President Trump during his campaign, said, ``We do not need a 
        wall along the entire 2,000 miles of border.'' He went on to 
        say, ``If I were to quantify an actual number, I would say that 
        we need about 30 percent. Thirty percent of our border has to 
        have an actual fence [or] wall.'' The existing 650 miles make 
        up more than 30 percent of the 2,000-mile border.
  <bullet> According to an internal U.S. Government study obtained by 
        Reuters in April 2016, CBP believes that more technology is 
        needed along the border to create a ``virtual wall.'' The 
        agency requested better radios and more aerial drones, but only 
        23 more miles of fences.
There are complications to building a wall.
  <bullet> Natural barriers. The Rio Grande River runs along 1,254 
        miles of the border between Mexico and the United States and 
        does not flow in a straight line--instead twisting, turning, 
        and flooding regularly. Under the International Boundary and 
        Water Commission, created in 1889 between the United States and 
        Mexico, border barriers may not disrupt the flow of the Rio 
        Grande. As a result, the current border fencing in Texas is 
        located miles away from the border on private landowner's 
        property. In addition, the mountain range at Otay Mesa in 
        California makes it extremely impractical to construct a wall 
        or fencing.
  <bullet> Private land ownership. After the passage of the Secure 
        Fence Act, the Government attempted to seize private property 
        for purposes of constructing border barriers through eminent 
        domain. These efforts led to protracted legal battles that in 
        some cases lasted 7 years. The Federal Government had to 
        provide monetary compensation to the landowners and agreed to 
        construct several access points along the fence on that 
        property. Some of the existing gaps in the fence are in 
        affluent areas where residents fought construction. It would 
        likely cost the Federal Government considerable amounts of 
        money to purchase land and build in those areas.
  <bullet> Native American land. The Tohono O'odam Nation runs along 75 
        miles of the Southwest Border, and members of the Tribe have 
        already stated they will not allow a border wall to be built on 
        their reservation. A wall would effectively cut the reservation 
        in half and make movement across the border, but within the 
        reservation, difficult. It would separate families and make it 
        difficult for tribe members to care for burial sites located in 
        Mexico. Additionally, Federal law requires the Federal 
        Government to consult with Tribal governments before 
        constructing on the land. Without the Tribe's support, the 
        Federal Government could resort to condemning the land and 
        removing it from the trust of the Tohono O'odam Nation.
The wall would create a host of additional problems.
  <bullet> Border deaths. History has shown that when barriers are 
        erected along the border, people attempt to cross at more 
        remote and dangerous locations. According to U.S. Border Patrol 
        statistics, the Southwest Border witnesses approximately one 
        death per day. Over the past 18 years, nearly 7,000 people have 
        died of hypothermia, drowning, heat exhaustion, or dehydration.
  <bullet> Harm to wildlife. The border region is home to many species 
        and some of the most endangered species, including the Sonoran 
        Pronghorn, the Mexican gray wolf, and the jaguar. If their 
        natural habitat is divided by a large barrier, animals are left 
        with a smaller habitat and may venture outside their usual 
        ranges, causing potential harm to the animals and people.
  <bullet> Damage to the environment. A wall could impede the natural 
        flow of floodwaters, resulting in damage and erosion, as it did 
        in 2008.

    Ms. Barragan. Thank you.
    I want to follow up on some of what was asked. There have 
been a number of comments about the wall being an obstacle, not 
a barrier. Then in our packet I see these photos of what 
appears to be people smuggling drugs just climbing over a fence 
that appears to be easy for them to hop over.
    Who is the wall most effective against? Is it most 
effective against the drug cartels, people smuggling drugs, or 
the families that are coming over because they are escaping 
violence? Who is it most effective against?
    Mr. McCraw. I think it is equally effective to either, 
frankly. But again, as I have testified and I believe some of 
the other--the sheriffs have testified, is that unless you 
are--have technology on that fence, unless someone is 
observing, unless you have coverage on that fence, unless you 
have someone to do the interdiction when someone comes over 
that fence or under that fence or through that fence, it is a 
obstacle and not a barrier.
    Ms. Barragan. Does anybody have any information on how 
often or how frequently the border agents will catch somebody 
hopping the fence or, you know, shortly after they have?
    Sheriff Martinez. I guess in hopping the fence I don't 
think they have that many apprehensions where I am located, but 
for the week of January 27 through February 3 they apprehended 
461 individuals in the Del Rio sector. Del Rio has a 2-mile 
fence. I think Maverick County, Eagle Pass, Texas has a 3-mile 
fence, so all those individuals that were--my belief, all those 
individuals that were apprehended were apprehended outside of 
that boundary.
    Ms. Barragan. Were those that were apprehended people that 
turned themselves in, or people that were--didn't voluntarily 
turn themselves in?
    Sheriff Martinez. I would believe that they didn't 
voluntarily turn themselves in.
    Ms. Barragan. Sheriff Wilmot, do you want to add to any of 
that?
    Sheriff Wilmot. Congresswoman, I would have to defer to 
Border Patrol for those numbers. I do not have that available 
to me.
    Ms. Barragan. OK.
    Sheriff Wilmot. I could only comment on the facts that I 
know for sure.
    Ms. Barragan. Great.
    Judge Trevino. The only comment I would add, Congresswoman, 
is the fact that in speaking with the local border sector 
chiefs I do know that the apprehensions are--have decreased 
considerably over the last several years. That is the only 
statistic that I am aware of, but I don't have the specific 
numbers.
    Ms. Barragan. OK.
    Sheriff Wilmot, you--I know some people have asked about 
this--you have advocated for removing funding for FEMA and 
moving it into DHS. Who would suffer--who is being serviced by 
the FEMA funding that you are advocating that we move those 
funds over?
    Sheriff Wilmot. I don't believe anybody would suffer any 
financial loss from moving those funds from FEMA to DHS. They 
started out in DHS to begin with, as I understand it. So nobody 
would lose any funding.
    Ms. Barragan. Do you know what their funds are currently 
used from--for that we would be pulling from FEMA?
    Sheriff Wilmot. Those funds were specifically designated 
from the very beginning for Operation Stonegarden overtime and 
equipment to help partner with our Border Patrol and Federal 
counterparts. There was no funding removed, that I am aware of, 
from any other budget for that to happen.
    Mr. McCraw. Congresswoman, it was just administratively 
changed. It used to be in DHS--administered the homeland 
security grants. It was moved to FEMA. So the funding stream 
didn't change, just who administrates it.
    Ms. Barragan. OK.
    Then the last question: Sheriff Wilmot, you mentioned--and 
I didn't catch it all, which is why I wanted just to follow 
up--you mentioned that there has been prevention of a number of 
deaths in the desert. Can you just elaborate on what you said 
and how that prevention occurred? What was it that caused the 
prevention?
    Sheriff Wilmot. As I stated in the beginning of my 
testimony, in 2005, 2006 Yuma County was the worst in the 
Nation in regards to cross-border traffic as well as the 
criminal element that so much accompanies it. We were 
experiencing, unfortunately, having to go out into the desert, 
sometimes on a weekly or monthly basis, to recover those 
victims that were abandoned by those smugglers out in the 
desert.
    We, as sheriffs, we are the ones that have to respond out 
there, whether it is Federal land, State land. We have to 
process those crime scenes, and our officers were going out 
there, as I stated, if not weekly or monthly to recover those 
victims that were left out there abandoned to die.
    Ms. Barragan. But what prevented that? That what my 
question part----
    Sheriff Wilmot. The deterrent factor between the 
partnerships with our Federal officers, is the combination of 
fencing, law enforcement presence on the border, and the 
technology with the cameras and sensors to be able to detect 
individuals crossing the desert was all a contributing factor 
in reducing that criminal element and those individuals being 
victimized coming across--rapes, robberies, and the homicides.
    Ms. Barragan. Great.
    Sheriff Martinez. If I can just add, in Brooks County since 
2006 I think that they have worked 563 deaths in that county, 
and they are 100 miles from the border. That is people that 
have come across. So I don't know what the makeup of the--if 
there is a fence there on the border in that area, but that is 
what Brooks County has suffered since 2006. All that, I think--
a lot of that is at the taxpayers' expense.
    Ms. Barragan. Great.
    Thank you. I yield back.
    Chairman McCaul [presiding]. Thank you.
    I want to ask one last question. I know you have got 
flights to catch. I will make it fast.
    We hear a lot, you know, bricks and mortar versus fencing. 
I hear a lot of different--you know, I mean, there are a lot of 
people with the wall being talked about that they want a brick 
and mortar wall like Israel has, you know, and they say that 
will be most effective.
    Then I talk to people that actually--like yourselves--who 
actually live down there, and the fencing you can actually see 
through it, which provides an advantage if it is done 
correctly--if the fencing is.
    Does anybody on the panel have any comments on that 
comparison?
    Mr. McCraw. No, but I think Secretary Kelly made a good 
point about seeing through it. I mean, you would like to see 
what is on the other side of it. To the extent that it can add 
the same obstacle type of capability and you can see through 
it, there is value in that.
    Chairman McCaul. I tend to agree.
    Sheriff Martinez.
    Sheriff Martinez. Yes. I have been to Israel and I have 
seen the fence there, and I see what--I have seen what they go 
through. But, you know, just here in the District of Columbia 
how many fence-jumpers have you had here on this property here? 
It took an armed Federal agent, you know, on the other side of 
that fence to neutralize the situation.
    So, back home is going to need the same kind of attention.
    Chairman McCaul. Yes.
    Sheriff Wilmot.
    Sheriff Wilmot. I would agree that it helps to be able to 
see through. We have that type of fencing and it is a plus, as 
far as our Border Patrol agents are concerned. You know what is 
on the other side so you are not encountering that threat 
without even knowing it is 5 foot away from you.
    Chairman McCaul. Exactly.
    Judge.
    Judge Trevino. Mr. Chairman, from my meetings and 
conversations with the Border Patrol agents they certainly 
appreciate the fact that they are able to see and not 
necessarily always be seen. The concern behind a more concrete 
or less visible barrier would give the advantage to the other 
side. As the sheriffs have alluded to, I think our agents have 
to be able to know what is on the other side in order to 
properly defend themselves and protect whatever it is----
    Chairman McCaul. It is very helpful because, you know, 
again, a lot of these Members that tout, you know, the bricks 
and mortar have never been down there. You guys are really the 
experts, so thank you for being here today.
    Members may have additional questions in writing. I would 
ask that you respond in--Sheriff, did you have one last 
comment?
    Sheriff Wilmot. I would like to throw out there, sir, that 
our priority would be also to add in being able to support the 
U.S. attorney's office and getting U.S. attorneys that can 
actually handle the caseload. They built a brand new Federal 
courthouse in Yuma County that only has one Federal magistrate, 
so all of our agents, all of our U.S. attorneys have to travel 
3 hours to get to court in Phoenix.
    They could save a lot of money by hiring a district judge 
to be in Yuma to handle the caseload and free those officers 
and agents up and those U.S. attorneys to be able to perform 
their jobs.
    Chairman McCaul. Yes. The Secretary discussed that, and my 
conversations with Jeff Sessions, who will be the attorney 
general. You know, he agrees. We talked about Operation 
Streamline, which was very effective from a deterrent 
standpoint with prosecutions. So that is very good.
    Also, pursuant to rule 7(d) the hearing will be open for 10 
days.
    With that, without objection, the committee stands 
adjourned.
    [Whereupon, at 3:21 p.m., the committee was adjourned.]



                            A P P E N D I X

                              ----------                              

           Questions From Honorable Will Hurd for John Kelly
    Question 1. It is my understanding that the Department of State is 
in the midst of awarding a new contract for the development and 
issuance of the next generation of U.S. passports. As the lead agency 
dealing with the security of our borders and inspecting everyone who 
enters our country, I am curious about your thoughts on what 
requirements should exist for this document throughout its life span 
from production to expiration.
    Answer. U.S. Customs and Border Protection Officers function as the 
front line of border control verification and U.S. Immigration and 
Customs Enforcement/Homeland Security Investigations (HSI) enforce 
Federal statutes related to the use of passports. As such, both 
components supported the Department of State (DOS) in the Next 
Generation Passport Working Group and provided operational expertise on 
areas of interest including book design to make executing the 
Department of Homeland Security's mission easier. However, DHS defers 
additional requirements to DOS as it maintains lead of all matters 
regarding U.S. passports, including the Next Generation Passport 
Working Group.
    Question 2. Does the Department of State requiring that all 
personnel working on the Program have DOD Secret (or higher) clearance?
    Do you know if the executives (president, CFO, security officer, 
etc.) of the prime contractor AND the major subcontractors have the 
appropriate clearances?
    Answer. The Department of Homeland Security defers to the 
Department of State on this question.
    Question 3. Was DHS consulted when setting the requirements for the 
next generation passport throughout its life span?
    Answer. Yes. U.S. Customs and Border Protection and the U.S. 
Immigration and Customs Enforcement Forensic Labs consulted with the 
Department of State.
    Question 4. Do you believe that the supply chain for the Next 
Generation U.S. Passport is as secure as it could be?
    Are there any concerns if the new passport personalization system 
is manufactured outside the United States?
    Answer. The Department of Homeland Security defers to the 
Department of State on matters regarding U.S. passports.
    Question 5. Are there any cybersecurity concerns if the software 
provided by the passport personalization contractor is manufactured and 
later updated outside the United States?
    Answer. Given that this contract for the development and issuance 
of next generation passports is being led by the U.S. State Department, 
I respectfully defer to them for a more comprehensive answer to this 
question.
    Questions From Ranking Member Bennie G. Thompson for John Kelly
    Question 1. Pursuant to the ban, how many travelers did CBP detain?
    How many withdrew their applications for admission?
    How many were removed from the country?
    How many received waivers to enter the country?
    How many were denied boarding?
    How many visas were revoked while the Executive Order was actively 
implemented by CBP?
    Answer. CBP does not detain travelers.\1\ However, when ordered by 
the District Court in Darweesh v. Trump, 17-cv-480 (E.D.N.Y.) to 
identify individuals affected by Executive Order 13769 (since revoked) 
and encountered by CBP between 9:37 PM on January 28 and 11:59 PM on 
January 29, CBP identified 765 individuals. With respect to individuals 
whose visas may have been physically cancelled at the ports of entry, 
including those who withdrew their applications for admission, CBP has 
provided the attached declaration in that same matter. Finally, with 
respect to those individuals who CBP recommended to a carrier that they 
not be permitted to board, as of February 2, 2017 CBP's publicly-
available website indicated 1,222 individuals.
---------------------------------------------------------------------------
    \1\ While some may characterize secondary inspection as 
``detention,'' CBP would disagree. Rather, a secondary inspection is 
merely a continuation of the processing performed on primary. See, 
United States v. Galloway, 316 F.3d 624, 629 (6th Cir. 2003) (noting 
``secondary inspection is no less a matter of course and no less 
routine than the primary inspection'').
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Question 2. What guidance did DHS and/or CBP headquarters provide 
CBP officers regarding implementation of this Executive Order?
    When was this guidance drafted?
    When was it communicated to the field?
    What resources were made available to the field when conflicts or 
questions about implementation arose?
    What were some of the most common challenges faced by CBP officers?
    Answer. Due to the complex nature of this effort, CBP's Office of 
Congressional Affairs would like to set up a briefing to address your 
questions on this matter. Please contact Ms. Kim Lowry, Acting 
Assistant Commissioner, Office of Congressional Affairs, to arrange a 
date and time that CBP may come and brief you and your staff on this 
important initiative.
    Question 3a. The Executive Order on border security signed by 
President Trump last month requires you to ``take all appropriate steps 
to immediately plan, design, and construct a physical wall along the 
Southern Border . . . to most effectively achieve complete operational 
control of the Southern Border.'' It provides no further specifics.
    What are your plans for deploying the wall?
    Answer. In response to Executive Order (EO) 13767: Border Security 
and Immigration Enforcement Improvements, U.S. Customs and Border 
Protection (CBP) is directly soliciting industry input for conceptual 
wall design(s) with the intent to construct multiple prototypes. The 
primary purpose of this effort is to develop design standards for a 
border wall that may be constructed along the Southwest Border with 
Mexico in support of U.S. Border Patrol (USBP) operational 
requirements. Any and all prototypes will be designed to deter illegal 
entry into the United States.
    Question 3b. For example, how many miles, what locations, what type 
of wall?
    Answer. CBP anticipates constructing multiple prototypes. USBP is 
in the process of evaluating operational requirements to determine wall 
placement.
    CBP requested proposals for both solid concrete wall prototypes and 
non-concrete prototypes. Through the solicitation process CBP will 
partner with industry to determine the best means and methods to 
include materials for constructing such prototypes.
    Question 3c. What is the estimated cost?
    Answer. CBP is aligning funds to support border wall prototype 
planning, design, construction, and evaluation. CBP is currently 
working to refine its prototype estimate. However, any more specific 
estimate information is procurement-sensitive.
    Question 3d. How much of the land involved is private property?
    Answer. CBP does not anticipate being required to acquire 
additional land for the prototype construction. However, until the 
solicitation process is complete and the prototypes have been selected, 
CBP cannot rule out the need to acquire additional property.
    Question 3e. What other challenges do you see in the Department's 
ability to deploy additional wall along the border?
    Answer. CBP is not yet in a position to forecast the challenges 
that may arise with the deployment of additional wall. CBP will be in a 
better position to make this assessment after the prototypes have been 
fully considered.
    Question 3f. What is the estimated cost for maintenance of that 
wall?
    Answer. Border wall maintenance costs have not yet been determined. 
Once the prototypes have been fully considered by CBP, CBP will be in a 
better position to estimate potential maintenance costs.
    Question 4a. The Government Accountability Office (GAO) and others 
have reported on the need for better data and metrics to assess the 
effectiveness of various border security investments, including 
infrastructure and technology. The Border Patrol has struggled to 
replace its ``operational control'' metric with another meaningful 
measure of border security.
    What goals and measures will you use to assess efforts and 
investments to secure U.S. borders?
    Answer. Based on an internal study and direction from Congress, 
most recently in the Fiscal Year 2017 National Defense Authorization 
Act (NDAA), DHS is developing a unified outcome-based border security 
performance management framework, which will relate the President's 
border security outcome, Operational Control,\2\ to the Department's 
strategic lines of effort and investments in border security, including 
personnel, infrastructure, and technology. Consistent with the 
President's definition for Operational Control, Congress's direction in 
the Fiscal Year 2017 NDAA, and the border mission described in the most 
recent QHSR, DHS's main outcome measures for border security will 
include estimates of the total successful entry of illegal aliens and 
illicit goods into the United States. DHS is working to develop these 
illegal entry estimates across several domains, including at and 
between ports on the southern land border as well as the southern 
maritime border (Gulf of Mexico and Caribbean). In addition to these 
outcome metrics, DHS also tracks input, activity, and output metrics to 
inform strategic and operational decision making and is actively 
enhancing some of these metrics in response to the NDAA. Investment 
measures, sometimes referred to as ``inputs,'' include the number of 
Border Patrol agents, technology, and tactical infrastructure employed, 
among others. Activities measured include illegal aliens apprehended, 
drugs seized, and number of UAS sorties flown, among others. Strategic 
output metrics include the probability of apprehending aliens 
attempting to cross the border illegally and deterrence rates.
---------------------------------------------------------------------------
    \2\ The President's Executive Order on Border Security and Interior 
Enforcement Improvements defines Operational Control as the prevention 
of all unlawful entries into the United States, including entries by 
terrorists, other unlawful aliens, and instruments of terrorism, 
narcotics, and other contraband.
---------------------------------------------------------------------------
    Concurrently, DHS's Management Directorate, supported by CBP, ICE, 
USCIS, and USCG, is leading a 180-day Comprehensive Southern Border 
Security Study in response to the President's Executive Order on Border 
Security and Interior Enforcement Improvements (Section 4.d). This 
study will include an assessment of current border security that will 
leverage some of the measures being developed for the NDAA. 
Additionally, this study will propose an overarching strategy to 
achieve ``complete operational control'' of the Southwest Border.
    Question 4b. When can we expect to see these metrics in use by the 
Department?
    Answer. Congress directed the Department, through the Fiscal Year 
2017 NDAA, to provide the new outcome-based and other specified 
measures initially by June 22, 2017, then as part of annual reporting 
commencing on November 30, 2017. Concurrently, the Department is 
conducting an assessment of current border security as part of the 
Comprehensive Southern Border Security Study due to the President on 
July 24, 2017. While DHS continues to maintain and report our current 
Government Performance and Results Act (GPRA) performance measures for 
the border security mission, we will update these measures accordingly, 
based on the results of the NDAA and Executive Order reports.
    Question 5a. Each year, millions of visitors, foreign students, and 
immigrants enter the United States on a legal temporary basis. The 
majority of visitors depart on time; however, significant numbers of 
visitors overstay their authorized periods of admission. Although DHS 
has spent significant resources on exit-related efforts, the Department 
has yet to implement a biometric exit capability.
    What are your plans to successfully implement a biometric exit 
capability so that DHS can accurately count the number of overstays, 
identify foreign nationals who overstay or violate the terms of their 
visit, and enforce relevant laws?
    Answer. CBP encountered significant infrastructure, operational, 
and logistical challenges during the initial deployment of the 
biometric exit program. However, despite these early challenges, CBP, 
in partnership with the DHS Science and Technology Directorate (S&T), 
conducted several biometric exit pilots in the air and land port 
environments. CBP used lessons learned from these pilots (e.g., 
technological approaches, passenger dynamics, multi-modal biometric 
collection, and process/operational impacts) to successfully design and 
implement, beginning in June 2016, a Biometric Air Exit pilot at 
Hartsfield-Jackson Atlanta International Airport. Five key parameters 
guided the pilot:
  <bullet> Minimal impact to existing travel processes;
  <bullet> Integrate with existing airport infrastructure;
  <bullet> Leverage existing airline systems, processes, and business 
        models;
  <bullet> Use current passenger behaviors and expectations without 
        requiring new or unexpected steps for travelers, and;
  <bullet> Utilize advanced passenger information and, to the greatest 
        extent possible, existing traveler data and Government systems 
        to stage biometrics in small batches to facilitate faster 
        matching.
    The Atlanta pilot proved to be a successful, and potentially 
feasible, way forward using a simple camera at the airline's boarding 
pass checkpoint to take a traveler's photo. This checkpoint biometric 
collection is quick, easy, and contactless. Facial recognition 
technology would then match the checkpoint photo with the traveler's 
previously collected passport/arrival photo(s), associated with travel 
documentation or immigration processing information. Biometrically 
matching a traveler's departure record to their previous arrival record 
strengthens the integrity of the immigration system. Due to the success 
of the pilot, CBP believes it has developed an achievable vision and 
realistic plan for implementation of a biometric air exit program. This 
not only solves a 20-year statutory requirement, but it also provides 
an opportunity to re-design the entire travel process for airlines and 
passengers, bringing greater convenience and security.
    Throughout fiscal years 2017-2018, CBP will use lessons learned 
regarding technology, passenger behavior, and multi-modal biometrics, 
and further expand the biometric exit program toward meeting the 
mandate given by Congress. CBP will ensure that any future concept of 
operations for implementing biometric exit (air, land, or sea) adheres 
to, as appropriate, the aforementioned key parameters with the ultimate 
goal of enhancing security while facilitating legitimate trade and 
travel.
    Question 5b. How will you ensure that the capability does not 
impede legitimate travel and commerce?
    Answer. CBP's approach will create an opportunity for CBP to 
transform air travel by enabling all stakeholders in the travel system 
to match travelers to their data using biometrics, leverage passenger 
behaviors and expectations that do not require new or unexpected steps 
for travelers, and unlock benefits that continue to enhance CBP's 
ability to fulfill its mission to enhance security while facilitating 
legitimate travel.
    Question 5c. What are your plans to develop and implement a 
strategy for addressing overstays once an exit capability is 
operational?
    Answer. The completion of a full exit capability will improve CBP's 
ability to accurately identify overstays, as more complete arrival and 
departure information will then be available for all travelers. Today, 
CBP uses travel manifests received from commercial and private aircraft 
and commercial sea carriers; manifest data voluntarily provided by bus 
and rail carriers; data collected by CBP officers during border 
crossings; cooperative information-sharing agreements; and data 
received from U.S. Citizenship and Immigration Services (USCIS) or U.S. 
Department of State to determine how long a visitor is eligible to 
remain in country or, conversely, how long they have overstayed if that 
authorized period of admission has expired. CBP uses this information 
to take actions against individuals who are confirmed overstays either 
directly or in coordination with U.S. Immigration and Customs 
Enforcement (ICE) and others. The consequence for overstaying can range 
from losing the ability to participate in programs such as the Visa 
Waiver Program to deportation and removal proceedings.
    In terms of enforcement, ICE actively identifies and initiates 
action on priority overstay violators. ICE's overstay mission is 
accomplished in close coordination with CBP. ICE's primary objective is 
to vet system-generated leads in order to identify true overstay 
violators, match any criminal conviction history or other priority 
basis, and take appropriate enforcement actions. Within ICE, Homeland 
Security Investigations (HSI) has dedicated units, special agents, 
analysts, and systems in place to address nonimmigrant overstays. 
Through investigative efforts, HSI is responsible for analyzing and 
determining which overstay leads may be suitable for further National 
security investigation.
    From a DHS processing standpoint, ICE analyzes system-generated 
leads initially created by, or matched against, the data feed for 
biographical entry and exit records stored in CBP's Arrival and 
Departure Information System (ADIS). ADIS supports the Department's 
ability to identify nonimmigrants who have remained in the United 
States beyond their authorized periods of admission or have violated 
the terms and conditions of their visas. Once the leads are received, 
ICE conducts both batch and manual vetting against Government 
databases, social media, and public indices. This vetting helps 
determine if an individual who overstayed has departed the United 
States, adjusted to a lawful status, or would be appropriate for an 
enforcement action.
    As part of a tiered review, HSI prioritizes nonimmigrant overstay 
cases through risk-based analysis. HSI's Counterterrorism and Criminal 
Exploitation Unit (CTCEU) oversees the National program dedicated to 
the investigation of nonimmigrant visa violators who may pose a 
National security risk. Each year, the CTCEU analyzes records of 
hundreds of thousands of potential status violators after preliminary 
analysis of data from the Student and Exchange Visitor Information 
System (SEVIS) and ADIS, along with other information. After this 
analysis, CTCEU establishes compliance or departure dates from the 
United States and/or determines potential violations that warrant field 
investigations.
    The CTCEU proactively develops cases for investigation in 
furtherance of the overstay mission and monitors the latest threat 
reports and proactively address emergent issues. This practice, which 
is designed to detect and identify individuals exhibiting specific risk 
factors based on intelligence reporting, travel patterns, and in-depth 
criminal research and analysis, has contributed to DHS's 
counterterrorism mission by initiating and supporting high-priority 
National security initiatives based on specific intelligence.
    Additionally, DHS has made substantial improvements over the last 5 
years to identify, prioritize, and address confirmed overstays. DHS 
system enhancements that have strengthened our immigration enforcement 
efforts include:
  <bullet> Improved ADIS and Automated Targeting System--Passenger 
        (ATS-P) data flow and processing quality and efficiency, 
        increasing protection of privacy through secure electronic data 
        transfer.
  <bullet> Extended leverage of existing ATS-P matching algorithms, 
        improving the accuracy of the overstay list. Additional ADIS 
        matching improvements are underway to further improve match 
        confidence.
  <bullet> Developed an operational dashboard for ICE agents that 
        automatically updates and prioritizes overstay ``Hot Lists,'' 
        increasing the efficiency of data flow between the DHS Office 
        of Biometric Identity Management (OBIM) and ICE.
  <bullet> Implemented an ADIS-to-IDENT interface reducing the number 
        of records on the overstay list by providing additional and 
        better quality data to ADIS, closing information gaps between 
        the two systems. IDENT refers to the Automated Biometric 
        Identification System, which is the current DHS biometric 
        repository for storage and matching.
  <bullet> Improved ability of ADIS to match U.S. Citizenship and 
        Immigration Services' (USCIS') Computer Linked Adjudication 
        Information Management System (CLAIMS 3) data for aliens who 
        have extended or changed their status lawfully, and therefore 
        have not overstayed even though their initial period of 
        authorized admission has expired.
  <bullet> Created a Unified Overstay Case Management process 
        establishing a data exchange interface between ADIS, ATS-P, and 
        ICE's LeadTrac system, creating one analyst platform for DHS.
  <bullet> Enhanced ADIS and Transportation Security Administration 
        (TSA) Alien Flight Student Program (AFSP) data exchange to 
        increase identification, efficiency, and prioritization of TSA 
        AFSP overstays within the ADIS overstay population.
  <bullet> Enhanced Overstay Hot List, consolidating immigration data 
        from multiple systems to enable ICE employees to more quickly 
        and easily identify current and relevant information related to 
        the overstay subject.
  <bullet> Established User-Defined Rules enabling ICE agents to create 
        new or update existing rule sets within ATS-P as threats 
        evolve, so that overstays are prioritized for review and action 
        based on the most up-to-date threat criteria.
    The DHS steps described above have strengthened data requirements 
through computer enhancements, identified National security overstays 
through increased collaboration with the intelligence community, and 
automated manual efforts through additional data exchange interfaces.
    Question 6. On January 23, 2017, President Trump signed a 
memorandum ordering a freeze on the hiring of Federal civilian 
employees to be applied across the board in the Executive branch. The 
memorandum provided that the head of any Executive department or agency 
may exempt from the hiring freeze any positions necessary to meet 
National security or public safety responsibilities.
    Presumably the hiring of Border Patrol agents, U.S. Customs and 
Border Protection (CBP) officers, U.S. Immigration and Customs 
Enforcement (ICE) special agents is exempt, correct?
    But what about other non-law enforcement, but mission-critical 
positions, such as CBP agricultural specialists, seized property 
specialists, and support personnel?
    If these positions go unfilled, law enforcement officers will 
likely be pulled from their field to compensate. Please explain how the 
hiring freeze is being implemented with respect to these critical, non-
law enforcement positions and at the Department of Homeland Security 
generally.
    Answer. Department leadership is committed to ensuring the 
successful accomplishment of its National security and public safety 
missions. During the hiring freeze, the DHS hiring freeze exemption 
process, approved by the Office of Management and Budget and the Office 
of Personnel Management, enabled DHS to quickly exempt front-line and 
support positions such as CBP agriculture specialists. Now that the 
hiring freeze is over, DHS continues to fill critical positions to 
accomplish its mission in accordance with OMB memo M-17-22 
``Comprehensive Plan for Reforming the Federal Government and Reducing 
the Federal Civilian Workforce.''
    Question 7. Recent cyber hacks and attacks have compromised 
business operations, critical infrastructure, and even campaign 
activity. There is no sign that the cyber threats we face will become 
less frequent or less severe.
    How do you expect the President's Federal hiring freeze to affect 
the Department's ability to carry out its cybersecurity mission?
    Will you be able to hire the talent you need to protect our 
networks?
    Answer. On January 23, 2017, the President issued a Memorandum 
directing agencies to implement an across-the-board hiring freeze of 
Federal civilian employees. The President authorized the heads of 
departments and agencies to exempt positions he or she deemed necessary 
to meet National security or public safety responsibilities. Given the 
Department of Homeland Security's critical mission to secure the Nation 
and ensure the public safety, a number of positions within the 
Department were exempted from the hiring freeze. Positions necessary to 
carry out the Department's mission to safeguard and secure cyber space 
were among those exempted from the hiring freeze.
    Due to the exemption of cybersecurity positions from the hiring 
freeze, and other hiring and retention authorities provided by 
Congress, we have been able to hire the talent we need without 
interruption.
    Question 8a. President Trump's Executive Order on border security 
directs the hiring of an additional 5,000 Border Patrol agents, but 
gives no other specifics.
    What is the time frame for hiring these additional agents?
    Answer. CBP will to comply with the President's Executive Order on 
Border Security and Immigration Enforcement Improvements. Projecting a 
time frame for hiring 5,000 additional Border Patrol agents (BPA) is a 
work in progress as we map out screening, vetting, hiring, and training 
executables that ensure there is no degradation in the quality of our 
BPA while reaching the President's goals. We will work diligently with 
the Department of Homeland Security, the Congress, and other Federal 
Government and private partners to meet the Executive Order mandate. 
Staffing the front line with well-qualified individuals of the highest 
integrity and operational quality remains a top mission support 
priority for CBP. CBP will maintain the hiring surge that has been in 
effect since fiscal year 2014.
    To this end, CBP has intensified all aspects of our hiring 
strategy, including initiatives designed to attract qualified 
applicants, expedite the pre-employment time line, refine the hiring 
process to address all potential bottlenecks, and reduce the attrition 
rate of our existing workforce. We continue to build on the momentum of 
our process improvement efforts, which in the last 2 years, have led to 
a significant reduction in the time-to-hire and an increased applicant-
to-entrance-on-duty rate. We've incorporated lessons learned from our 
2015 hiring hub program into a new expedited hiring process that, as of 
April 2017, is being used for all front-line applicants. The average 
time-to-hire dropped from 469 days in January 2016 to fewer than 300 
days in March 2017. We anticipate this number will continue to 
decrease, as the hiring hub model has shown the ability to hire 
applicants in an average time of as low as 160 days.
    CBP is working to further refine its hiring process and eliminate 
redundancies, improving the applicant experience and further reducing 
the time-to-hire. This is a key aspect of our larger strategy, as 
shorter hiring times can prevent otherwise qualified candidates from 
dropping out of the process due to fatigue or accepting immediate job 
offers elsewhere. We are also reviewing modifications to the 
administration of the polygraph exam, entrance exam, and physical 
fitness tests, with each modification carefully assessed for all risks 
and mitigation measures. Our process is meant to ensure only 
individuals with the highest integrity serve as agents and officers 
safeguarding our borders and ports of entry--and we remain committed to 
upholding these standards amid the increasing urgency to hire more 
personnel.
    Parallel efforts include intensified recruitment and marketing 
activities designed to increase the number of qualified applicants 
entering the hiring pipeline. This includes a large-scale rebranding 
effort that incorporates data-driven marketing campaigns across 
multiple platforms and recruitment events in many strategic regions of 
the country. CBP has also worked with the Office of Personnel 
Management (OPM) to obtain direct-hire authority to help fill the 
additional BPA positions, as well as other positions involved in 
protecting our borders. OPM also approved a revision for qualifying 
BPAs to enable us to change our methods for filling BPA positions and 
thus improving our ability to meet certain mission-critical hiring 
needs. Additionally, CBP through the DHS Office of the Chief Human 
Capital Officer, has submitted a consolidated DHS request to OPM on May 
2, 2017 for approval of dual compensation waiver positions. Approval of 
this authority would enable CBP to rehire annuitants who can help build 
an adequately-staffed mission support infrastructure and provide all 
necessary support. This will strengthen the performance of CBP's 
various law enforcement, National security, and trade operations that 
protect our borders.
    These and other efforts will not only ensure CBP compliance with 
the Executive Order but also further establish our long-term ability to 
staff the front line in accordance with the expanding complexity and 
demands of our mission.
    Question 8b. Are you aware that Border Patrol is already more than 
1,800 agents short of its existing staffing target and has struggled to 
hire enough agents just to keep pace with attrition?
    Answer. Yes, CBP's challenges in recruitment predate the 
President's Executive Order, and we have worked aggressively over the 
past several years to implement a multifaceted recruitment strategy and 
execute large-scale improvements to our front-line hiring process and 
capability. While these efforts have led to considerable progress in 
many areas--including declines in the overall time-to-hire and BPA 
attrition rates--CBP intends to further strengthen all aspects of its 
recruitment strategy in order to meet the Executive Order hiring 
mandate. As part of this strategy, CBP has worked with OPM in order to 
obtain necessary recruitment and hiring flexibilities.
    Question 8c. CBP's Office of Field Operations is having similar 
problems. How are you going to address hiring challenges at CBP while 
ensuring that new hires are suited for the job?
    Answer. CBP will continue the aggressive implementation of its 
recruitment strategy across all three of its front-line components: 
U.S. Border Patrol, Office of Field Operations, and Air and Marine 
Operations. Our efforts focus primarily on attracting more applicants 
who are better-suited to the unique demands of our mission. To this 
end, CBP will look to further improve brand awareness and convey the 
importance and scope of our mission within the public sphere. We will 
continue to focus on increasing our digital and social media presence 
to reach the millennial generation, expanding our outreach at high 
schools and colleges, and collaborating with the Department of Defense 
to help transitioning service members find rewarding and suitable 
careers with CBP.
    CBP is also in the process of examining every aspect of its pre-
employment process to identify areas in which further improvements can 
be made. While modifications to our process are being considered--many 
of which were proposed prior to the release of the Executive Order--CBP 
will not implement any change without carefully weighing risks and 
mitigation measures. To be clear, CBP is not lowering its standards for 
any of its front-line personnel. The changes under consideration may 
result in more applicants passing the pre-employment process, but all 
successful applicants must still successfully complete basic training 
at our Academies, whose core function is to uphold our front-line 
standards and ensure mission-readiness.

                                 <all>
</pre></body></html>
